<html>
<title> - GOOGLE AND INTERNET CONTROL IN CHINA: A NEXUS BETWEEN HUMAN RIGHTS AND TRADE?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                 GOOGLE AND INTERNET CONTROL IN CHINA:
                A NEXUS BETWEEN HUMAN RIGHTS AND TRADE?

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 24, 2010

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov



                  U.S. GOVERNMENT PRINTING OFFICE
56-161 PDF               WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate                                House

BYRON DORGAN, North Dakota, Chairman  SANDER LEVIN, Michigan, Cochairman
MAX BAUCUS, Montana                   MARCY KAPTUR, Ohio
CARL LEVIN, Michigan                  MICHAEL M. HONDA, California
DIANNE FEINSTEIN, California          TIMOTHY J. WALZ, Minnesota
SHERROD BROWN, Ohio                   DAVID WU, Oregon
SAM BROWNBACK, Kansas                 CHRISTOPHER H. SMITH, New Jersey
BOB CORKER, Tennessee                 EDWARD R. ROYCE, California
JOHN BARRASSO, Wyoming                DONALD A. MANZULLO, Illinois
GEORGE LeMIEUX, Florida               JOSEPH R. PITTS, Pennsylvania



                     EXECUTIVE BRANCH COMMISSIONERS

                  Department of State, To Be Appointed
                  Department of Labor, To Be Appointed
                Department of Commerce, To Be Appointed
                       At-Large, To Be Appointed
                       At-Large, To Be Appointed

                 Charlotte Oldham-Moore, Staff Director

             Douglas Grob, Cochairman's Senior Staff Member

                                  (ii)





















                             CO N T E N T S


                              ----------                              
                                                                   Page
Opening statement of Hon. Byron L. Dorgan, a U.S. Senator from 
  North Dakota; Chairman, Congressional-Executive Commission on 
  China..........................................................     1
Smith, Hon. Christopher H., a U.S. Representative from New 
  Jersey; Ranking Member, Congressional-Executive Commission on 
  China..........................................................     3
Wu, Hon. David, a U.S. Representative from Oregon; Member, 
  Congressional-Executive Commission on China....................     5
LeMieux, Hon. George, a U.S. Senator from Florida; Member, 
  Congressional-Executive Commission on China....................     6
Davidson, Alan, Director of U.S. Public Policy, Americas, Google, 
  Inc............................................................     7
Jones, Christine, Executive Vice President, General Counsel, and 
  Corporate Secretary, The Go Daddy Group........................     9
Hom, Sharon, Executive Director, Human Rights in China...........    11
Black, Edward, President and CEO, Computer & Communications 
  Industry Association...........................................    15
Palmer, Hon. Mark, former U.S. Ambassador to Hungary.............    17

                                Appendix

Davidson, Alan...................................................    34
Jones, Christine.................................................    37
Hom, Sharon......................................................    41
Black, Edward....................................................    45
Palmer, Hon. Mark................................................    49

Dorgan, Hon. Byron...............................................    52
Levin, Hon. Sander...............................................    53
Smith, Hon. Christopher H........................................    54

                       Submissions for the Record

Select List of Political Prisoners Punished for Online Activity, 
  March 24, 2010, submitted by Senator Byron Dorgan..............    56
Statement by Chinese Internet Bureau of the Information Office of 
  the State Council..............................................    67
Written statement submitted by Rebecca MacKinnon, Visiting 
  Fellow, Center for Information Technology Policy, Princeton 
  University.....................................................    68
Questions and Answers submitted for the record...................    76

 
GOOGLE AND INTERNET CONTROL IN CHINA: A NEXUS BETWEEN HUMAN RIGHTS AND 
                                 TRADE?

                              ----------                              


                       WEDNESDAY, MARCH 24, 2010

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 2:06 p.m., 
in room 628, Dirksen Senate Office Building, Hon. Byron L. 
Dorgan, Chairman, presiding.
    Also present: Senator George LeMieux; Representatives 
Christopher H. Smith; David Wu; and Michael Honda.

OPENING STATEMENT OF HON. BYRON L. DORGAN, A U.S. SENATOR FROM 
 NORTH DAKOTA; CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Chairman Dorgan. The purpose of today's hearing is to 
examine China's censorship of the Internet and the challenge it 
poses both to advocates of free expression and to U.S. 
companies doing business in China. The recent controversy over 
Google's operations makes clear that the Chinese Government's 
regulation of the Internet is both a human rights and trade 
issue.
    In the spring of 2000, Congress debated whether to support 
PNTR [permanent normal trade relations] for China. Supporters 
argued that opening China's markets would improve human rights 
and level the playing field for U.S. companies. The Internet 
was expected to lead the way, and it has brought some important 
changes. Today, China has 400 million Internet users, the most 
in the world. The Chinese Government, to its credit, has 
invested heavily in Internet infrastructure and sought to 
bridge the digital divide between rich and poor.
    Yet, the larger hopes for genuine openness and freedom have 
gone unrealized. China's Internet users remain subject to the 
arbitrary dictates of state censorship. More than a dozen 
agencies are involved in implementing a host of laws, 
regulations, and other tools to try to keep information and 
ideas from the Chinese people.
    The government also continues to strengthen controls over 
the Internet and to harshly punish citizens such as Liu Xiaobo, 
who use the Internet to advocate for human rights and political 
reform. I have a list here of political prisoners in China 
punished in recent years for Internet activities. It was drawn 
from the Commission's publicly accessible Political Prisoner 
Database. I request that this list be included in the hearing 
record.
    As this list vividly shows, China's censorship practices 
and control of the Internet have had a terrible impact on human 
rights 
advocates. These include ordinary people who promote political 
freedoms or try to organize on line, or ethnic groups such as 
Uyghurs and Tibetans attempting to share information about 
ongoing government repression.
     We also are learning that Internet censorship and 
regulation in China have serious economic implications for many 
U.S. companies, such as Go Daddy. China's Internet regulations 
often run against basic international trade principles of 
nondiscrimination and maintaining a level playing field.
    Testifying before the Commission today is a representative 
from Google, perhaps the most potent Internet company in the 
world. In mid-December, Google was a victim of a highly 
sophisticated and targeted attack on its corporate 
infrastructure originating from China. Google announced this 
week that it will stop censoring its Chinese search engine, by 
rerouting its China searches to its Hong Kong site. The company 
also said it would also monitor and publicize any attempts at 
censorship of its Hong Kong site by the Chinese Government.
    Google's decision is a strong step in favor of freedom of 
expression and information. It is also a powerful indictment of 
the Chinese Government's insistence on censorship of the 
Internet.
    The Commission is dedicated to understanding the 
connections between trade and human rights in China. For that 
reason, we have called on five prominent American business 
leaders and human rights experts to discuss the impact of 
Internet censorship in China today. I look forward to hearing 
from the witnesses about possible ways for the U.S. Government, 
policymakers and businesses to respond to China's regulation of 
the Internet from both human rights and trade perspectives.
    I wanted to say at the start of this hearing that we asked 
the Chinese Embassy if they would like to send a representative 
to appear before us today. They declined, as they always have. 
They did, however, send a statement. I want to move now to have 
that statement included in the hearing record. It is the first 
time that they have done so, and I want to include that in the 
record. Without objection, we will do so.
    Chairman Dorgan. Yes?
    Representative Wu. Can we read a short section of it?
    Chairman Dorgan. It's in your packet. I think we'll just 
include it in the record. In fact, there will be much of the 
statement with which we will disagree, but I do want it to be, 
nonetheless, a part of the formal hearing record. I also want 
to include, as a part of the formal hearing record, the 
prisoner list that is in your packet today and a submission of 
a testimony for the record by Rebecca MacKinnon, Visiting 
Fellow of the Center for Information Technology Policy at 
Princeton University.
    So without objection, I will include all of those.
    If we have comments--brief comments, opening comments--by 
others on the panel, I'd be happy to recognize them.
    Representative Smith. Mr. Chairman?
    Chairman Dorgan. Yes, sir.
    [The prepared statement of Chairman Dorgan appears in the 
appendix.]
    [The letter from the Chinese Internet Bureau of the 
Information Office of the State Council appears in the 
appendix.]
    [The prisoner list appears in the appendix.]
    [The prepared statement of Rebecca MacKinnon appears in the 
appendix.]

 STATEMENT OF HON. CHRISTOPHER H. SMITH, A U.S. REPRESENTATIVE 
   FROM NEW JERSEY; RANKING MEMBER, CONGRESSIONAL-EXECUTIVE 
                      COMMISSION ON CHINA

    Representative Smith. Thank you, Mr. Chairman. As Ranking 
Member of the Commission, I applaud you for holding this very 
important hearing on Internet freedom.
    As we know, Reporters Without Borders documents that in 
China alone at least 72 people are known to be imprisoned for 
Internet postings. The victims of the Chinese Government's 
assault on Internet freedom include the entire Chinese people, 
denied their right to freedom of expression, denied access to 
information, and often self-censoring out of fear.
    Even beyond this, the Chinese Government's victims include 
other peoples, tyrannized by governments with which the Chinese 
Government sells or gives its advice on technologies and 
techniques of Internet repression. Reportedly, these include 
Cuba, Vietnam, Burma, Belarus, and Sri Lanka.
    Yet we have seen some positive developments. We have seen 
that some U.S. IT companies really want to do the right thing. 
Yahoo! has established much stricter policies governing its 
interactions with repressive governments, especially with 
Vietnam. Yesterday, we had a hearing--and I chaired it--in the 
Tom Lantos Human Rights Commission on human rights in Vietnam. 
They have put personally identifiable information out of the 
hands of Vietnam.
    Even while we were meeting, a member of the Human Rights 
Watch organization got an e-mail that Dr. Phan Hong Son, and I 
met with his wife when I was in Vietnam, obviously another 
country but borrowing from China, that he had just had his 
house 
invaded after spending four years in prison for posting on the 
Internet ``What is Democracy,'' translated and downloaded from 
U.S. Embassy Hanoi. For that so-called crime, he got a jail 
sentence. Yesterday they raided his home. But Yahoo! has 
learned from that and put that personally identifiable 
information outside the reach of the secret police.
    Google's transformation has been perhaps the most 
impressive over these last couple of years. In 2006, I chaired 
the first hearing on Internet freedom called ``The Internet in 
China: A Tool for Freedom or Suppression? '' The hearing 
responded to Yahoo!'s cooperation with Chinese Internet police 
tracking down the journalist Shi Tao, who is still serving a 
10-year prison term for disclosing ``state secrets,'' that is, 
e-mailing to the United States the Chinese Government's orders 
on what not to say on the 15th anniversary of Tiananmen Square.
    Google, Yahoo!, Microsoft, among others, Cisco as well, 
testified at the hearing, which broke new ground on the issue 
of Internet freedom. Since 2006, we have had meetings with 
Google executives. They have taken actions on their own accord, 
realizing, I believe, that the view that somehow the Internet 
would transform and open up China; when the Chinese secret 
police, the government, and the censors took over, it was doing 
precisely the opposite.
    Two days ago, Google fulfilled its January commitment to 
stop censoring results on its Chinese search engine. This is a 
remarkable, historic, and welcomed action, and an important 
boost of encouragement for millions of Chinese human rights 
activists. Mark Palmer will testify in a few moments and will 
tell us how some 11,000 of the most influential people in China 
have signed onto Charter 08, not unlike Charter 77 in the Czech 
Republic, or Block 8406. It is a statement of human rights 
principles.
    Well, every one of those people, every one--and I believe 
by extension the Chinese public--are greatly heartened by what 
Google has done. Despite the fact that they have gotten push-
back from some, especially Microsoft--and we went into this 
last week at a hearing--they need to get with the program and 
join with the side of human rights rather than enable tyranny, 
which regrettably they're doing now.
    Today, Go Daddy, the world's largest domain registrar, 
announced in its submitted testimony that it has decided to 
discontinue new .CN domain names at this time out of concern 
for the security of the individuals affected by the Chinese 
Government's new requirement for domain registration.
    Go Daddy is the first company to publicly follow Google's 
example in responding to the Chinese Government's censorship of 
the Internet by partially retreating from the Chinese market. 
Google fired a shot heard around the world, and now a second 
American company has answered the call to defend the rights of 
the Chinese people. Go Daddy deserves to be praised for this 
decision. It is a powerful sign that American IT companies want 
to do the right thing in repressive countries.
    Go Daddy and Google deserve more than praise for doing the 
right thing in China, they deserve our government's support--
not lip service, but tangible, meaningful support. We want to 
see American IT companies doing the right thing, but we do not 
want to see them necessarily forced to leave China for doing 
so. That is why I have introduced the Global Online Freedom 
Act, a bipartisan bill that would seek to protect nonviolent 
political speech and nonviolent religious speech.
    It will do so by requiring those IT companies doing 
business in China to disclose what it is that they're 
censoring. It will ensure that Radio Free Asia, Voice of 
America, and other American broadcasts are not censored. I, Mr. 
Chairman, was actually at an Internet cafe right before the 
Beijing Olympics and tried to access in that cafe one 
prohibited word after another, like the Dalai Lama, the 
Uyghurs, Wei Jingsheng.
    I even tried to find out what they were saying about 
Manfred Nowak, the Special Rapporteur for Torture for the 
United Nations. What did I get? When I went to Manfred Nowak, I 
got what he said about Gitmo, not what he said about China, 
which was a scathing UN-backed report about the pervasive use 
of torture in the People's Republic of China.
    This legislation would also hold to account those who 
have--once they've been designated as an Internet-restricting 
country--the companies would have to put personally identifying 
information out of reach of the secret police, thus protecting 
the dissidents and the religious believers and others who want 
to build a new China that is free and unfettered from the 
tyranny that currently exists.
    So I would hope members of this distinguished panel might 
touch on the issue of the Global Online Freedom Act, but also 
obviously on China, which is why you are here. We thank you so 
much for taking the time to give us the benefit of your wisdom.
    Chairman Dorgan. Are there others who wish to make 
statements? Congressman Wu.

STATEMENT OF HON. DAVID WU, A U.S. REPRESENTATIVE FROM OREGON; 
      MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Representative Wu. Thank you very much, Senator. I normally 
forego the opportunity to speak, but I think that this is truly 
a singular moment.
    Let me make it clear that I'm not here to criticize any 
company, I'm here to praise Google in its singular action, its 
unique action in favor of Internet freedom and the tremendous 
example that it sets for others. It is heartening to hear that 
Go Daddy has decided to be number two. Two points define a 
line, three points define a plane, and pretty soon you have a 
cascade going.
    Of course, I agree with the Chinese Government that every 
Chinese person and entity ought to obey the laws of the 
jurisdiction. It is clear to me that Google is in full 
compliance with Chinese law as far as its counsel can 
determine, and there is a difference between compliance and 
complicity. One can comply, and at great cost and risk, do so 
in a manner which is consistent with the values of the Internet 
and of Silicon Valley culture.
    I think that what we need to do is to encourage the better 
angels of our nature, whether it is in corporate culture or in 
Chinese 
culture. One of the reasons why I think it's important for me 
personally to come here is to demonstrate that there is no 
historic or cultural incapability and no genetic incapability 
in advocating for and living a life of democracy for any 
particular culture or people.
    So I want to salute Google's contribution to this ongoing 
debate. I want to encourage those in China, because it is a 
large, complex society, those in China who are in favor of both 
the rule of law and the enlargement of the sphere of civic 
freedom.
    I want to encourage everyone in the Internet culture, which 
I 
believe is a very open culture that believes in the competition 
of information and ideas, to express themselves so more and 
more organizations, businesses will follow Google's example.
    Of course, every company is different and will come to 
their own conclusions, but I think that on the divide between 
compliance and complicity, history will judge and one should be 
careful to be on the right side of history.

STATEMENT OF HON. GEORGE LeMIEUX, A U.S. SENATOR FROM FLORIDA; 
      MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Senator LeMieux. Mr. Chairman, thank you for hosting this 
bicameral, bipartisan Commission meeting today. It's the first 
one I've had the opportunity to attend as a new Senator. But I 
want to add my voice in thanking Google for the great work that 
it is doing. I want to applaud them, as well as Go Daddy that 
we heard about today.
    I want to just say to the Government of China, the message 
has to be that with great power comes great responsibility. 
They have a responsibility to allow their people to live freely 
and to have the information they need. We know that 
information, free information, is the beginning of the end of 
repression. It's the beginning of the end of tyranny.
    So it is our responsibility, representing the government of 
this country, to insist upon that, whether it's in Venezuela, 
where yesterday a former opposition leader who ran for 
president was arrested, and the last television network in 
Venezuela is afraid of being shut down.
    Whether it's in Cuba, where there is no free speech, where 
today the Ladies in White are protesting the arrest of 
political prisoners and the death of Zapata, who died. His 
mother is being arrested for protesting the death of her son. 
Whether it's in China, where political prisoners are being 
taken for the simple alleged sin of posting on the Internet and 
the chance to bring new ideas to this huge and important 
country in the world.
    With great power comes great responsibility. So, I thank 
you, Mr. Chairman, for calling and chairing this hearing today, 
and look forward to the testimony of the witnesses.
    Chairman Dorgan. Senator LeMieux, thank you very much.
    Anybody else want to make a statement, a very brief 
statement? [No response.]
    All right. Let me begin with Alan Davidson, Director of 
U.S. Public Policy with Google. He is the head of U.S. Public 
Policy. Prior to joining Google, he was Associate Director of 
the Center for Democracy and Technology. He is also an Adjunct 
Professor at Georgetown University's program in Communications, 
Culture, and Technology. He is trained as a computer scientist. 
He holds degrees in mathematics and computer science from MIT, 
and a J.D. degree from Yale Law School.
    Mr. Davidson, let me join others on this panel who have 
complimented Google for its decision, a difficult but 
nonetheless a courageous decision, one that I think is 
absolutely correct. Thank you for being here. You may proceed.
    I would say to all of the witnesses, that your entire 
statement will be made a part of the permanent record and you 
may summarize.

  STATEMENT OF ALAN DAVIDSON, DIRECTOR OF U.S. PUBLIC POLICY, 
                     AMERICAS, GOOGLE, INC.

    Mr. Davidson. Well, thank you, Mr. Chairman. Chairman 
Dorgan, Cochairman Levin, members of the Commission, thank you 
for inviting Google here today, and thank you for your 
commitment to a free and open Internet. I would also say, 
particularly, thank you for your very supportive comments just 
now. They are very meaningful to our company at this time.
    Last summer, a young woman was shot on the streets of 
Tehran during protests over the Iranian elections. No film crew 
witnessed her death, no reporter was there to cover her story, 
but a bystander with a cell phone captured it on video. That 
video was posted on YouTube and it was watched by literally 
tens of millions of people around the world.
    Despite the government crackdown on communications, Neda 
Agha-Soltan's tragic death became a galvanizing force for 
international outrage. This is the essence of expression 
online: unexpected, unpredictable, but capable of capturing the 
minds and the hearts of millions of people around the world. It 
is for this reason that the growing restrictions on speech 
online demand a commitment from companies, civil society, and 
governments together to protect Internet freedom.
    I would like to make three points today. First, Internet 
censorship is a global threat to human rights and economic 
opportunity. The growing problem with Internet censorship is 
not isolated to one country or one region. As Secretary Clinton 
recently expressed, the impact on human rights and the global 
marketplace is profound.
    At Google, we have experienced this first-hand. In the last 
few years, more than 25 different governments have blocked 
Google services, including YouTube and Blogger. For example, 
YouTube has been blocked in Turkey for over two years because 
of videos that allegedly insult Turkishness. In 2009, during 
the elections in Pakistan, the government ordered service 
providers there to block opposition videos on YouTube.be.
    Then there was our experience in China, where the last year 
has witnessed a measurable increase in censorship in every 
medium, including the Internet. That leads me to my second 
point, which is that the situation in China has led Google to 
implement a new approach there.
    In mid-December, we detected a highly sophisticated attack 
on our corporate infrastructure originating from within China. 
While Google is frequently a target of attacks, it soon became 
clear that this was not a routine security incident. We 
discovered that at least 20 companies from a range of 
industries had been similarly targeted. The attack was 
unusually sophisticated, with a principal but unsuccessful goal 
of accessing G-mail accounts.
    In our investigation, we discovered that entirely separate 
from these attacks, the accounts of dozens of G-mail users who 
were advocates for human rights in China had been compromised 
through malware and phishing attacks--again, totally separate, 
but very disturbing.
    These circumstances, as well as the increasing attempts 
over the past year to limit speech online, led us to announce 
in January that we no longer felt comfortable censoring our 
search results in China. So earlier this week we stopping 
censoring our search services on Google.CN, our search site in 
China. Users visiting Google.CN are now being redirected to 
Google's site in Hong Kong, where we are offering uncensored 
search in simplified Chinese designed specifically for users in 
China.
    Figuring out how to make good on our promise to stop 
censoring search on Google.CN has been difficult. We believe 
this new approach is a sensible solution to the challenges that 
we face. We very much hope that the Chinese Government respects 
our decision, although we are well aware that at any time its 
great firewall could prevent users from accessing our services. 
Indeed, we have already seen intermittent censorship of certain 
search queries on our Hong Kong site.
    My third point is that government should do more to protect 
Internet freedom around the world. Internet, government, and 
nonprofit groups have a shared responsibility to protect a free 
and open Internet. We strongly support the Global Network 
Initiative [GNI], which is a unique collaboration of human 
rights groups, investors, and companies to create standards for 
engagement that protect privacy and free expression.
    More corporate members are needed to reach the Global 
Network Initiative's full potential, but no single company and 
no single industry can tackle Internet censorship on its own. 
Government action is needed. Specifically, we believe that 
Internet freedom must become a major plank of our foreign 
policy. The free flow of information should be an important 
goal of diplomacy, of foreign assistance, and our engagement on 
human rights.
    Internet censorship should also be a key part of our trade 
agenda, as we lay out in some further detail in our testimony. 
Governments around the world should themselves be transparent 
when they make demands to censor or when they request 
information about users. Finally, Google also supports efforts 
of Congress and the Administration to fund technical solutions 
to counter censorship.
    In conclusion, I want to thank you for your continued 
leadership in the fight against censorship online. We look 
forward to working with you to maximize access to ideas and to 
promote Internet freedom around the world.
    Thank you.
    Chairman Dorgan. Mr. Davidson, thank you very much. We 
appreciate your testimony.
    Next, we will hear from Christine Jones, Executive Vice 
President, General Counsel, and Corporate Secretary of the Go 
Daddy Group. She is responsible for all legal affairs of the Go 
Daddy Group, as well as domain services, network abuse, 
government relations compliance, and legal departments.
    She previously was an attorney specializing in private 
commercial litigation, and before that worked for the Los 
Angeles District Attorney's Office. In addition to being a 
lawyer, Ms. Jones is a CPA with degrees from Auburn University 
and Woodyear Law School.
    Ms. Jones, welcome.
    [The prepared statement of Mr. Davidson appears in the 
appendix.]

STATEMENT OF CHRISTINE JONES, EXECUTIVE VICE PRESIDENT, GENERAL 
      COUNSEL, AND CORPORATE SECRETARY, THE GO DADDY GROUP

    Ms. Jones. Thank you, Mr. Chairman and members of the 
Commission.
    For a few years now we have noticed that from time to time 
it is not possible to access Go Daddy.com in China. We are not 
sure why. One could infer it is because we register and host 
human rights and other Web sites that are deemed improper by 
Chinese officials, but we have never actually been told the 
reason.
    Regardless, every time it happens, millions of Chinese 
nationals who try to visit our Web site, or the Web sites of 
our customers, are disappointed to find that Chinese censorship 
has kept them from free access to the Internet sites of their 
choice.
    This is frustrating, as you might imagine. But I am not 
going to dwell on that. Instead, I want to briefly touch on 
five issues that are explained in more detail in my written 
testimony, specifically: monitoring and surveillance of 
Internet activities in China; DDoS [distributed denial of 
service] attacks originating in China; spam; payment fraud; and 
then finally what we feel the U.S. Government can do to help 
alleviate some of these issues. Then, of course, I would be 
happy to answer any questions you may have.
    So, first, China's examination of Internet activities of 
its citizens has increased in recent months, and I mean very 
recently. Let me give you an example. This, Congressman Smith, 
plays into what you talked about in your opening statement.
    We have been offering the .CN domain name extension for 
about six years. So, for instance, chairmandorgan.CN, that type 
of thing. In the beginning, the .CN authority, which is called 
CNNIC [China Internet Network Information Centre], required us 
to collect the first and last names of the registrant, a 
physical address, a telephone number, and an e-mail address. 
That was it. That is very typical of what is normally required 
by that type of domain name extension.
    In December of last year, CNNIC announced that we'd have to 
start collecting a photo ID, in color, from the head to the 
shoulders, a business ID, and a physically signed registration 
paper for all new .CN registrations.
    In February, two months later, CNNIC announced that we had 
to provide the increased documentation for all current .CN 
registrations. So, in other words, we were going to have to 
retroactively apply those rules, and if we failed to provide 
it, the domain names were going to stop working. Now, keep in 
mind, some of these names had pointed to fully functioning Web 
sites for as long as six years.
    We were immediately concerned, of course, about the motives 
behind the increased level of registration verification 
required by CNNIC. It didn't make sense to us that the 
identification procedures that had been sufficient and in place 
since 2005 were apparently no longer sufficient from China's 
standpoint, and no convincing rationale for the increase in 
documentation was ever provided to us.
    We were also concerned by the sort of ex post facto or 
retroactive nature of the new requirement. In other words, at 
the time the affected Chinese nationals registered their domain 
names they weren't required to provide the photo ID or the 
business identification and the other identification now being 
required by CNNIC.
    Because the new documentation requirement was to be 
retroactively applied to registrants who had previously 
registered their Web site, as I said in some cases years 
before, it appeared to us the intent of the new procedures was 
based on a desire by the Chinese authorities to exercise 
increased control over the subject matter of domain names 
registered by Chinese nationals.
    Now, Go Daddy has been registering domain names since 2000. 
We serve as an accredited registrant for dozens of domain name 
extensions. We have 40 million domain names under management, 
by far the most of any company in the history of the Internet. 
We've done this a lot. This is the first time any registry has 
ever asked us to retroactively obtain information on 
individuals who registered a domain name through our company, 
the first time.
    We are concerned for the security of the individuals 
affected by CNNIC's new requirement. Not only that, but we are 
concerned about the chilling effect we believe the requirements 
could have on new domain name registrations, and therefore the 
free exchange of ideas on the Internet.
    For these reasons, as you mentioned, Congressman, we have 
decided to discontinue offering .CN domain names at this time. 
We will, however, continue to manage the .CN domain names of 
our existing customers, those people whose identifications are 
now in the process of being revealed to the Chinese officials.
    Second, I want to touch on DDoS attacks that was briefly 
mentioned by my colleague from Google. In the first three 
months of this year, we have repelled dozens of extremely 
serious attacks on the systems that host our customers' Web 
sites, attacks that apparently originated in China.
    Of course, that number only includes the attacks that we 
had to get involved in. That does not include the attacks where 
our systems automatically averted the attack. The recent cyber 
attacks on Go Daddy and Google and other U.S. companies are 
troubling, but they are not new. They reflect a situation that 
Go Daddy has been combating for many years.
    Third, on the spam issue, we found that an overwhelming 
majority of Web sites promoted through spam are hosted in 
China, often at service providers that choose to completely 
ignore complaints of spam and other types of illegal activity. 
We see no assistance from Chinese officials to combat this 
problem. In fact, it seems to be just the opposite. The force 
of the Chinese Government appears to be being used to justify 
the activities of those who engage in spam as a business model 
as opposed to helping to stop it.
    Fourth, on payment fraud, there is significant payment 
fraud originating in China. The payment fraud trends associated 
with China-based users include the widespread use of 
compromised U.S. and U.K. credit cards, for example, as well as 
gift cards, other online payment forms like Allipay, which 
would be the Chinese version of PayPal. Substantial payment 
fraud originating in China. Again, no action by Chinese 
officials to help us combat that problem.
    Fifth and finally, we want to talk about what we think the 
U.S. Government can do to help us. Our primary mission at Go 
Daddy, of course, is to promote secure, easy, equal access to 
the Internet to people around the world and we wholeheartedly 
agree with Google on that principle. We are also committed to 
ending the improper use of the Internet, including for the 
invasion of personal privacy or to limit freedom of expression. 
It is a big problem.
    We hope the U.S. Government will use its influence with 
authorities in China to increase Chinese enforcement activities 
relating to Internet abuse while encouraging the free exchange 
of ideas, information, and trade. This would include the 
retraction of China's recent policies relating to the 
registration of .CN domain names.
    We were encouraged to see there is a briefing this 
afternoon to discuss the mission of the new Senate Global 
Internet Freedom Caucus, which we hope will seek to promote 
online freedom in China and other countries. We are also 
following closely Congressman Smith's online freedom 
legislation which purports to put the U.S. Government on the 
side of U.S. companies and human rights activists when they 
deal with repressive governments, so we applaud you for that.
    Of course, we are sincerely grateful for this Commission's 
attention to these important issues. We understand there is no 
silver bullet, but we are proud to at least be part of the 
process.
    Thank you.
    Chairman Dorgan. Ms. Jones, thank you very much.
    Next, we'll hear from Sharon Hom. Sharon is the Executive 
Director of Human Rights in China and Professor of Law, 
emeritus, City University of New York School of Law. She has 
testified on a variety of human rights issues before the U.S. 
Congress and the E.U. Government body. She has led Human Rights 
in China, an organization, in its consultations with companies 
doing business and investing in China. In 2007, the Wall Street 
Journal named her as ``One of the 50 Women to Watch for Their 
Impact on Business.''
    Ms. Hom, welcome. You may proceed.
    [The prepared statement of Ms. Jones appears in the 
appendix.]

 STATEMENT OF SHARON HOM, EXECUTIVE DIRECTOR, HUMAN RIGHTS IN 
                             CHINA

    Ms. Hom. Thank you, Mr. Chairman. I want to thank the 
members of the Commission for your solidarity, your leadership, 
and your support for the very difficult struggle and challenges 
to promote freedom of expression in China.
    I would like to request that my written statement be 
entered into the record and I would like to use my oral time to 
briefly comment on some of the Chinese official responses to 
Google's actions. I will then focus on the case of Liu Xiaobo, 
and conclude with some recommendations for discussion. I 
welcome your questions.
    As the comprehensive and excellent CECC 2009 Annual Report, 
the State Department China Country Report, and recent UN human 
rights reviews of China demonstrate, the human rights 
violations in China are serious, systematic, and widespread.
    In addition to the economic, political, and increasingly 
soft power leverage of China, China is exerting enormous 
control over expression on the Internet through state-of-the-
art technology, its state secrets and state security system, 
the police and security apparatus, and resulting self-
censorship. All of this has been extensively mapped and 
inventoried in these reports. Rebecca MacKinnon's submitted 
testimony provides a very good map-out of the technology.
    The Chinese responses on Google's decision are obviously a 
complex story still in progress, as attested to by the 
headlines this morning. After an initial effort to accuse 
Google of being a CIA operative--that didn't last very long--
the official Chinese responses reflect a combination of: an 
effort to rhetorically repackage the Google decision; stating 
the obvious and asserting that the Chinese authorities are 
acting in accordance with law; and finally, making some 
ludicrous statements, such as there is no censorship in China, 
and that the Internet is fully open, et cetera, and claiming 
this development of events has no impact on China's 
international image or on U.S.-China relations. Clearly, 
Google, as a major economic player, is very important and has 
an impact not only on the Internet, which is global, but also 
on innovation and creativity in development of the IT sector in 
China, with implications for the region.
    So what is at issue here, in addition to the role of the 
marketplace of ideas, is whether China is really ready and 
willing to be a mature, responsible member of the international 
community, one that respects its international obligations, 
including human rights obligations, as well as under the WTO 
and other trade obligations.
    Despite the official mantra that any foreign company doing 
business in China has to comply with local Chinese law--which 
is quite complex--the Chinese answers to date to the key 
question of whether Google's actions are in fact in compliance 
with Chinese law are vague and unclear. Ironically, Google's 
decision does comply with certain aspects of Chinese law, 
particularly constitutional provisions that protect human 
rights, freedom of expression, and privacy rights. So, I think 
it is important to ask, what Chinese law are we talking about 
when we say that companies have to comply with Chinese law? 
Regarding the cross-border impacts that have already been 
referred to by Representative Smith, the experience of Human 
Rights in China's [HRIC] own staff illustrates that the Chinese 
authorities' repressive tactics at home, both low-tech and 
high-tech, extend to Chinese nationals and human rights 
defenders abroad. Such tactics include blacklisting, 
surveillance, and even inhumane denials of permission to return 
to China for family funerals. This is not part of a 
``harmonious society'' and does not reflect Chinese cultural 
values.
    Additionally, the Chinese authorities have been very 
active, and increasingly so, in preventing independent human 
rights groups from successfully applying for UN accreditation. 
We welcome the U.S. Government's renewed commitment to engage 
with the human rights system at the United Nations.
    My written testimony outlines some of the ways in which 
HRIC is focusing on supporting Chinese lawyers, activists, 
journalists, writers, and other rights defenders, specifically 
through our technology initiatives, including the distribution 
of over 200,000 electronic biweekly newsletters into China, in 
which HRIC publishes Chinese writers and censored news and 
discussion. We have also built an HRIC YouTube channel and use 
social networking tools like Twitter--all accessible from 
inside China. Even though YouTube is blocked, an estimated 
26,000 to 30,000 people still reach YouTube, and some of the 
protest videos that are posted on our YouTube station have 
gotten hundreds of hits.
    Let me move quickly to the case of Liu Xiaobo, who really 
exemplifies the challenges facing the front line in the 
struggle for freedom of expression. We welcome the CECC list 
featuring individuals who, because of their Internet 
activities, are paying a very heavy price.
    Liu Xiaobo is a prominent independent intellectual. He has 
been a long-time advocate of political reform and democracy and 
human rights, and he has been an outspoken critic of the 
Chinese Communist regime and one of the key drafters and 
organizers of Charter 08.
    Under the full glare of international attention, with 
international diplomatic representatives outside the courtroom, 
on Christmas day, a court in Beijing convicted Liu Xiaobo of 
inciting subversion of state power and sentenced him to 11 
years in prison and 2 years deprivation of political rights. 
What was this for? It was for six essays that he had published 
online between 2005 and 2007, in addition to his key Charter 08 
role.
    HRIC's bilingual quarterly publication, the China Rights 
Forum--copies are available today for Members of the 
Commission--translated these six articles and all of the legal 
documents of Liu Xiaobo's case. We asked the question, so what 
does constitute inciting subversion of state power in China?
    In his article ``The Many Aspects of CPC Dictatorship,'' 
Liu Xiaobo describes the post-Mao regime and argues that, 
unlike the era of Maoist totalitarianism, this regime is more 
skillful in using pragmatic, flexible control to maintain 
stability. But it is a loyalty that is bought by the promise of 
a comfortable life that has a soul that is rotten to the core.
    His article ``Can It Be That the Chinese People Deserve 
Only Party-Led Democracy,'' not only presents a critique of the 
party, but actually raises a challenge to the Chinese people 
ourselves: Liu powerfully reminds the readers that no 
totalitarian, authoritarian state stayed in power because of 
the power of the ruler, but rather, because the people knelt 
down.
    Finally, the articles, ``Changing the Regime By Changing 
Society: The Negative Effects of the Rise of Dictatorship,'' 
and ``Further Questions,'' Liu's article about child slavery, 
expose the extreme government corruption and the lack of 
accountability that continues to persist for thousands of 
children who are kidnapped and used as slaves.
    The verdict sentencing Liu Xiaobo actually cites the number 
of online clicks registered for each article, ranging from 57 
to 5,000 clicks. Those do not necessarily translate into the 
number of individual readers. However, all of these articles 
were posted on Web sites that are censored in China. So that 
means Liu Xiaobo has been convicted to 11 years in prison for 
inciting subversion of state power based in part upon the 
``evidence'' of between 57 to 5,000 clicks on Web sites that 
can't be accessed from inside China. This is a testament about 
the insecurity of those in power, but it is also a testament to 
the power and the necessity of freedom of expression.
    I know my time is up, so let me quickly conclude with a few 
points for discussion.
    First, on individual cases, the CECC Political Prisoner 
Database is extremely important and we would urge the 
Commission to link your advocacy work on behalf of these cases 
with decisions that have been reached by international 
independent expert bodies. Shi Tao, who is still in prison, in 
fact, received a decision from the UN Working Group on 
Arbitrary Detention back in 2006, determining that his 
detention is arbitrary and in violation of international human 
rights. We would urge that you press for his release based on 
this determination by a UN independent expert body. This is not 
interference in China's ``internal'' affairs or the Chinese 
legal system.
    Second, we urge greater support for developing specific 
technologies, for example, expanding uncensored online 
platforms, developing more circumvention tools and safe 
dissemination methods, and promoting expanded use of social 
networking tools.
    Finally, in terms of the companies, there needs to be more 
encouragement to companies to join multi-stakeholder 
initiatives. We especially appreciate the letter from Senator 
Durbin to 30 technology companies, urging them to join the 
Global Network Initiative, of which Human Rights in China was 
one of the founding participants.
    The Google decision this week really illustrates the 
possibility of moving beyond an either/or mentality and of 
thinking that the choices are to stay and censor or to leave 
the country, because technically Google has not left the 
country. We do not know if this One Country, Two Systems move 
will actually work, but technically Google is still in China 
and Google has been able to act in a principled way. Whether 
this will work is uncertain, but as Sergei Brin has stated, 
``The story is not yet over and the future is a long time.''
    Chairman Dorgan. Ms. Hom, thank you very much for your 
testimony.
    Next, we will hear from Mr. Edward Black, the President and 
CEO of Computer & Communications Industry Association. He has 
been President and CEO of that organization since 1995. He 
serves on, and previously chaired, the State Department's 
Advisory Committee on International Communications and 
Information Policy. He has also served in the Office of 
Secretary in both the Commerce Department and the State 
Department. He holds a B.A. from Muhlenberg College and a J.D. 
from American University, Washington College of Law.
    Mr. Black, it is good to see you. Thank you. You may 
proceed.
    [The prepared statement of Ms. Hom appears in the 
appendix.]

   STATEMENT OF EDWARD BLACK, PRESIDENT AND CEO, COMPUTER & 
              COMMUNICATIONS INDUSTRY ASSOCIATION

    Mr. Black. Thank you, Mr. Chairman and members of the 
Commission. It is an honor to be here today to have a chance to 
testify on this very important subject of Internet freedom in 
China.
    For too long the U.S. business community has had 
insufficient support from the U.S. Government in responding to 
other nations' efforts to censor or spy on their citizens and 
to interfere with the reasonable flow of services, products, 
and information. Companies are on the front lines in the battle 
for Internet freedom, but when they are confronted with foreign 
government demands, the governments that represent these 
companies must lead in the defense of Internet freedom and free 
trade.
    Our Nation founded the Internet. Our government should have 
been, and now needs to be, out there promoting multilateral 
international understanding in order to maximize freedom of the 
Internet.
    Totalitarian regimes depend on controlling the flow of 
information, both domestically and from the outside world. The 
Internet is no exception, and it is a tempting target to turn 
into a tool of state control. We must protect Internet openness 
from those who want to use it for repression and for many 
seemingly noble, well-meaning efforts to control specific 
content or monitor Internet traffic that also may chip away at 
its openness.
    My testimony today is designed to focus on human rights 
aspects of censorship, on the trade aspects, and the underlying 
principle of Internet freedom.
    The Internet can be the greatest tool in history for people 
to gather information, communicate, and do many other things 
that the human race has tried hard to improve on over the 
years, or the Internet can be among the greatest tools for 
political repression, depending on how it is used. If we fail 
to take actions, others may pervert the Internet and finally 
bring about the Orwellian future we thought we had avoided, one 
in which governments perpetually spy, surveil, censor, and 
control, and say they are doing it for our own good.
    The U.S. Government must consistently treat Internet 
freedom as a priority human rights issue in its dealings and 
communications with foreign governments. We are here today 
partly because of the high-profile battle of Google in China, 
but the number of companies and countries impacted are far 
greater.
    There are few easy answers for companies as they try to 
bring their technology services and communication tools into 
nations that have different rules about free speech and freedom 
of expression. Without the backing of their own government, 
companies often are faced with the unappealing decision to 
follow local laws or else exit the market. Staying and engaging 
can in some cases offer appealing choices to citizens in a 
repressive country, so the choices are not always simple or 
easy.
    As a trade issue, censorship has been ignored. The United 
States is an information economy. U.S. companies are leading 
vendors of information products and services. Filtering 
American content and services has the effect of filtering 
American competition, and combating it should also be on the 
top of our trade agenda.
    Restrictions of Internet traffic affect trade in a number 
of ways. Such restrictions may constitute a non-tariff barrier, 
may be an unfair rule of origin, may be a violation of the 
Principle of National Treatment. The violation of the WTO's 
very strong rules on transparency and access and administrative 
review of regulations has had no impact in the world of 
Internet review and regulation.
    There must be a trade remedy when a country blocks access 
to a U.S. Web site and the advertising on those sites is also 
being blocked and the trade in the products and services 
advertised are interfered with. The European Union, by the way, 
should be praised at this point, because in 2008 they passed, 
overwhelmingly, a resolution recognizing Internet censorship as 
a trade barrier. The vote was 571 to 38. There needs to be 
further implementation of that resolution, but it was an 
important step in the right direction.
    These are some steps that we think can be taken to promote 
Internet freedom. First of all, the U.S. Government should, on 
an ongoing basis, investigate cases when Internet censorship is 
brought to their attention. The U.S. Trade Representative 
[USTR], the State Department, and the Commerce Department all 
have responsibility to raise Internet restrictions in the 
dealings they have with countries on many issues around the 
world on an ongoing basis.
    Our Nation has missed the opportunity to use existing trade 
agreements to constrain Internet restrictions, censorship, and 
surveillance. The USTR should be highlighting Internet 
censorship in its trade reports. In 2006, the USTR issued a 
report that was billed as a top-to-bottom review of U.S.-China 
trade relations. The report discussed simple infringement of 
intellectual property, which we don't support, yet did not 
mention Internet censorship policies.
    The USTR has a very important annual Special 301 review 
process focused on identifying intellectual property problems 
around the world. I think we should replicate that process for 
Internet freedom and violation thereof.
    The USTR should review foreign government restrictions on 
the Internet, taken in the name of censorship or otherwise, and 
seek ways to take appropriate action. We need to negotiate 
provisions that promote Internet commerce, openness, and 
freedom in our trade agreements and in other agreements. I will 
not go into the details on the need for supporting GNI, but 
it's a great initiative and we do actively support it.
    I want to make another point. The Internet freedom begins 
at home as well. The United States must lead by example. We 
need to discourage censorship and surveillance ourselves. We 
need to restrict intrusive practices such as deep packet 
inspection and think twice before attempting to block content 
which we perceive as unsavory. Once openness erodes, it is very 
hard to get it back.
    When we go abroad advocating these principles we cannot go 
with dirty hands. Our credibility is critical if we are to be 
an articulate advocate in the international community. If our 
government leads the fight for international freedom by example 
at home and negotiations around the world, it can support U.S. 
companies who are trying to ethically compete in challenging 
markets.
    In conclusion, let me just say that China's policy of 
coerced censorship has now become a matter of global public 
concern. If the U.S. Government does not push Internet freedom 
to the top of our priority list now, foreign governments all 
over the globe will conclude that they are free to pick off 
individual companies and intimidate them into submission.
    We need to elevate this issue to the top of our diplomatic 
and trade agenda. We must be consistent with our own Internet 
freedom policies and fight for Internet freedom as a common 
principle so other nations understand our commitment to curbing 
censorship of the Internet and threats to Internet freedom in 
whatever form they manifest.
    Thank you.
    Chairman Dorgan. Mr. Black, thank you very much.
    Finally, we will hear from Ambassador Mark Palmer. 
Ambassador Palmer served in the U.S. State Department from 1964 
to 1990, and was formerly Deputy Assistant Secretary of State 
for the Soviet Union and Eastern Europe, and U.S. Ambassador to 
Hungary. He was instrumental in the establishment of the 
National Endowment for Democracy, and currently is president of 
Capital Development Company, LLC, and vice chairman of the 
Center for Communications, Health, and the Environment. He is a 
graduate of Yale and a widely cited author.
    Mr. Ambassador, welcome.
    [The prepared statement of Mr. Black appears in the 
appendix.]

  STATEMENT OF MARK PALMER, FORMER U.S. AMBASSADOR TO HUNGARY

    Ambassador Palmer. Thank you, Senator.
    French diplomats actually try to speak last in the hope 
that they will be remembered best, so I'm glad to be speaking 
last.
    My written testimony emphasizes in the outset my optimism 
about China. I think, having served and lived in Communist 
countries a good part of my life, that we often underestimate 
what is going on among elites, and we know what's going on 
among the publics, 400 million of whom are on the Internet. 
Even Hu Jintao brags that he's on the Internet. So I think it's 
a mistake for us to assume that this very strong reaction to 
the admirable actions of Google or Go Daddy now, that that's 
the end of the story. I think there's a lot going on in China 
that we should be optimistic about.
    But I want to focus in my oral remarks today on a story. I 
want to tell a story. Some of the students who were present on 
Tiananmen Square during 1989 came to the United States and 
earned doctoral degrees in computer sciences from leading 
American universities. They realized the enormous popularity 
and the potential of the Internet in China and were urged by 
Chinese still in China to find ways to use their computer 
engineering skills to combat growing censorship and the overall 
decline in human rights.
    Beginning in the year 2000, they have developed a system of 
software and servers which, over the past decade, has grown to 
be the world's largest circumvention system, providing for 
roughly 90 percent of anti-censorship traffic in China and 
worldwide.
    About a million Chinese today and hundreds of thousands of 
Iranians are using this system. It works through the 
distribution of encrypted, secure, free software and by 
constantly switching IP addresses, up to 10,000 times per hour, 
on dedicated servers located across the world. They have built 
and staffed this system with volunteer labor and virtually no 
financial support from anyone else.
    The major limitation on this Global Internet Freedom 
Consortium's [GIF] ability to serve even much larger numbers of 
users and to bring down the firewall altogether is simply 
money. They have had to make hard choices between serving a 
surge in Iranian users last summer and fall and reducing their 
availability to Chinese users as their servers were crashing.
    GIF needs to buy many more servers and finally to be able 
to support full-time staff. Competing with and staying ahead of 
over 50,000 heavily financed engineers and censors in China 
requires a dedicated and properly financed team. We spend, Mr. 
Chairman, $800 million a year on Voice of America, Radio Free 
Asia, and other old media and we spend $1.7 billion on U.S. 
AID's democracy programs. Surely we can, and should, spend $50 
to $100 million a year on a system or systems to circumvent 
Internet censorship and bring down this firewall.
    Realizing the enormous success of this Global Internet 
Freedom Consortium and its potential, a bipartisan group of 
your colleagues, Senators and Congressman, appropriated $15 
million in 2008 to begin to scale up this system and any others 
which could demonstrate proven ability to circumvent Internet 
censorship in China, Iran, and elsewhere.
    In 2010, as you know, another $30 million was appropriated. 
In my 26 years within the State Department and 20 years outside 
working on democracy and human rights, I have never been more 
convinced of the power of any innovation to help those still 
living in one of the world's 43 remaining dictatorships, half 
of them Chinese, with the ability to liberate themselves. And I 
also have never been more appalled--I repeat, appalled--at the 
State Department's refusal to do what is so clearly in the 
national interest of the United States.
    In flagrant and now repeated violation of congressional 
legislation, my old home, the State Department, has refused to 
use the appropriated funds to scale up an existing successful 
circumvention system. State Department staff-level officials 
have made a mockery, first of Secretary Rice's, and now of 
Secretary Clinton's, frequently voiced and sincere commitments 
to help ensure freedom of the Internet.
    Let us take just one dimension of American national 
interest. There is a profoundly false understanding of the 
Google-China issue, as if Google must lose its China market 
because it no longer accepts Google.CN censorship. If the 
United States acts in the manner that we seek and people in 
China can access Google.com, whether in Hong Kong or here, you 
should sell your Baidu stock short and watch Google pick up 
support from Iran, Syria, and elsewhere.
    Google is in a fight, and a martyred defeat will not help 
the cause. It, too, should be pressing the State Department in 
working with GIF. If it does so, its franchise throughout the 
world will be enhanced by orders of magnitude for being not 
merely a wounded victim, but the provider of enhanced closed 
society access to the Internet.
    Fortunately, five of your colleagues here in the Senate 
wrote to Secretary Clinton on January 20, Senators Brownback, 
Casey, Kaufman, Kyl, and Specter, and they, in the strongest 
possible terms, have said enough is enough to the State 
Department, that they have to begin to fund the existing 
circumvention systems.
    Senator Brownback placed holds on four senior State 
Department appointments and is prepared and took it off when 
some people in the Department indicated a willingness at least 
to talk. But he and Senator Kyl and others are willing to put 
the holds back on if, within a week or so, we don't get a 
serious indication that they're engaging and are going to 
respect the will of this Congress on this critical national 
issue.
    Let me just conclude by urging this Commission, which does 
such wonderful work, that you join your colleagues in urging 
the State Department to do what we all agree with, which is to 
circumvent this censorship.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Palmer appears in the 
appendix.]
    Chairman Dorgan. Ambassador Palmer, thank you very much. We 
will do just that. We appreciate your testimony and your 
appearance.
    I am told that there are four votes that have just begun in 
the U.S. House. What I'd like to do, with the consent of my 
colleagues, is to recognize the three House Members for a 
series of lightening-round questions before they have to rush 
out of here. I do want to have them have the opportunity to ask 
questions of the witnesses.
    Representative Smith. Thank you very much, Mr. Chairman. I 
really appreciate it.
    Ms. Hom, you mentioned the outrageousness of the Chinese 
Government saying that there was no censorship on the Internet. 
When Chi Haotian was here in town during the Clinton 
Administration and made the same statement: that no one died at 
Tiananmen Square. We put together a hearing, and like you, Mr. 
Chairman, invited the Chinese to testify. He was a no-show. We 
even had a People's Daily editor say how he saw and witnessed 
people dying.
    Hopefully it's so laughable and so embarrassing to the 
Beijing leadership that such outrageous statements will cease. 
The Universal Periodic Review was last done on February 9, 
2009, on China. It only takes, as you know, one-third--one-
third--of the member states on the UN Human Rights Council to 
call for a hearing on any country.
    The U.S. Government should call for that vis-a-vis China to 
look at this. It could be done. It would bring the great 
spotlight on what they're doing on the Internet and on other 
human rights abuses. Your thoughts on that. I have so many 
questions, but we don't have time, so I'll just leave it at the 
one.
    Representative Wu. Thank you, Mr. Chairman.
    I just want to ask one question of the witnesses, and that 
is for each of you, whether it's Google or Go Daddy or the 
organizations that you represent, if you have one, two, or 
three things that we could do, that the Federal Government 
could do in an operational way to help you in each of your 
respective efforts, different efforts, I would be very 
interested in hearing your responses. I suspect, Ambassador, 
that I know what your top one will be, but I'll look forward to 
hearing it.
    I just want to take one moment to say that I couldn't help 
but notice that four out of five witnesses are legally trained. 
There is a lot of criticism at times about the litigious nature 
of American society and the number of lawyers we have, and so 
on and so forth. I just want to say that my response to that 
has been, in the international context, show me a society where 
there are more attorneys than generals, and that's probably 
going to be a democracy. Show me the reverse and the story is 
not so good. So, you know, everything has its price. Thank you, 
Mr. Chairman.
    Chairman Dorgan. Congressman?
    Representative Honda. Thank you. I can think of a country 
that's been led by a teacher. They haven't had the need for a 
military since they started. So, on behalf of teachers, I think 
that we can learn. I guess my mother says it best: ``You've got 
two eyes, two ears, one mouth. Use them accordingly.''
    My question would be Mr. Smith's question regarding the 
Universal Periodic Review asked to Mr. Edward Black and to 
Ambassador Mark Palmer. In closing, I would like to thank you 
for a nice, well-balanced presentation for us to be able to 
listen, learn, and act.
    Thank you.
    Representative Smith. Mr. Chairman, just very briefly. The 
Chinese statement submitted for the record cites international 
norms that they feel that they ought to, and you, like Google 
and Go Daddy, ought to live up to. Your views on the Global 
Online Freedom Act. If you all could provide us with that I'd 
appreciate it. I am sorry we have to go.
    Chairman Dorgan. Let me thank my colleagues from the House. 
They are active participants in this Commission and we're sorry 
they have to go to vote, but appreciate their being here.
    Mr. Davidson, can you tell us a little about how this works 
with the Chinese coming to an American company saying, we need 
your cooperation in censoring certain things. What types of 
information have authorities asked be to censored? How do they 
instruct? How do they deliver the information of what they want 
censored? I mean, can you give us some organic notion of how 
this works?
    Mr. Davidson. Well, let me try and give a general notion, 
because in some ways actually we are not actually permitted to 
talk about all of the requests that we get that are given to 
our employees in China, or not even necessarily our employees.
    Chairman Dorgan. Permitted by the Chinese, you mean?
    Mr. Davidson. Right. So I think I'd be happy to 
characterize it.
    Chairman Dorgan. But are you permitted to do it outside of 
China? [Laughter.]
    Mr. Davidson. We actually don't share a lot of information 
outside of China about what's happening. It puts us--and I 
think that gets to the heart of it--in a terribly difficult 
position, which is that there's not very much transparency at 
all about what's being requested and whether it's being 
requested of everybody, whether there are special requests or 
not. That places us in a terribly difficult position. I would 
say, outside observers have been able to derive quite a bit 
about the kinds of requests that come.
    I think you can see that they're far-ranging, political in 
nature, and quite different from the kinds of results that 
we've had at other hearings that have showed the differences in 
the results that one gets from a censored version of the large 
search engines, including ours, and the uncensored versions. So 
I think that's part of why we ultimately felt that we needed to 
make this change, because the lack of transparency particularly 
makes it extremely difficult.
    Chairman Dorgan. Well, I admire the judgment, and I've 
indicated that to you. What I'm trying to understand is, when 
you go to China to do business is there someone in China that 
says, all right, you are here now, you are on Chinese soil, we 
do business the Chinese way, and here is a set of written 
instructions, and by the way, in order to do business here you 
will follow them to the letter. Is there something in writing 
someplace that describes to your company what your obligations 
are under what they perceive to be Chinese law?
    Mr. Davidson. We operate under a license in China and I 
think, in part, the problem that I think we all--the companies 
that operate there--are trying to address in things like the 
GNI is dealing with the fact that the requests can be brought 
and that they do not always appear to be operating through the 
rule of law. So it's not like getting a court order from a U.S. 
judge, so I think that part of the concern is that we would 
like there to be more transparency and a clearer process than 
there has been. I could leave it to others who have had this 
experience as well in China.
    Chairman Dorgan. Ms. Jones, you indicated that there was 
substantially increased Chinese Government activities December 
of last year and February of this year. Was there any 
discussion by the Chinese authorities about why they were doing 
this? Was there, in fact, admission that they were increasing 
activities or did the Chinese say, all right, here are the new 
rules?
    Ms. Jones. No. In fact, if I could briefly respond to your 
question earlier, we wish there was a rule book. We wish there 
was the book that you could set on the table and say, here's 
what you have to do. But to your knowledge, that doesn't exist.
    We just, from time to time, get a directive. In this case, 
two days before the new rule came out, we got a communication 
that said, ``Oh, by the way, we're going to change the rules. 
We're not really sure what the rules are going to be yet, but 
we're going to change them.'' Two days later, we got the new 
rules, then we were supposed to implement them a few days after 
that.
    So there's not really a build-up. There's not any 
indication. As I said earlier, when our Web site gets shut down 
in China we never get told why. We'd love to know why. We'd 
like for them to tell us what the rules are. But it's 
impossible to find out because they simply won't answer the 
question.
    Chairman Dorgan. Have you had intellectual property stolen? 
I understand Google has. You indicated that attacks have been 
made on your system repeatedly. Have you had intellectual 
property stolen?
    Ms. Jones. Well, I'm not exactly sure what you mean by 
intellectual property. It could be a broadly defined term. We 
do know that a lot of the IP that is stolen comes from Web 
sites that are hosted in China, but most of the attacks on our 
system are designed to disable Web sites of our customers. 
Those tend to be human rights sites, Tiananmen Square 
anniversary sites, Web site blogs that 
discuss Tibetan monks, any of the things that the Chinese 
Government deems inappropriate. They rarely ask us to shut down 
counterfeit goods, for example, or other IP violations because, 
frankly, I think they support that. Now, have we had software 
or other information in our systems stolen? Not yet.
    Chairman Dorgan. Thank you.
    Ambassador Palmer, why do you think the State Department is 
so reluctant in addressing this issue of the circumventable 
systems for which funding exists, but the State Department 
seems to have little interest in programming? What is your 
sense of State's reasons? I mean, you worked down there. For 16 
years, you worked in the State Department, right?
    Ambassador Palmer. Twenty-six.
    Chairman Dorgan. Twenty-six years. I'm sorry.
    So what could explain the State Department's behavior at 
this point?
    Ambassador Palmer. One State Department official was quoted 
in the Washington Post, saying that the Chinese authorities in 
Beijing would be, to use my previous word, appalled, would be 
outraged, if the Global Internet Freedom Consortium's systems 
were financed by the State Department. So it's clear, from 
talking to my friends both in the State Department and in the 
White House, that one of the concerns that has led to this is 
concern about the Chinese reaction.
    Chairman Dorgan. So this is an old story, isn't it? Don't 
offend them.
    Ambassador Palmer. Right.
    Chairman Dorgan. We see this routinely in trade 
negotiations, but it's an old story and now surfaces with 
respect to this issue.
    Ambassador Palmer. Then there's another issue, I believe. 
That is that the Department didn't ask for this money, didn't 
want this priority. It feels put upon. It still doesn't 
recognize that we have this long-term challenge in front of us 
that's going to require, year after year, major resources of 
financing and human talent, and they're just not into that yet. 
They haven't made that transition conceptually.
    Chairman Dorgan. Ms. Hom, you, at least with respect to one 
Chinese citizen, Liu Xiaobo, put a human face on the victims 
here whom might be targeted by the requests made of Go Daddy to 
describe who these people are, names, photographs, et cetera. I 
assume that what the Chinese are attempting to do with that is 
to intimidate and to track down certain dissidents in China who 
are behaving in ways that the Chinese Government finds 
inappropriate.
    But can you tell me, what's your sense of how many citizens 
in China have been tracked down by their government, 
apprehended, tried, sent to prison for Internet transgressions?
    Ms. Hom. Your question is related to the overall lack of 
transparency about numbers in the criminal justice system and 
in the extrajudicial detention system, including reeducation 
through labor [RTL] and other detention camps. It's very 
difficult to answer because statistics about the total number 
of detentions are not reported in a comprehensive, clear way.
    However, if you just look at one area, as we have looked 
recently, with an eye toward detentions related to Internet 
activities, if you look at a list of individuals in prison or 
in detention, or convicted for incitement to subvert state 
power, subversion, or for leaking state secrets, it would be 
quite clear that a great majority of them will have engaged in 
activities on the Internet.
    The draft revised state secrets law that was released in 
June made it clear that the state secrets law provisions apply 
to the Internet, including activities of disseminating and 
acquiring information. So the proposed revisions would make the 
current law more restrictive of freedom of expression on the 
Internet.
    Chairman Dorgan. Mr. Black, you are involved in, among 
other things, a substantial amount of commercial transactions 
by your member companies. I'm wondering whether the censorship 
and regulation of the Internet in China has an impact, and if 
so, how, on companies that wish to sell goods in China?
    Mr. Black. Yes. We are convinced that this is an important 
avenue to pursue, not only because it is important but because 
existing trade agreements, and possibly future trade agreements 
we will negotiate, will be able to deal with some of these 
issues in an already established legal framework.
    I think the easiest example is any Web site, frankly, that 
is blocked, that Web site, in the modern Internet era, has a 
variety of companies--it could be automobile companies, could 
be Proctor & Gamble--who advertise there, who are there but are 
unable to adequately reach an audience if they're blocked.
    There could be, if you have a magazine article, if you go 
to a Business Week site and there's an article in Business Week 
that is politically untenable, well, theoretically all of the 
advertisers in Business Week, all those companies would in fact 
have their ability to do commerce affected.
    We think the reality is, that electronic commerce is a 
multi-billion-dollar business activity, perhaps a trillion-
dollar one. So if you have a significant impact on the 
communication of data and information on our products and 
services, you are going to be having a significant impact on 
trade, yes.
    Chairman Dorgan. Mr. Black, is there a tension for you to 
come here and speak on these issues? I mean, there are some in 
the business community--not all, but there are some--who think, 
you know what? It's a whole lot better for us to kind of tone 
it down a little bit, be quiet, hope things improve, don't be 
critical, because the fact is, China is a big market and the 
Chinese Government can just make the decision to change, limit, 
or close your access to that market. So isn't there a tension 
for you to come and speak out? I am talking about a tension 
with respect to your constituency and your foundation, or your 
association, rather.
    Mr. Black. Well, I think it's clear that within the private 
sector there are many companies, which also internally are 
divided on how to deal with doing business in regimes where 
local laws conflict with our values, yes. But I think----
    Chairman Dorgan. But over time, if I might interrupt you, 
there have been many occasions in this country where we say, 
you know what? Business is business. The rest, we will deal 
with later. Business is business and human rights is separate.
    Mr. Black. Well, I think these issues are way beyond the 
Internet and technology issue and affect all businesses. But I 
guess I'd probably put a good word in for the technology and 
Internet world. I really do think the culture of our sector of 
the industry is one of openness and freedom, and I think 
there's a greater willingness, therefore, to say that is what 
we are about. We are not just about selling something, but we 
are about using this tremendous great industry to advance 
people's well-being.
    But yes, you are absolutely correct. There is certainly a 
constant pressure, not necessarily on me, but internally in the 
corporate dialogue, about how to deal with this problem, and 
with the reality that it can have a significant impact on 
stockholders, on the ability of a company to survive.
    Chairman Dorgan. I want to ask a question of the 
representative from Google, and perhaps Go Daddy as well. You 
have both now announced that you are changing the way you 
operate in China. I'm going to first ask Google. Number one, I 
assume some think you are just daft, right? I mean, what are 
you thinking about?
    Mr. Davidson. Yes.
    Chairman Dorgan. You're there, you do business. You don't 
like it, but you follow the local customs. Tough luck. So stop 
crying and move on. You're setting a bad example for those that 
decide business is business. You're messing things up for us 
within the Chinese market. Do you hear others say that?
    Mr. Davidson. Well, I think every company has to make its 
own decisions about how to operate. I think we have made no 
secret that this has been a difficult decision and process for 
Google, and we went into the market originally hoping that we 
could make a big difference.
    We were pleased, I think, initially about some of the 
changes we were able to bring to the market, and ultimately 
over time, as we described in our testimony, we came to a 
different conclusion about what was right for our business. We 
have gotten some good feedback and our hope is that this is a 
process where other companies will also get involved. We need 
more help in the GNI.
    Chairman Dorgan. So you're hoping to start a trend here?
    Mr. Davidson. Our long-term hope is the same hope we've 
had, which is that we can offer our services in China.
    Chairman Dorgan. Let me ask, tell me how you think this 
plays out at this point. You're an executive with a big, 
successful, growing, worldwide company. We read the news at the 
moment right up to the moment, as Ms. Hom indicated. So we know 
what has happened so far and we know the discussion about the 
move to Hong Kong. But tell me how you see this playing out in 
the end for your company.
    Mr. Davidson. I think we've been very clear also: we don't 
know how it will play out. We have moved our servers to Hong 
Kong.
    Chairman Dorgan. Can you give me the best and worst case?
    Mr. Davidson. Sure. I think one of the better-case 
scenarios is that people in China are able to access our 
uncensored search engine based in Hong Kong and have access to 
all the information that it provides. I think a bad-case 
scenario would certainly be that that search engine is blocked 
outright and that other services are as well, and that others 
rush in to fill the void with censored products that don't 
provide a lot of information to Chinese users. Our hope is 
that, over time, it will be more of the former.
    Chairman Dorgan. All right. One final question and then 
Senator LeMieux will ask a question.
    Ms. Jones, the decision Go Daddy has made, that's a very 
recent decision I assume, you announced today. Can you tell me 
the thinking that went into that decision? Is it related to 
Google? Tell me the judgment. I know you've talked about the 
attacks and you talked about the increasing demands by the 
Chinese Government. All of that has happened recently, so this 
puts you in a decisionmaking point here?
    Ms. Jones. Well, with all due respect to Google, it really 
didn't have anything to do with them. This was a decision we 
made in our own right based on our experience of having to 
contact Chinese nationals, collect their personal information, 
and grudgingly return it back to Chinese officials. We just 
made a decision that we didn't want to act as an agent of the 
Chinese Government, and that's really why we stopped offering 
the .CN domain name. Honestly, we wish that there were a better 
way to negotiate.
    In fact, you know what? I read a book once called ``Take 
This Job and Ship It,'' and I remember there was a discussion 
in it about an unequal playing field in negotiations between 
the United States and other countries, and I think we ought to 
revisit that discussion because we can't let them be strong and 
us be weak all the time. We just have to stop it, and then 
we'll start offering .CNs again.
    Chairman Dorgan. Are you recommending people read that 
book? [Laughter.]
    Ms. Jones. Sure.
    Chairman Dorgan. Full disclosure: that's a book I wrote. 
But I think it does raise the question of the kind of 
negotiations that should exist.
    Senator LeMieux, let me ask you to inquire.
    Senator LeMieux. Thank you, Mr. Chairman. I think we all 
should read that book. It's a great idea.
    Well, again, I want to commend you, Mr. Davidson, Ms. 
Jones, your companies, for the work that you're doing. It 
occurs to me, Mr. Chairman, that if there were attacks on the 
bricks and mortars of these businesses and we believed that a 
government was behind them, we'd be acting a lot differently. 
We need to be cognizant of the fact that this is not just 
something out in the ether, it is the way that you do business. 
We treat it differently when it's in the ether than we do if it 
was bricks and mortars.
    Mr. Davidson, I want to ask you about these cyber attacks 
in mid-December 2009 and learn more from you about what 
happened and where you think those attacks were directed from.
    Mr. Davidson. Well, sure. We tried to lay it out a little 
bit in our public statements and in our testimony. I'd be happy 
to amplify further also afterward if it's helpful for you and 
your office. I guess I would best characterize it as quite 
sophisticated and very unusual.
    As we tried to explain and as Ms. Jones has explained, 
companies like ours are attacked all the time, but this was 
quite different because of the sophistication, because of the 
fact that we discovered that other companies had been targets, 
and that we also knew that part of the target seemed to be the 
ability to access G-mail accounts, and particularly we knew 
that G-mail accounts had been compromised for folks who are 
affiliated with human rights groups in China or working on 
Chinese issues.
    So that was very disturbing to us, and I think that's part 
of why we felt it was so important to make a change in our 
policy, but this is really part of an ongoing process over the 
course of a year.
    Senator LeMieux. Do you believe the Chinese Government was 
behind the attacks?
    Mr. Davidson. We have no evidence, and we have not said, 
that we believe this. We have no evidence that this is a state-
sponsored attack. We may never know. Google may never know who 
ultimately was behind this attack, but that's partly why this 
is really about a totality of circumstances over the course of 
a year, where Google was blocked. YouTube has been blocked in 
China since March, the Green Dam activities over the course of 
a summer, public attacks on Google in the media, this cyber 
attack in December.
    I think, taken all together, we felt it was time for a 
change in our policies.
    Senator LeMieux. I can see your legal training in your 
response to that question. [Laughter.]
    I am a fallen engineer, if that counts for anything.
    Chairman Dorgan. Senator LeMieux, can I just, on that 
point, the statement that was put out by Google on January 12 
indicates the theft of intellectual property did not just 
involve Google, but also involved a couple dozen other 
companies. But also, part of the investigation, if I can quote: 
``We have discovered that the accounts of dozens of U.S.-China 
Europe-based G-mail users who are advocates of human rights 
appear to have been routinely accessed by third parties,'' and 
so on.
    I mean, when you ask who might have been responsible, the 
obvious question is, who would have had an interest in this 
sort of thing? It appears, to the outsider at least, that only 
the Chinese Government would have this kind of interest. I am 
not asking you to answer that, because I'm sure you don't want 
to. [Laughter.]
    Senator LeMieux. Let me ask, Ms. Jones. You described that 
there were cyber attacks on Go Daddy as well.
    Ms. Jones. Yes. The December attack, of course we were 
involved in that. As I said, we have had a couple of dozen 
since the first of the year as well. What stood out to us about 
the December attack, again, was the sophistication, the level 
of organization, the way the traffic was routed to us. We don't 
know who did it, but we will go so far as to say it was quite 
sophisticated and there were resources behind it from 
somewhere.
    The difference between the attack on our system and the 
attack on Google's system appears to be, the Google attack was 
aimed at infiltrating e-mail accounts. The attack on our system 
was designed to disable Web sites that somebody doesn't like.
    Senator LeMieux. Yes, sir?
    Mr. Davidson. I don't want to be too cute with my answer, 
sir. I would just say it is actually a very complex environment 
there. There are lots of different groups that operate, 
nationalist groups, groups that do things. So it really is the 
case that we don't know, and it is also the case that I think 
there were a whole set of circumstances, starting with the fact 
that in 2006 we would be continually evaluating these 
circumstances and doing business that led to our decision, but 
I will leave it to others to draw their own conclusions.
    Senator LeMieux. Let me ask that question of Ms. Hom, if 
she has an opinion as to where these attacks are coming from.
    Ms. Hom. I think that it's important not to get fixed on 
the question of whether it's the Chinese Government behind the 
attacks. It is true that in a number of these attacks, 
particularly against human rights groups, including Tibetan 
groups and some Falun Gong groups, the attack control server 
has been traced back to control servers located inside China. 
However, the real issue is the responsibility of a government 
in terms of cross-border crimes. So I would say that it's 
important that China has an obligation to investigate and to 
ensure that those responsible for these attacks are held fully 
accountable.
    Mr. Davidson said that China is a complex environment. I 
think it's also true that when we say ``the Chinese 
Government'' we have to keep in mind it's not monolithic. In 
the IT Internet area there are turf battles between the 
different ministries, for example, the Ministry of Industry and 
Information Technology, the Ministry of Public Security, and 
the Ministry of State Security. So in the current negotiations 
with Google, it may not even be clear who and what interests 
are represented at the negotiating table. I would guess it is a 
complex negotiation.
    In the discussion about cyber attacks, and the technical 
solutions that have to be developed, we need not only access 
and circumvention tools. We need safe, secure, and anonymous 
access, access that ensures that our identity is not 
compromised.
    Therefore, I would add to Ambassador Palmer's call for the 
need for more support for the development of a suite of 
technology tools. I don't think any one tool alone is going to 
work. DRL [Bureau of Democracy, Human Rights, and Labor] and 
the State Department has issued and closed an RFP [Request for 
Proposal] for the development of new mobile technologies, but 
it is a very limited pot and many groups have applied.
    There needs to be a lot more resources devoted to the 
development of technology solutions. This will require 
governments and the donor community to step up to the plate. 
Unfortunately, some private donors that are trying to maintain 
their presence in China are moving away from supporting work, 
including human rights work, that might be perceived as 
sensitive by the Chinese authorities. Yet there is a very 
important role and need for support for human rights-related 
technology development, coming from government as well as the 
private sector.
    Senator LeMieux. Mr. Black or Ambassador Palmer, do you 
care to take a shot at that?
    Mr. Black. Yes. First of all, we would endorse the--what 
has just been mentioned. We think, to the extent you can have 
technological assets to bring to bear in this battle, that's 
great. I think it's important and valuable. It is, 
nevertheless, going to be a difficult fight when you are in a 
fight with a government with the tools governments have 
available. So again, we do think it is important to engage at 
the governmental level.
    What I would suggest is--and while we all recognize, I 
think, that China has the most sophisticated firewall and 
technological assets that they bring to bear in this area, and 
thus make it a more difficult problem--they are not the only 
country we want to focus on. I would suggest, while not de-
focusing on China, that we also focus on some other countries 
where we may have the greater opportunity to use leverage and 
create some precedents that then can be turned back and used on 
others.
    We have identified Burma, Tunisia, Thailand, Uzbekistan, 
Vietnam, Egypt, Turkey, Iran, and I have a longer list of 
countries who are doing very clear things which we think are 
violations of not just Internet freedom conceptually, but could 
be actionable under trade agreements.
    I understand the U.S. Government, for various reasons, is 
reluctant to pick a big fight, maybe at any given point bring a 
trade case against China or do other things, but some of these 
countries we may well have some influence with and they are 
members of the WTO. Those rules can work for us at times.
    I think if we create a pattern of precedents and create, in 
essence, a climate that makes China even more clearly the 
outrider, the outlier on this, I think in the long run that may 
well be more effective. Confrontation may work sometimes. We 
all know confrontation sometimes makes it harder to do things. 
But coming in from the side and from other places globally, I 
think, is an avenue that really can actually begin to make some 
progress.
    Senator LeMieux. Ambassador?
    Ambassador Palmer. On the question of who's doing this, it 
seems to me, clearly, obviously the Chinese Government. If you 
look at the history of censorship and of this kind of 
intervention in many countries, in dictatorships, it's always 
the government. Who else, as you said, Senator, has the 
interest? This is a sophisticated, large-scale effort. It is 
clear that Beijing is doing this as a matter of government 
policy.
    On the question that Ms. Hom touched on, and that is, is 
there sort of a solution, a technological solution, I think the 
answer to that is, no, there isn't a single answer. But the 
State Department now, which I find really quite piquant and 
wonderful, is saying that they want to do venture capital. I am 
a venture capitalist. I have been running, and own, a venture 
capital firm for the last 20 years. There is a role for venture 
capital in this field.
    I mean, it is true that in order to keep up with the 
engineering skills in Beijing, the Chinese skill in this, that 
the Communists are abusing, we are going to have to keep 
innovating ourselves. But it's also true in the investment 
world that there are products that already exist that you want 
to get behind with large-scale investments because they're 
proven and they're beyond the R&D phase. They're beyond the 
venture capital phase.
    That is the case with the Global Internet Freedom 
Consortium, which is already serving all together several 
million people on a daily basis. If they only had the servers, 
they could serve 50 to 100 million people on a daily basis. It 
would be criminal, in my judgment, to wait to find some brand-
new, sexy little thing out there that may take five more years 
to develop and not go ahead right now and build up an existing, 
proven system and devote some money. We should not devote 100 
percent to the existing proven; I'd be opposed to that. But 
spend serious money to build up, to scale up an existing proven 
system.
    The only other potential competitor is Tor, which was 
partly developed by the U.S. Government. Tor has, in my 
judgment, about one-tenth as many users, but that's not 
insignificant either. So I think there may be two build-up 
possibilities that exist today, along with the R&D stuff.
    Senator LeMieux. Well, thank you, Ambassador. Thank you for 
your candor. It seems to me that it's hard to imagine, Mr. 
Chairman, that there could be an entity inside of China that 
was not controlled by the Chinese Government that would be 
sophisticated enough to bring these attacks forward.
    I have one last question, if I may, that I wanted to direct 
to our friends from Google. That is, you have a lot of 
employees, as I understand it, in China. I want to know, 
because I saw how this announcement was made on the blog, and 
there seems to be a reference to your employees. Do you have a 
concern about their safety?
    Mr. Davidson. Of course we have a concern. That's why----
    Senator LeMieux. Beyond the normal security you have for 
employees.
    Mr. Davidson [continuing]. Right. Sure. I think it is very 
important to us, and that's partly why we made this 
announcement in January, but we took action this week. It was 
important for us to do this in an orderly fashion that was 
really sensitive to the employees that we have on the ground. 
We made it clear in our announcement that these decisions have 
been made entirely by Google executives in the United States 
without the involvement of our employees in China.
    I think going forward, our hope is that they'll continue to 
be there and that they'll continue to be able to contribute. We 
have some fantastic engineers. We have an R&D center and a 
sales force there, and we'd like to continue to grow that great 
group of employees. But we will be watching the situation on 
the ground very carefully.
    Senator LeMieux. Mr. Chairman, I want to thank you again. I 
think that you have brought a lot of light and attention to 
this issue by chairing this hearing today. I want to thank all 
the witnesses for being here.
    As I said in my opening statement, with great power comes 
great responsibility. We need for the Chinese Government to 
stand up and not have the censorship anymore. I believe that 
the Internet is going to be the greatest tool of the modern 
time to promote communication, and eventually democracy, 
throughout the world. I applaud both of your companies, again, 
for the good work that you're doing.
    Thank you, Mr. Chairman.
    Chairman Dorgan. Senator LeMieux, thank you very much.
    Mr. Ambassador, when you began today you said some 
encouraging things about China. Most, however, of the rest of 
this hearing has been rather discouraging when we're talking 
about Internet freedom, censorship, people going to prison. So 
tell me again, what do you see for China? You've watched 
diplomatic issues and worked in the State Department 26 years.
    What do you see going forward here? I mean, it's pretty 
clear, it seems to me--and everybody in the room--however 
critical one might be of China, all of us understand that 
things in China are marginally better. Things have improved 
over the last 25 years in a number of areas. However, there are 
many other areas where you still have the authoritarian fist of 
a regime that wants to protect itself.
    As you answer this, let me ask you, looking at the regimes 
in Eastern Europe that prevented their citizens from hearing 
and seeing what was happening in the rest of the world, my 
understanding is the landscape changed with the introduction of 
the video cassette recorder [VCR].
    When the VCRs came in and video cassettes could be moved 
around the world, people in their living rooms in Eastern 
Europe could run a cassette and watch a movie or see 
programming. It was impossible for those governments to prevent 
information from getting to people.
    The Internet, of course, is the video cassette recorder on 
super steroids, right? How effective can the Chinese Government 
be regarding censorship, given the power of the Internet? What 
is your impression? I'm sorry for the lengthy question.
    Ambassador Palmer. No. I think that's absolutely right, 
they will not succeed. It is simply impossible in a modern 
society, which China increasingly is a modern society, an 
extraordinary society which has been transformed in the last 
generation. It's a totally different country. It is impossible. 
I spent much of my foreign service career living in Eastern 
Europe and we learned the power of rock and roll, not only 
video cassettes, but rock and roll.
    I mean, you know, kids are kids and they don't want this 
nonsense. They're skeptical of the political leaders and they 
are the children of the leaders, and the nephews and nieces. 
Over the dinner table, they tell some homely truths to the 
people who live in Zhongnanhai, to the leadership of China. So 
I see so much evidence that we're basically winning.
    I mean, when you have 11,000 people with their own names 
sign Charter 08, which is the most important written document 
in modern Chinese history--not since Sun Yat-sen founded modern 
China has there been a piece of paper more explicit, clear, and 
more powerful than that is. And 11,000 of the leading people in 
the country--what we learned in Eastern Europe is that among 
elites, when things look so dark, there is a whole lot of 
foment going on.
    I just finished reading Zhao Ziyang's book when he was the 
General Secretary of the Communist Party of China at Tiananmen. 
He's written a book. He dictated, in secret, his memoirs before 
he died. It's called, ``The Prisoner of the State,'' and I 
would recommend everybody to read it. He and his predecessor, 
Hu Yaobang, who was the previous General Secretary of the 
Communist Party, after all--I mean the top party official in 
the country--both of them wanted ultimately complete democracy 
in China, with everything that we call a democracy.
    So when you've got really senior people, now you can see 
what their thinking was, I am certain that today in Zhongnanhai 
you have all kinds of people who recognize that this oppression 
of Google is a mistake and they don't want it. Eventually they 
will be the rulers of the country.
    Chairman Dorgan. Let me, in conclusion, ask a question of 
both Google and Go Daddy. The decisions you have now made, are 
these decisions for the moment, interim decisions, or are there 
things the Chinese Government can do that would convince you 
that that decision should be modified or changed? Give me your 
assessment of where you are now relative to conditions in China 
and what the Chinese Government might or might not do that 
would change these decisions.
    Mr. Davidson. Well, I would say our hope is what it's 
always been, which is to be able to offer our services and 
access to information to our users in China. If, tomorrow, we 
were able to offer an uncensored version of our search engine 
in China, we would absolutely consider that. I think that would 
be a welcome move.
    But throughout our conversations the Chinese Government has 
indicated that that's not a negotiable point, so we are where 
we are. Our hope is that the way we've done this, the solution 
we've put forward, operating out of Hong Kong, will be a way 
that will give people access to information, and over time they 
will.
    If I could actually, just to amplify the point that the 
Ambassador just made, to just say that I think we actually do 
have a little bit of a hard road ahead. In the mid-1990s there 
was this great saying floating around the Internet that ``the 
Internet interprets censorship as damage and routes around 
it.'' That was John Gilmore, who's an engineer, not a lawyer. 
It was this great idea, that the Internet was this unstoppable 
force for freedom. If you have the Internet, you can't stop 
people from getting information.
    What we've discovered, and I think the point in my 
testimony was, that in the last 15 years governments have 
started to learn how to exert more control and it's going to 
take a lot of work to combat that censorship. But I am an 
optimist, as well I think we are optimists, that human nature 
demands information, that people will seek information 
regardless of frontiers, to paraphrase the UN Declaration of 
Human Rights, and that ultimately that Internet freedom will be 
something that we'll be able to achieve. But it's going to take 
a lot of work and we need your help.
    Chairman Dorgan. All right.
    And Ms. Jones, what do you believe is Go Daddy's future 
relationship with business in China?
    Ms. Jones. We would say something similar. We have been 
doing this for six years. We see no reason why we shouldn't 
continue to do it for six more, and six more after that. But 
again, we have to have a reasonable expectation from officials 
in China as to what level of information is going to be 
required. If they want to go ahead and repeal the new rules, 
we'll probably open up the .CN name the next day. It's just a 
flip of a switch for us.
    But it's really discouraging to us that we've been able to 
help people in China get their message out for six years, and 
then suddenly, in the snap of a finger, the service has to 
become unavailable because it looks like we need to operate, as 
I said before, as the agent of the Chinese Government, and 
we're not interested in being that.
    We really exist to enable people to share their thoughts 
openly and we agree that the Internet demands the open exchange 
of ideas. Some of them are good and some of them aren't, but 
nevertheless they are all ideas and they deserve to be shared. 
So we would strongly urge this Commission to work with the 
authorities in China to repeal that rule, and if you can 
accomplish that we'll be happy to flip the switch and turn it 
back on.
    Chairman Dorgan. Well, thank you very much.
    Let me thank all of the witnesses. Senator LeMieux, thank 
you for your participation. I'm just looking at this CECC 
document that our Congressional-Executive Commission on China 
will be putting in the record today of political prisoners in 
China, with their photographs and data. These are people who 
have gone to the Internet and published articles and journals, 
and for that they are sitting in a dark prison cell somewhere 
in China.
    It demonstrates that this issue is not just some 
theoretical issue over which we should just have an interesting 
discussion or debate. It is, in some cases, life and death, and 
it is always about freedom. This Commission scheduled this 
hearing to try to understand what is happening in China, 
especially as a result of the Google decision. Again, I 
compliment Google and compliment Go Daddy for making decisions 
that I'm sure are difficult to make, but yet reflect companies 
that are willing to make the right decisions.
    It is our hope that things in China will improve. It's not 
our lot in life to decide that we should just beat up on China 
every time we have a hearing, but China is going to be a big 
part of our future. It's a significant, important part of the 
world. And, it's going to be a significant, important part of 
the future of our country, the United States. If not for that 
reason alone, we must examine what is occurring inside China 
today.
    It has always been our intention, especially through trade, 
travel, and also through information, to pursue what is called 
``constructive engagement'' with China and similar countries, 
believing that constructive engagement would move these 
countries toward greater respect of human rights. Yet, we find 
ourselves, in March 2010, still talking about a country that 
censors the Internet and throws people into the dark cells 
because of what they think or what they publish. This behavior 
by a state seems so out of touch with the modern world.
    Today the Commission engaged a discussion about Internet 
freedom in China and how we might persuade that country to move 

toward greater human rights. So all of you have contributed 
significantly to the hearing, and we appreciate your testimony 
and your attendance.
    This hearing is adjourned.
    [The questions and responses submitted for the record 
appear in the appendix.]
    [Whereupon, at 3:53 p.m. the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                  Prepared Statement of Alan Davidson

                             march 24, 2010
    Chairman Dorgan, Chairman Levin, and Members of the Commission.
    Thank you for bringing attention to the important issue of Internet 
censorship, and for giving Google the opportunity to discuss today's 
global challenges to freedom of expression and access to information 
online. Internet censorship is a growing global problem. It not only 
raises important human rights concerns, but also creates significant 
barriers for U.S. companies doing business abroad. As Google's Director 
of Public Policy in the Americas, I am part of the Google team that 
works to promote free speech both in the United States and globally.
    The number of governments that routinely censor the Internet has 
grown from a handful in 2002 to more than 40 countries today. Even in 
countries that are just beginning to make the Internet available to 
their citizens, governments are simultaneously building sophisticated 
tools for blocking and censoring content. Repressive regimes are 
developing ever more advanced tools to use against dissidents and are 
sharing censorship tactics across borders. Human rights observers have 
noted that these governments are ``baking in'' censorship tools for the 
Internet rather than chasing after criticism that has already been 
aired.
    The lack of transparency and accountability in blocking and 
censoring is also a grave concern. Over the last several years, we have 
seen an increasing number of governments, even democratic ones, choose 
to blacklist certain sites they deem harmful without providing any 
formal oversight of process or meaningful ability to appeal. In the 
next few years, the Open Net Initiative predicts that we will see more 
targeted surveillance and increasingly sophisticated malware being used 
to make the monitoring and documentation of government activity even 
harder.
    But despite these challenges we remain optimistic about the ability 
of technology to empower individuals and realize the potential for a 
global Internet community. We believe that maximizing the free flow of 
information online can help to increase openness and prosperity even in 
closed societies.
    As Google invests in new countries, we look to the following three 
principles to help us protect online freedom of speech and increase 
access to information:

        <bullet>  Access--maximizing access to information on the Web 
        and tools for the creation of content.
        <bullet>  Transparency--notifying users when information has 
        been removed by government demand.
        <bullet>  Trust--retaining the trust of our users by protecting 
        their privacy and security from governmental acts intended to 
        chill speech.

    With those principles in mind, we would like to address four main 
issues in this testimony:
    First, Google's situation in China.
    Second, the global challenges Google and other U.S. companies face 
every day from governments who seek to limit free expression online.
    Third, the economic implications of censorship.
    And finally, the need for governments around the world to do more 
to reduce Internet censorship and support free expression online.
                              china update
    Let us start with an update on Google's situation in China.
    We launched Google.cn, our Chinese search engine, in January 2006 
in the belief that the benefits of increased access to information for 
people in China and a more open Internet outweighed our discomfort in 
agreeing to censor some results. While we have faced challenges, 
especially in the last 12 to 18 months, we have also had some success.
    Google has become the second most popular search engine in China, 
behind Baidu, and we were the first search engine in China to let users 
know when results had been removed to comply with Chinese law. Use of 
our maps, mobile and translation services has grown quickly. And from a 
business perspective, while our China revenues are still small in the 
context of our larger business, the last quarter of 2009 was our most 
successful quarter ever in China.
    However, in the last year we have seen increasing attempts to limit 
free speech on the Web in China. Numerous sites including YouTube, The 
Guardian, Facebook, Twitter, Blogger and Wikipedia have been blocked, 
some of them indefinitely. In addition, last June the Chinese 
government announced that all personal computers sold in China would 
need to be pre-loaded with software that could be used to censor online 
content. After a public outcry and pressure from companies, the 
proposal was later withdrawn.
    Most recently, in mid-December, we detected a highly sophisticated 
and targeted attack on our corporate infrastructure originating from 
China. What at first appeared to be an isolated security incident--
albeit a significant one--turned out upon investigation to be something 
quite different.
    First of all, at least twenty other large companies from a wide 
range of businesses--including the Internet, finance, technology, media 
and chemical sectors--were similarly targeted.
    Second, we believe that a primary, albeit unsuccessful, goal of the 
attack was to access Gmail accounts surreptitiously.
    Third, we discovered in our investigation that the accounts of 
dozens of U.S.-, China- and European-based Gmail users who are 
advocates of human rights in China appear to have been routinely 
accessed by third parties. I want to make clear that this happened 
independent of the security breach to Google, most likely via phishing 
scams or malware placed on the users. computers.
    The attack on our corporate infrastructure and the surveillance it 
uncovered--as well as attempts over the past year to limit free speech 
on the Web even further--led us to conclude that we were no longer 
willing to censor our search results in China. This decision was in 
keeping with our pledge when we launched Google.cn that we would 
carefully monitor conditions in China, including new laws and other 
restrictions on our services.
    I want to stress that while we know these attacks came from China, 
we are not prepared to say who carried out these attacks. We do know 
such attacks are violations of China's own laws and we would hope that 
the Chinese authorities will work with US officials to investigate this 
matter.
    Earlier this week we stopped censoring our search services--Google 
Search, Google News, and Google Images--on Google.cn. Users visiting 
Google.cn are now being redirected to Google.com.hk, where we are 
offering uncensored search in simplified Chinese, specifically designed 
for users in mainland China and delivered via our servers in Hong Kong.
    Figuring out how to make good on our promise to stop censoring 
search on Google.cn has been hard. We want as many people in the world 
as possible to have access to our services, including users in mainland 
China, yet the Chinese government has been crystal clear throughout our 
discussions that self-censorship is a non-negotiable legal requirement. 
We believe this new approach of providing uncensored search in 
simplified Chinese from Google.com.hk is a practical solution to the 
challenges we've faced--it's entirely legal and will meaningfully 
increase access to information for people in China. We are well aware 
that the Chinese government can, at any time, block access to our 
services--indeed we have already seen intermittent censorship of 
certain search queries on both Google.com.hk and Google.com.
    In terms of Google's wider business operations, we intend to 
continue R&D work in China and also to maintain a sales presence there, 
though the size of the sales team will obviously be partially dependent 
on the ability of mainland Chinese users to access Google.com.hk.
    Before moving on to the broader, global challenges Google faces, we 
would like to make clear that all these decisions have been driven and 
implemented by our executives in the United States, and that none of 
our employees in China can, or should, be held responsible for them. 
Despite all the uncertainty and difficulties they have faced since we 
made our announcement in January, they have continued to focus on 
serving our Chinese users and customers. We are immensely proud of 
them.
           other global challenges and economic implications
    China is simply one example of a global phenomenon that raises 
concerns. Google has become a regular focus of governmental efforts to 
limit individual expression because our technologies and services 
enable people with Internet connections to speak to a worldwide 
audience.
    More than 25 governments have blocked Google services over the past 
few years. Since 2007, YouTube has been blocked in over a dozen 
countries. We have received reports that our blogging platform has been 
blocked in at least seven countries, and that our social networking 
site, Orkut, has been blocked in several countries.
    Iran provides a prominent recent example of political censorship. 
This past June, during the protests that followed the presidential 
election in Iran, the government of Iran ejected foreign journalists, 
shut down the national media and disrupted Internet and cell phone 
service. In spite of this, YouTube and Twitter were cited by 
traditional journalists and bloggers alike as the best source for 
firsthand accounts and on-the-scene footage of the protests and 
violence in Tehran.
    The Iran example demonstrates why it's imperative for governments, 
companies, and individuals to do more to ensure that the Internet 
continues to be a powerful medium for expressing political opinions, 
religious views and other core speech without restriction.
    But the debate on Internet censorship is, of course, not only about 
human rights. At issue is the continued economic growth spurred by a 
free and globally accessible Internet. Barriers to the free flow of 
information online have significant and serious economic implications: 
they impose often one-sided restrictions on the services of U.S. and 
global Internet companies, while also impeding other businesses who 
depend on the Internet to reach their customers.
    When a foreign government pursues censorship policies in a manner 
that favors domestic Internet companies, this goes against basic 
international trade principles of non-discrimination and maintaining a 
level playing field. Local competitors gain a business advantage, and 
consumers are deprived of the ability to choose the best services for 
their needs. And when a government disrupts an Internet service in its 
entirety--e.g., blocking an entire website because of concerns with a 
handful of user-generated postings--the government is restricting trade 
well-beyond what would be required even if it had a legitimate public 
policy justification for the censorship.
    Opaque censorship restrictions can also be very damaging to the 
``host'' nation, because they undermine the rule of law and make it 
very hard for foreign companies to navigate within the law, which has 
negative consequences in terms of foreign direct investment.
    The U.S. Government has taken some positive steps to address the 
means and effects of censorship through trade tools. The United States 
Trade Representative (USTR) has sought explicitly to address some of 
these issues in trade agreements--most recently, in the U.S.-Korea Free 
Trade Agreement--and we applaud these efforts. And the Commerce 
Department and USTR have been helpful in the context of particular 
incidents we have encountered in the past.
    But governments need to develop a full set of new trade rules to 
address new trade barriers. We encourage further efforts along these 
lines, by the U.S. Government and other governments to redress 
favoritism shown by some governments for indigenous companies over 
U.S.-based corporations. We should continue to look for effective ways 
to address unfair foreign trade barriers in the online world: to use 
trade agreements, trade tools, and trade diplomacy to promote the free 
flow of information on the Internet.
              how governments can support free expression
    Internet censorship is a challenge that no particular industry--
much less any single company--can tackle on its own. However, we 
believe concerted, collective action by governments, companies and 
individuals can help promote online free expression and reduce the 
impact of censorship.
     As I noted previously, our business is based on the three 
principles of access, transparency, and retaining the trust of online 
users. These principles are not exclusive to Google, and there are ways 
that the public and private sectors can work together to advance them.
    First, making every effort at both the grassroots and government 
level to maximize access to information online. The State Department 
recently issued a request for proposals on projects to help citizens on 
the ground access information they would not otherwise be able to share 
or receive. Google supports the joint commitment of Congress and the 
Obama Administration to provide funds to groups around the world to 
make sure people who need to access the Internet safely get the right 
training and tools. This is a great step forward, and we believe much 
more can be done to support grassroots organizations that develop 
technology to combat Internet censorship.
    Second, establishing transparency as a norm when governments 
attempt to censor or request information about users, or even when a 
company's network comes under attack. This is a critical part of the 
democratic process, and governments must strike a balance between law 
enforcement and proper disclosure, allowing citizens to hold their 
lawmakers accountable. In many cases the cloud of secrecy around cyber 
attacks only works to the attackers. advantage because it enables them 
to operate more easily under the radar. Some of the sensible ideas 
we've heard discussed to improve transparency include: requiring annual 
company reports on the levels of filtering being complied with and 
requests for personally identifiable information from government 
officials; and greater engagement by the U.S. Government with countries 
that censor the Internet, so any company disclosures result in concrete 
actions by the U.S. government.
    Third, retaining users. trust by committing to protect their 
privacy and security. There is nothing new about governments using 
surveillance and intimidation tactics to chill speech about 
uncomfortable ideas. What is new is the growing deployment of online 
surveillance toward these ends. To be clear, we fully support lawful 
investigation by government authorities to protect individuals and 
companies. But we are committed to protecting our users against 
unlawful and overbroad government demands for their personal 
information and ensuring the security of our networks. The global trend 
toward increasing government access to online communications is of 
great concern and demands serious review and oversight. In addition, 
the United States should push for improved international cooperation to 
protect user privacy.
    We are also grateful for the efforts of lawmakers to bring more 
companies into the Global Network Initiative (GNI). As a platform for 
companies, human rights groups, investors, and academics, the GNI 
requires its members to commit to standards that respect and protect 
user rights to privacy and freedom of expression. Additional corporate 
participation will help the GNI reach its full potential--and we look 
to the Members of this Commission for continued leadership.
    And finally, ensuring that the U.S. Government makes the issue of 
Internet openness, including the free flow of information, an important 
part of foreign policy, trade, development and human rights engagement. 
This includes prioritizing the issue as a matter of U.S. foreign 
policy, including in various dialogues that the U.S. Government pursues 
with regimes that are heavy Internet restrictors; using trade tools 
where possible; and perhaps also making it part of the criteria for 
receiving development aid. Ultimately, governments that respect the 
right to online free expression should work together to craft new 
international rules to better discipline government actions that impede 
the free flow of information over the Internet. We need forward-looking 
rules that provide maximum protection against the trade barriers of the 
new technology era.
    On the multilateral human rights front, enforcing and supporting 
the mechanisms of the International Covenant on Civil and Political 
Rights and others under the UN system (e.g., the UN Human Rights 
Committee) to demand accountability from governments for Internet 
censorship is helpful. At the very least, these mechanisms can be 
better used to shine light on government abuses.
                               conclusion
    We would like to thank Chairman Dorgan, Chairman Levin, the members 
of the Congressional-Executive Commission on China, and other Members 
of Congress who have spoken in support of upholding the right to online 
free expression around the world. It is only with the attention and 
involvement of leaders like yourselves that we can make real progress 
in the effort to protect these basic human rights. We look forward to 
working with you and other government officials to find viable 
solutions to maximize access to information, increase transparency and 
protect users around the world.
                                 ______
                                 

                 Prepared Statement of Christine Jones

                             march 24, 2010
                              introduction
    Thank you, Chairman Dorgan, and members of the Commission, for the 
honor of testifying here today. We at Go Daddy applaud the actions of 
the Commission to support the continuing global exchange of information 
and trade on the Internet.
                               background
    The recent cyber attacks on Google and other U.S. companies are 
troubling, but they reflect a situation that The Go Daddy Group has 
been combating for many years. Go Daddy is an Arizona company which 
consists of eight ICANN-accredited registrars, including GoDaddy.com, 
Inc., the world's largest domain name registrar. This month, Go Daddy 
passed a major Internet milestone--we now have more than 40 million 
domain names under management, more than any other company in the 
history of the Internet. We are also the largest provider of shared 
website hosting. We have more than 7 million paying customers located 
all over the globe. So, if you are an active Internet user with a 
domain name or a website, the likelihood is that at some point you have 
utilized Go Daddy's services to engage on the Internet.
    Go Daddy's customer base includes tens of thousands of Chinese 
nationals. We work with Chinese customers on a daily basis to help them 
to establish an identity on the Internet, and to ensure the secure and 
seamless operation of their hosted websites. We are also constantly in 
the process of repelling cyber attacks against the systems and 
infrastructure that secure our customers' websites and Internet 
activities. A large percentage of those attacks can be traced to China, 
as can other illegal activities that interfere with our customers' safe 
and productive use of the Internet. I am here today to share some of 
our experiences as they relate to China, specifically with respect to 
the following: increased monitoring and surveillance of .CN domain name 
registrations; increasing DDoS attacks originating in China; spam; 
payment fraud; and, what we would like to see the U.S. Government do to 
help alleviate some of these issues.
       increased monitoring and surveillance of .cn registrations
    There appears to be a recent increase in China's surveillance and 
monitoring of the Internet activities of its citizens. As a domain name 
registrar, Go Daddy provides registration services for numerous top 
level domain names. Top level domains, or ``TLDs,'' are the suffix that 
appears at the end of a domain name (for example, .COM, .NET, etc.). 
One of the TLDs we have historically offered is .CN, the Chinese 
country code top level domain (or ``ccTLD''). Go Daddy is authorized by 
the China Internet Network Information Centre (known as the CNNIC), a 
quasi-governmental agency in China, to offer registration services for 
the .CN ccTLD. Go Daddy began to offer the .CN ccTLD in April of 2005 
and, at this time we have approximately 27,000 .CN domain names under 
management. Registering a domain name with the .CN ccTLD is an 
important step for any individual or company wishing to establish an 
audience or business foothold in the Chinese market.
    When Go Daddy started registering the .CN TLD in 2005, CNNIC 
required us to collect the contact information of the individual or 
company registering the domain name. The required contact information 
included first and last names of the registrant, his or her physical 
address, telephone number and email address. The extent of the personal 
information collected was typical of what is normally required by 
.ccTLD registries.
    A little over four months ago, on December 12, 2009, CNNIC 
announced that it was implementing a new policy relating to the 
registration of .CN domain names, and that it would begin to enforce 
the new policy effective December 14, 2009. The policy required that 
any registrants of new .CN domain names provide color headshot photo 
identification, business identification (including a Chinese business 
registration number), and physical signed registration forms. This 
information was to be collected by the registrar, and then forwarded to 
CNNIC for its review prior to the activation of the registration.
    Less than a month later, on January 5, 2010, CNNIC announced that 
Chinese nationals were no longer permitted to register domain names 
through non-Chinese registrars. In accordance with the new policy, Go 
Daddy halted all new .CN registrations.
    On February 3, 2010, CNNIC announced that it would reopen .CN 
domain name registrations to overseas registrars. However, the 
stringent new identification and documentation procedures would remain 
in effect. CNNIC also announced an audit of all .CN domain name 
registrations currently held by Chinese nationals. Domain name 
registrars, including Go Daddy, were then instructed to obtain photo 
identification, business identification, and physical signed 
registration forms from all 
existing .CN domain name registrants who are Chinese nationals, and to 
provide copies of those documents to CNNIC. We were advised that domain 
names of registrants who did not register as required would no longer 
resolve. In other words, their domain names would no longer work.
    We were immediately concerned about the motives behind the 
increased level of registrant verification being required by CNNIC. It 
did not make sense to us that the identification procedures that had 
been in place since 2005 were apparently no longer sufficient from 
China's standpoint, and no convincing rationale for the increase in 
documentation was offered. We were also concerned by the ex post facto 
nature of the new requirement--in other words, at the time the affected 
Chinese nationals registered their domain names, they were not required 
to provide photo identification and the other documentation now being 
required by the CNNIC. The new documentation requirement was to be 
retroactively applied to registrants who had previously registered 
their websites, in some cases years before. The intent of the new 
procedures appeared, to us, to be based on a desire by the Chinese 
authorities to exercise increased control over the subject matter of 
domain name registrations by Chinese nationals.
    Approximately 1,200 unique Go Daddy customers were affected by 
CNNIC's ex post facto application of the requirement for additional 
identification documentation. This represented a much larger number of 
domain names, of course, because many registrants have multiple domain 
names under their control. We contacted our affected customers advising 
of this new requirement, and advised them that, if they wished to 
provide us with the required documentation, we would provide it to 
CNNIC in accordance with CNNIC's directive. Ultimately, only about 20 
percent of the affected customers submitted the required documentation 
and agreed to allow us to submit it to the CNNIC. The domain names of 
the remaining 900 or so customers remain at risk of cancellation. That 
means thousands of websites the Chinese authorities may successfully 
disable because of retroactive application of this new set of rules.
    Go Daddy has been registering domain names since 2000. We currently 
serve as an authorized registrar for dozens of domain name extensions. 
This is the first time a registry has asked us to retroactively obtain 
additional verification and documentation of individuals who have 
registered a domain name through our company. We are concerned for the 
security of the individuals affected by CNNIC's new requirements, as 
well as for the chilling effect we believe the requirements will have 
on new .CN domain name registrations. For these reasons, we have 
decided to discontinue offering new .CN domain names at this time. We 
continue to manage the .CN domain names of our existing customers.
              increasing ddos attacks originating in china
    Another China-related issue we have seen recently is an increase in 
the number of distributed denial of service (also known as ``DDoS'') 
attacks on the systems that host our customer websites. In Go Daddy's 
case, a DDoS attack is typically an attempt to make websites that we 
host unavailable to their intended users for some period of time. We 
also combat many attacks that are more systematic, such as hackers 
attempting to insert malicious code into the pages of our customers' 
hosted websites. An example of this type of attack would be the 
installation of spyware on the computers of all visitors to a website 
we host. The spyware then logs keystrokes to harvest passwords to email 
accounts, which can then be infiltrated and monitored without the 
knowledge of the account owner.
    Go Daddy operates data centers, and has invested hundreds of 
millions of dollars in those centers, including building and operating 
state-of-the-art security measures that monitor and fight external 
attacks on our systems 24 hours a day, 365 days a year. In the first 
three months of this year, we have repelled dozens of extremely serious 
DDoS attacks that appear to have originated in China, based on the IP 
addresses from which the attacks derived. Had our security systems not 
countered these attacks, the result would have been a widespread take-
down of our customers' hosted websites.
                                  spam
    Unlike many other Internet companies of our size, Go Daddy operates 
a large 24/7 Abuse Department whose mission it is to identify and help 
stop illegal and malicious activity on the Internet. We work very 
closely with local, federal and international law enforcement agencies 
to stop all types of Internet abuse, including child pornographers, 
unauthorized online pharmacies, spammers, phishers, and sellers of 
counterfeit merchandise.
    In monitoring spam activities, we have found that an overwhelming 
majority of websites promoted through spam are hosted in China, often 
at service providers that choose to ignore complaints of spam and other 
types of illegal activity. When Go Daddy and other legitimate hosting 
companies receive complaints that spam is being sent from websites 
hosted by their company, the sites are typically taken offline. 
However, many companies in China offer so-called bulletproof hosting, 
where websites are allowed to stay online and spam operations can 
continue unabated, even after receipt of a complaint.
    China is also the location of choice for buying and selling lists 
of spam ``zombies''--personal computers deliberately infected with 
spam-enabling viruses and operated by ordinary, usually oblivious, 
computer users around the world. Our 
research indicates that China dominates the market for buying and 
selling lists of zombie PCs, which are peddled by virus writers on 
Internet forums found on Chinese servers. Lists can currently be had 
for about $2,000-$3,000 per 20,000 compromised computers.
    Another reason so much spam appears to originate in China is the 
spam industry's growing sophistication. The modern spam industry is 
populated by technically advanced programmers and organized crime 
rings. Spammers create complex phishing scams to lure individuals to 
fake websites where they are conned into divulging bank account, social 
security and credit card details. Organized spam groups tend to avoid 
operating in jurisdictions where authorities are hostile and penalties 
potentially severe. To date, China has not enforced significant 
penalties against spammers and others who utilize the Internet to 
engage in criminal activities; thus, it has become a sort of safe 
harbor for such criminals.
    China is also an attractive locale from which spammers operate 
because of its low costs. A domain name can be bought for as little as 
$0.15 in China, which allows scammers to acquire lots of domain names 
inexpensively. Domain names cost much more in the United States, where 
some of the money goes to fighting abuse and spam. But the low revenue 
stream in China is likely hampering the creation of programs to stop 
abuse.
    China today is basically the only major market where spammers can 
do just about anything they want. Go Daddy's efforts to persuade 
authorities there to investigate or prosecute spammers have been 
ineffective, as have our efforts to work with Chinese-based hosting 
companies to shut down compromised websites. Official pronouncements by 
the Chinese government usually appear to be aimed at getting 
Chinese spam servers removed from foreign blacklists rather than 
actually preventing spam.
                             payment fraud
    In addition to our Abuse department, Go Daddy also has a full time 
Fraud department that is continually monitoring and guarding against 
payment fraud issues affecting our customers. The payment fraud trends 
associated with China-based users include the widespread use of 
compromised U.S. or UK credit cards to purchase items. In one 
particularly egregious case, an individual or group operating from 
China is utilizing compromised credit cards from a wide variety of 
banks to purchase one year domain name registrations. The registrant 
then attempts to use the domain names to perform a variety of illegal 
activities. Since January, our Fraud team has managed to close 134 new 
shopper accounts associated with this repeat Chinese fraudster.
    Go Daddy has also been successful in combating Chinese spammers by 
closing customer accounts through our payment fraud process. Most 
recently, our Abuse department identified a Chinese-based spammer with 
175 separate shopper accounts with Go Daddy. Although each of the 
accounts was opened using a valid PayPal account, we were able to halt 
the spammer's activities by placing a payment fraud lock on the 
accounts.
    In addition to the challenges presented by China-based criminals, 
societal and cultural norms in China can make it difficult to identify 
and resolve payment fraud issues affecting legitimate Chinese 
customers. For instance, a problem we frequently encounter is the 
provision of invalid shopper/billing information by Chinese shoppers. 
Where invalid information is provided, contacting the customer to 
verify order activity is usually impossible.
    Credit card use is not prevalent in China, and most Chinese 
shoppers do not possess their own credit card. When credit cards are 
issued, they are often shared by numerous individuals. It is therefore 
very common for accounts owned by Chinese shoppers to have multiple 
unrelated names and addresses on file. This too makes identifying 
payment fraud more difficult.
    Despite these payment fraud challenges, Go Daddy is focused on 
continuing to serve and expand upon its Chinese customer base. In 
furtherance of this goal, in December 2009, we began to offer the 
Alipay payment processing system to our customers. Alipay is China's 
leading independent third-party online payment platform, with more than 
270 million registered users. What sets Alipay apart from other online 
payment platforms is that it holds funds in escrow until the product is 
received. Chinese customers can fund their Alipay accounts using direct 
bank payments or debit cards, both of which are more common forms of 
payment in China than credit cards. Alipay is a popular and trusted 
option for Chinese consumers, and we have experienced a large increase 
in our volume of sales to Chinese customers since we implemented it as 
a payment option. We have also found use of the Alipay system to be 
very helpful in combating China-related payment fraud. In fact, our new 
shopper payment fraud rates associated with Chinese accounts has been 
reduced by approximately 50 percent since we introduced Alipay in 
December of 2009.
                what the u.s. government can do to help
    Go Daddy's primary mission is to promote secure, easy, equal access 
to the Internet to people around the world. We are also committed to 
ending illegal or nefarious uses of the Internet, including for the 
invasion of personal privacy or to limit freedom of expression. We 
believe that many of the current abuses of the Internet originating in 
China are due to a lack of enforcement against criminal activities by 
the Chinese government. Our experience has been that China is focused 
on using the Internet to monitor and control the legitimate activities 
of its citizens, rather than penalizing those who commit Internet-
related crimes.
    We believe that countries or individuals that engage in cyber 
attacks or other types of Internet crimes should face serious 
consequences and international condemnation. We hope that the U.S. 
government can use its influence with authorities in China to increase 
Chinese enforcement activities relating to Internet abuse, while 
encouraging the free exchange of ideas, information, and trade. This 
would include the retraction of China's recent policies relating to the 
registration of .CN domain names, which will act as a barrier to 
Internet access by Chinese nationals.
                                 ______
                                 

                    Prepared Statement of Sharon Hom

                             march 24, 2010
    Mr. Chairman, thank you for inviting Human Rights in China (HRIC) 
to testify at this important and timely hearing. As a Chinese human 
rights NGO, HRIC appreciates this opportunity to share our experience 
and some modest recommendations. In light of the events of the past 
week, the topic for today is a story still in progress.
    The loss of annual MFN review leverage in 2000 and a decade of 
delinking of human rights from trade has contributed to the lack of 
systematic and sustainable human rights progress, and an unstable, 
unpredictable climate for foreign business in China. In recent months, 
there have also been disturbing reports about a series of cyber-
attacks, including the one publicized by Google in January of this 
year, emanating from China, targeting foreign governments, private 
businesses, and human rights advocates both in the United States and 
around the world. These cyber-attacks present serious cross-border 
human rights, diplomatic, and business challenges for China and the 
world.\1\
    As the comprehensive CECC Annual Report for 2009, the State 
Department Country report for China, and recent United Nations human 
rights reviews of China's record demonstrate, human rights violations 
in China--a country vital to U.S. security, trade, and human rights 
policy interests--remain serious, systematic, and widespread.\2\ On top 
of the economic, political, and increasing soft power leverage of 
China, China exerts control over expression on the Internet through its 
state-of-the arts technology, state secrets and state security system, 
police and security 
apparatus, and resulting self-censorship.\3\ By doing so, the Chinese 
government's policy and practices on information control implicate two 
universally recognized and mutually reinforcing human rights--the right 
to freedom of expression and opinion and the right to privacy.\4\
    The experiences of HRIC's own staff also illustrate that the 
Chinese authorities' repressive tactics at home extend to Chinese 
nationals and human rights defenders abroad. Such tactics include 
blacklisting, surveillance, and even inhumane denials of permission to 
return to China for family funerals. Additionally, the Chinese 
authorities have succeeded in preventing independent human rights NGO 
dedicated to China from succeeding in applying for ECOSOC status or UN 
conferences' accreditation--thereby undermining independent Chinese NGO 
voices.
                           role of technology
    The rapid pace of technology developments globally and in China, 
including in mobile and connective technologies, has provided tools for 
increased social control and human rights violations in China, 
especially regarding freedom of expression and privacy. However, 
China's Great Fire Wall is impressive, but clearly not impregnable, as 
technology developments also provide tools for advancing fundamental 
rights and democracy in China. With over 384 million citizens online, 
600 million mobile phone users, and between 26,000 to 30,000 Tweeters, 
all despite China's censorship regime, China is a prime target country 
for developing empowering potential uses for new technology, which will 
also have significant implications for the region and for the future 
security and viability of the Internet worldwide.
    For more than two decades now, HRIC has focused on supporting 
Chinese lawyers, activists, journalists, writers, and other rights 
defenders in China. From our China office in Hong Kong, and our U.S. 
office in New York, and with a committed staff with Chinese and 
international law, technology, and media expertise, we have also been 
developing and deploying a range of technology approaches and tools to 
promote uncensored information flow into and out of China. Using 
Internet technology that bypasses China's censorship mechanism, HRIC 
has provided and 
continues to provide an uncensored platform for Chinese voices and 
disseminates independent news, discussion, and rights-related 
electronic publications through stable mass e-mail delivery to over 
200,000 subscribers in every province and autonomous region in China.
    HRIC's electronic publications provide access to proxy servers and 
six interrelated websites offering online Chinese publications, tools 
for activists, and online advocacy resources. Analysis of e-mail 
delivery rates indicate that since a new electronic biweekly was 
launched in June 2009, an average of 74 percent of biweekly e-
newsletters reached the first Simple Mail Transfer Protocol (SMTP) 
server in mainland China. This program has enabled individuals in 
China, through the use of proxy technology and other circumvention 
tools, to have uncensored access to human rights information on the 
Internet and a space for debate and discussion. HRIC 
incorporated YouTube and Twitter into its advocacy strategy last year 
as well, launching an HRIC YouTube channel and regularly tweeting the 
latest human rights developments.
          the case of liu xiaobo: who's afraid of the internet?
    There is perhaps no better example of the Chinese government's 
anxiety underlying the official crackdown on freedom of expression on 
the Internet than the case of Liu Xiaobo, a prominent independent 
intellectual in China, long-time advocate of political reform and human 
rights in China, and outspoken critic of the Chinese communist regime.
    On Christmas Day, 2009, a court in Beijing convicted Liu Xiaobo of 
``inciting subversion of state power'' and sentenced him to 11 years in 
prison and two years of deprivation of political rights. The verdict 
cited as evidence passages from six essays Liu published online between 
2005 and 2007 and his role in drafting Charter 08, an online petition 
for democratic reform issued on December 9, 2008, which has since 
garnered more than 10,000 signatures, predominantly from Chinese in 
China. On February 9, 2010, a higher court rejected Liu's appeal and 
upheld the verdict.\5\
    Liu Xiaobo's case elucidates one of the most crucial challenges 
facing the emerging Chinese civil society: the clash of visions between 
Chinese pressing for a democratic China governed by genuine rule of 
law, and the Chinese authorities, who demonstrate time and again their 
intolerance for diverse views and their need to maintain control at all 
cost. The outcome of Liu's case has made clear the authorities' 
willingness to trample on a fundamental human right protected in the 
Chinese Constitution and enshrined in international human rights law. 
It also raises serious concerns about the prospects for the rule of 
law, human rights, and democracy in China.
    Liu's six essays cited in the verdict were the following:

        <bullet>  The CPC's Dictatorial Patriotism (posted on 
        Epochtimes.com and 5 links): Liu debunks the notion 
        successfully purveyed by the CPC that the ruling party is the 
        Chinese nation itself, a fallacious concept that has enabled it 
        to maintain absolute rule over the people.
        <bullet>  The Many Aspects of CPC Dictatorship (512 clicks; 
        posted on observechina.net; secretchina.com): Liu describes the 
        post-Mao regime--unlike that during the era of ``Maoist 
        totalitarianism''--as more skillful in using ``pragmatic, 
        .exible control methods'' to maintain stability. Liu warns that 
        ``[t]he loyalty bought by the promise of a comfortable life has 
        a soul that is rotten to the core,'' and that the system is 
        ultimately unsustainable.
        <bullet>  Can It be that the Chinese People Deserve Only 
        ``Party-Led Democracy? '' (402 clicks; posted on 
        epochtimes.com; observechina.net): Liu points out that the 
        Chinese people--having been conditioned historically to view 
        any benevolent policy as mercy granted by their ruler--are in 
        fact complicit in their own oppression. Rather than waiting for 
        the arrival of a ``virtuous master,'' they must, Liu maintains, 
        place their hope in the ``continuous expansion of the ?`new 
        power' among the people.''
        <bullet>  Changing the Regime by Changing Society (748 clicks; 
        posted on epochtimes.com; observechina.net): Liu explores how a 
        continuously growing civil society is the key to China's 
        gradual, bottom-up transformation into a free society.
        <bullet>  The Negative Effects of the Rise of Dictatorship on 
        World Democratization (57 clicks; posted on observechina.net; 
        secretchina.com): Liu discusses China's use of ``money 
        diplomacy'' to degrade world civilization, and the necessity of 
        helping the world's largest dictatorship transform into a free 
        and democratic country with direct consequences for global 
        democratization.
        <bullet>  Further Questions About Child Slavery in China's 
        Kilns (488 clicks; posted on minzhuzhongguo.org; 
        renyurenquan.org): Liu examines the extreme government 
        corruption and lack of accountability that have enabled 
        thousands of children to be kidnapped and used as slaves in 
        kiln factories.

    The verdict also cited Charter 08 (5154 clicks; posted on 
chinesepen.org, boxun.org, minzhuzhongguo.org).
    Liu Xiaobo was a principal drafter of Charter 08, an appeal for 
fundamental political transformation and for the implementation of key 
foundational principles--
freedom, human rights, and equality, among others. The document also 
lists 19 
essential features of a new, democratic government, including 
legislative democracy, judicial independence, urban-rural equality, 
freedom of association, assembly, expression and religion, social 
security, and transitional justice.
    In their argument at trial, Liu's defense lawyers pointed out that 
the articles and Charter 08 were posted on websites based outside 
China, not accessible by people inside China. However, the court's 
verdict provided the total number of clicks, as of December 23, 2009, 
on the articles and Charter 08 as 7,361 (with the clicks on specific 
items ranging from a low of 57 to a high of 5,154). Even if all the 
clicks were made by Chinese citizens inside China, and even if each 
click represents a different visitor, the total number of people is an 
infinitesimally small portion of China's population of 1.3 billion.
    If 7,361 people reading these documents can, in the view of the 
Chinese authorities, pose such a grave threat, whatever that reveals 
about the sense of security among those in power, Liu Xiaobo's case is 
also a testament to the power and necessity of freedom of expression.
    In addition to the high-profile case of Liu Xiaobo, there are 
countless other examples of China's use of the crime of ``incitement to 
subvert state power'' to punish expression on the Internet. Scholars, 
journalists, artists, lawyers, and rights activists have all found 
themselves prosecuted for ``incitement to subvert state power,'' for 
doing nothing more than exercising their rights to freedom of 
expression and opinion online. As a consequence of using the Internet 
as a platform to speak out on such important issues as democratic 
reform, laborers' rights, state confiscation of lands, earthquake 
victims' rights, and government corruption, these individuals have been 
sentenced to draconian prison terms, some lasting more than a decade. 
In 2009, HRIC issued press releases on at least 12 individuals who had 
come under official scrutiny for their activities on the Internet.\6\
                   looking ahead and recommendations
    In the fall of 2012, the Communist Party of China (CPC) will hold 
the 18th National People's Congress. Due to term restrictions, Hu 
Jintao, the current President of the People's Republic of China, will 
be required to step down as the party's General Secretary at that time. 
The 18th National People's Congress will therefore be the first time in 
the CPC's history that a meeting to redistribute power will be held 
without a political strongman casting his shadow over it. It will 
decide on the dominant power in China's politics for the following five 
to ten years.\7\
    The political contest surrounding the 18th National People's 
Congress is already having a clear effect on the current political 
situation in China. The pattern in the past has been that during the 
process of power transition within the CPC, various factions exhibit 
exceptional toughness in order to demonstrate their ideological 
orthodoxy and thus gain the upper hand in the power struggle. The 
comprehensive tightening of social controls by Chinese authorities 
since last year and their recent tough attitude in dealing with a 
series of both domestic and foreign events is a manifestation of this 
effect. One should not expect there to be any relaxation of this 
posture before the 18th National People's Congress convenes in 2012.
    While the political climate for the next few years may not be 
encouraging, there are still concrete actions that the U.S. government 
and the private sector can take.

        <bullet>  Individual cases: In line with the U.S. government's 
        renewed engagement with the UN Human Rights Council, the United 
        States can press for releases of individuals as part of China's 
        compliance with decisions of independent UN human rights 
        mechanisms such as the Working Group on Arbitrary Detention, 
        which has issued decisions on cases such as those of Shi Tao 
        and Jin Haike.\8\
        <bullet>  Promoting empowering uses of technology: The past 
        decades of rapid-paced technology developments in China 
        demonstrate that there is no one silver bullet for a 
        sustainable solution to protect freedom of expression and 
        advance open, safe, and secure access to information, both of 
        which are critical to development of a democratic and open 
        society and a rule of law. Effective technology solutions must 
        be informed by human needs and deployed using approaches that 
        are sensitive to local culture, politics, and human rights 
        history and traumas.

    Some specific areas in which the CECC could encourage greater 
support and development through various existing and expanded U.S. 
government programs and initiatives include:

                --Expanding support for uncensored multimedia platforms 
                for Chinese voices and independent news, discussion, 
                and rights-related information, including through 
                creative use of social networking tools and YouTube.
                --Development and safe dissemination of circumvention 
                tools beyond the small group of sophisticated netizens 
                already able to use these tools.
                --Capacity-building initiatives that more effectively 
                use interactive web-based conference tools to allow a 
                greater range of targeted participants that avoid the 
                expense, travel restrictions, and other political 
                limitations of on-site events.

        <bullet>  Promote diverse, concrete solutions and approaches 
        for doing business responsibly in China,\9\ including multi-
        stakeholder initiatives, e.g., encouraging companies to join 
        and help develop the Global Network Initiative. The February 
        2010 letter from Senator Richard Durbin to 30 technology 
        companies asking them to join the Global Network Initiative and 
        seeking more information about their business practices in 
        China is one welcome step. In light of the global nature of the 
        challenges, the U.S. should also explore joint initiatives with 
        other governments.

    The Google decision announced this week also illustrates the 
possibility of moving strategically beyond an either/or mentality of 
stay-and-censor or leave-the-country. By making its most recent move to 
redirect users from Google.cn to Google.com.hk, and by creating an 
additional website clearly and regularly updating the status of the 
Chinese government's interference, Google has contributed to increasing 
the transparency of and possible accountability for Chinese censorship. 
Although it's not clear whether this one-country, two systems move will 
evade the censorship system, at the very least, Google has taken a 
stand that it will no longer be complicit in Chinese government 
violation of human rights.
    The human rights and business issues and challenges are complex, 
and as Google co-founder Sergey Brin stated, ``The story's not over 
yet.''
    Thank you and I look forward to your questions.

    ----------------

    \1\ For more detailed discussion on cyber-espionage, see Ron 
Deibert and Rafal Rohozinski, ``Tracking GhostNet: Investigating a 
Cyber Espionage Network,'' Information Warfare Monitor, Munk Centre, 
JR02-2009, March 29, 2009, http://www.scribd.com/doc/13731776/Tracking-
GhostNet-Investigating-a-Cyber-Espionage-Network.
    \2\ See U.S. Congressional-Executive Commission on China, 2009 
Annual Report, available at http://www.cecc.gov/pages/annualRpt/
annualRpt09/CECCannRpt2009.pdf; U.S. Department of State, 2009 Human 
Rights Report: China (includes Tibet, Hong Kong, and Macau), available 
at http://www.state.gov/g/drl/rls/hrrpt/2009/eap/135989.htm; United 
Nations Committee Against Torture, ``Concluding observations of the 
Committee against Torture: China,'' UN Doc. CAT/C/CHN/CO/4, December 
12, 2008, available at http://www2.ohchr.org/english/bodies/cat/
cats41.htm; United Nations Committee on the Elimination of Racial 
Discrimination, ``Concluding Observations of the Committee on the 
Elimination of Racial Discrimination: China,'' UN Doc. CERD/C/CHN/CO/
10-13, August 28, 2009, available at http://www2.ohchr.org/english/
bodies/cerd/cerds75.htm. See also HRIC's recent parallel reports to UN 
bodies: Human Rights in China, Implementation of the Convention on the 
Elimination of All Forms of Racial Discrimination in the People's 
Republic of China: A Parallel NGO Report by Human Rights in China, June 
2009, http://www.hrichina.org/public/PDFs/Reports/2009-CERD--
Report.pdf; Human Rights in China, Implementation of the Convention 
Against Torture and Other Cruel, Inhuman or Degrading Treatment or 
Punishment in the People's Republic of China: A Parallel NGO Report by 
Human Rights in China, October 2008, http://hrichina.org/public/PDFs/
Submissions/HRIC-CAT-2008-FINAL.pdf; Human Rights in China, 
Implementation and Protection of Human Rights in the People's Republic 
of China: A Parallel NGO Report by Human Rights in China, September 
2008, http://hrichina.org/public/PDFs/Submissions/2008--HRIC--UPR--
Report.pdf (submitted to the UN Human Rights Council in advance of 
China's 2009 Universal Periodic Review).
    \3\ For more detailed discussion on the Chinese government's tools 
for suppressing information access and exchange, see Ronald Deibert, 
China's Cyberspace Control Strategy: An Overview and Consideration of 
Issues for Canadian Policy, February 2010, available at http://
www.canadianinternationalcouncil.org; James Fallows, ``The Connection 
Has Been Reset,'' The Atlantic Monthly, March 2008, http://
www.theatlantic.com/magazine/archive/2008/03/-ldquothe-connection-has-
been-reset-rdquo/6650/; Andrew Lih, ``In Brief: Google's China Move,'' 
Andrew Lih Blog, posted on March 23, 2010, http://www.andrewlih.com/
blog/2010/03/23/in-brief-googles-china-move/; and Rebecca MacKinnon, 
``China, the Internet and Google,'' Rconversation Blog, posted on March 
23, 2010, http://rconversation.blogs.com/rconversation/2010/03/china-
the-internet-and-google.html.
    \4\ For instance, Article 19 of the Universal Declaration of Human 
Rights (UDHR) states that ``[e]veryone has the right to freedom of 
opinion and expression; this right includes freedom to hold opinions 
without interference and to seek, receive and impart information and 
ideas through any media and regardless of frontiers,'' while under 
Article 12, ``[n]o one shall be subjected to arbitrary interference 
with his privacy, family, home or correspondence, nor to attacks upon 
his honour and reputation. Everyone has the right to the protection of 
the law against such interference or attacks.'' UDHR, G.A. res. 217A 
(III), U.N. Doc A/810 at 71 (1948).
    \5\ Complete English translations of the criminal verdict of the 
Beijing No. 1 Intermediate People's Court and the decision of the 
Beijing Municipal High People's Court against Liu Xiaobo have been made 
available by HRIC in its quarterly publication China Rights Forum, 
2010, no. 1, and will soon be made available at http://
www.hrichina.org/public/contents/category?cid=1043. In addition, 
English translations of the six articles by Liu Xiaobo that formed the 
basis of his criminal conviction have been made available by HRIC in 
the same issue of China Rights Forum; a complete English translation of 
Charter 08 has been made available by HRIC at http://www.hrichina.org/
public/contents/85717.
    \6\ For more information on these and other individuals, see HRIC's 
press releases and statements at http://www.hrichina.org/public/
contents/category?cid=1052.
    \7\ Presently, two factions within the party, known as the 
Princeling Faction and the Youth League Faction, are engaged in an 
intense power struggle. The Princeling Faction has currently seized 
favorable geopolitical and socioeconomic conditions to gain the upper 
hand. Their representative, Xi Jinping, is preparing to take over the 
duties of General Secretary of the CPC from Hu Jintao. Meanwhile, Li 
Keqiang, the representative of the Youth League Faction, is preparing 
to take over from Wen Jiabao as the Premier of the State Council. 
However, much can happen between today and the fall of 2012, and what 
will happen in the end is still uncertain.
    \8\ Since May 2002, HRIC has submitted 60 individual cases to the 
WGAD with 17 opinions issued by the WGAD. The conclusion of each and 
every one of these opinions is that the detention in question is 
arbitrary, meaning that individuals were being detained for exercising 
fundamental freedoms or that the circumstances of their detentions 
violated international standards and norms. The U.S. government should 
urge action on the part of the Chinese government in these and other 
cases of arbitrary detention of courageous activists and individuals. 
By releasing these individuals, China will demonstrate its respect for 
international human rights and its compliance with the decisions of 
international human bodies.
    \9\ See Human Rights in China, ``Human Rights: Everyone's 
Business,'' China Rights Forum, 2008, no. 1, http://www.hrichina.org/
public/contents/category?cid=164873.
                                 ______
                                 

                   Prepared Statement of Edward Black

                             march 24, 2010
    Good afternoon. We appreciate the efforts of this Commission and 
especially Chairmen Dorgan and Levin to address the issue of Internet 
freedom, and I thank you for the opportunity to testify today. It is an 
issue that will impact the shape of the world we will live in, 
especially with regard to trade, privacy and human rights. For too long 
the U.S. business community has had insufficient support from the U.S. 
Government in responding to other nations' efforts to censor or spy on 
their citizens, and to interfere with the reasonable flow of services, 
products, and information. Companies are on the front lines in the 
battle for Internet freedom, but when they are confronted with foreign 
government demands, the governments that represent these companies must 
lead in the defense of Internet freedom and free trade principles.
    While I now represent a wide variety of technology and 
communication companies, I was honored to served in the State and 
Commerce Departments under five Secretaries in the 1970's, and early 
80's, where I worked on East-West trade and was actively involved in 
the approval of the first U.S./China trade agreement. I later chaired 
and still serve on the State Department's Advisory Committee on 
International Communication and Information Policy. The interconnection 
between trade and human rights, including freedom of expression, is an 
issue I have seen from various vantage points and have cared deeply 
about throughout my career.
    Our nation founded the Internet. Since that time, our government, 
and those who are committed to freedom and democracy, should have been 
out there creating and promoting visionary multilateral understandings 
designed to maximize freedom on the Internet. We are still at an 
historic crossroads, and we need to seize the opportunity to ensure the 
Internet lives up to its potential to spread knowledge, awareness, and 
expand human potential. If we do not lead, we can expect other 
governments to stifle or distort that potential.
    Over the past decade the Internet has grown into the most efficient 
tool to communicate, exchange information, spark innovation and extend 
opportunity to many millions around the world. The Internet platform 
provides a level playing field for anyone to access information, and it 
gives disadvantaged people and underrepresented and oppressed groups 
around the world new opportunities to participate in economic, social, 
cultural and political activity.
    Access to the Internet--and the ability to fully use it for 
communication, commerce, and exchanging information--is more than just 
a First Amendment issue in this country. The United Nations recognizes 
freedom of expression as a right. Internet freedom is nothing less than 
freedom of expression in the 21st century. It must become a top-tier 
human rights, foreign policy and trade issue.
    Freedom and openness are the essence of the Internet, which is what 
makes it such a powerful communications tool. Totalitarian regimes have 
depended on tightly controlling the flow of information, both 
domestically and from the outside world, and they have been 
increasingly restricting the Internet to maintain their control of 
information. It is a natural temptation for any government to want to 
achieve its goals by all means possible. This makes the Internet a 
tempting target to turn into a tool of state control. But we must 
protect Internet openness not just from those who want to use it for 
repression, but also from the many seemingly noble, well-meaning 
efforts to control specific content or monitor Internet traffic.
    Direct challenges to the openness and freedom of the Internet are 
serious and dangerous. In the long run, though, we may find an equally 
great threat to Internet freedom will come not from direct attacks, 
which strike a fatal blow, but from a chipping away of openness--a 
death by a thousand cuts. This happens as every seemingly well-
intentioned effort to remedy a societal problem wins an exception to 
openness. Repressive regimes use that same technology, and rationale, 
to filter the Internet or spy for reasons our nation does not support. 
Our best response to this is for countries who support freedom of 
expression, non-governmental organizations and consortia like the 
Global Network Initiative (GNI) to work together to adopt a common 
ethic of principles for Internet freedom, and to build on that support 
in whatever form and by whatever means are possible.
    My testimony explains that: (a) Internet censorship is a human 
rights issue and a trade issue; and (b) Internet freedom is a principle 
that countries purporting to espouse democracy and the welfare of their 
citizens should practice and protect. Internet freedom must be advanced 
through leading by example here at home and using negotiations, human 
rights reports and trade agreements to build international support for 
Internet freedom principles so as to make outliers of countries that 
seek to isolate their citizens and use the Internet for censorship, 
spying and repression.
                   censorship is a human rights issue
    The Internet can be the greatest tool in history for people to 
gather information, communicate and provide a more open, transparent 
relationship between government and its citizens. Or, the Internet can 
be among the greatest tools for political repression--depending on how 
it is used. If we fail to take action, others may pervert the Internet 
and finally bring about the Orwellian future we thought we had avoided, 
one in which governments perpetually spy, surveil, censor and control--
and say they are doing it for our own good.
    We fail the citizens of China, Vietnam, Iran and many other 
Internet-Restricting Countries when we fail to note their governments' 
censorship\1\ and website blocking in human rights reports. For 
example, in the 2007 Country Reports on Human Rights issued by the 
State Department, China was upgraded on its human rights issues--
despite the apparent increase that year in censorship and surveillance 
on the Internet.
---------------------------------------------------------------------------
    \1\ While the policy discussion around Internet-restricting 
countries often refers to "censorship", there are in fact a variety of 
practices at issue. When we casually refer to Internet censorship, we 
must recognize that this includes restrictions such as filtering, 
blocking, and delaying; state-imposed penalties for posting 
``wrongthink'' online; as well as the self-censorship induced by 
perpetual state surveillance.
---------------------------------------------------------------------------
    To respond to government crackdowns on protesters while looking 
away when a government cracks down on access to the open Internet sends 
a signal that we are not serious about Internet freedom. The U.S. 
Government must consistently treat Internet freedom as a human rights 
issue in its dealings and communications with foreign governments.
    The need for countries that support freedom of expression to use 
trade and diplomatic means to exert pressure on Internet censorship is 
only increasing. Every week we fail to take strong action seems to be 
viewed as a green light by Internet Restricting Countries like China to 
further curtail Internet freedom. Last month, China announced new trial 
restrictions on Internet websites. According to the Associated Press, 
anyone wanting to start a website in China must now submit identity 
cards, photos of themselves and meet with Chinese regulators and 
service provides before they can register their website. The Chinese 
government claims this will reduce pornography, but it will clearly 
also crack down on anyone disagreeing with the government online.
    We're here today partly because of the high profile battle of a 
major technology company in China. But the number of companies and 
countries impacted are far greater. There are few easy answers for 
companies as they try to bring their technology services and 
communications tools into nations that have different rules about free 
speech and freedom of expression. Without the backing of their own 
government, companies often are faced with the unappealing decision to 
follow local laws or else exit the market. Staying and engaging can in 
some cases offer choices to citizens in a repressive country that they 
wouldn't otherwise have. What companies face varies from country to 
country. The involvement of the federal government, pushing for a 
common ethic, can help ease the complexity companies are forced to 
handle in negotiating operating deals. But the complexity and diversity 
of situations faced by companies means that rigid statutory solutions 
may cause unexpected problems and even be counterproductive.
    Ultimately countries--not companies--must battle countries on human 
rights issues. But companies are working alongside government and human 
rights groups to support Internet freedom. The Global Network 
Initiative (GNI) is a collaborative project begun in 2008 in which a 
handful of American companies, including Microsoft, Google and Yahoo!, 
participate with international human rights organizations and academics 
to find productive pathways forward in the quest for Internet freedom 
and unimpeded commercial market access, being careful not to jeopardize 

employees or other citizens in Internet Restricting Countries. Key 
Members of Congress, including Senator Richard Durbin (D-IL) and Rep. 
Chris Smith (R-NJ), have expressed strong support for GNI and Secretary 
Clinton did so as well in a major policy address in January. Congress 
and the Administration should encourage broader participation in the 
GNI by a wider range of U.S. companies, foreign nations and foreign and 
multinational corporations.
    I have seen China make extraordinary strides through economic 
engagement with the outside world to the point where it is now one of 
the most influential economies in the world. However, while a policy of 
engagement may be a necessary condition for increased freedom, it is 
not in and of itself sufficient to create freedom. As U.S. companies 
face pressure from the Chinese government in the course of their 
business activities in China, support from their own government is 
needed to ensure that they are not taken advantage of, and that China 
understands that access to its markets is not a coin that enables them 
to buy their way out of respecting human rights and freedom. Countries 
that have supported China's growth as a world player in the belief that 
its economic growth would lead to its becoming a ``responsible 
stakeholder'' need to take a stand when China's unreasonable demands on 
issues like Internet censorship prove inconsistent with such 
responsibility.
                      censorship is a trade issue
    The United States is an information economy, and U.S. companies are 
leading vendors of information products and services. In this context, 
information discrimination by other countries fundamentally undermines 
U.S. economic interests, including the interests of U.S. companies 
seeking to access foreign markets, including those engaged in 
electronic commerce. Filtering American content and services has the 
effect of filtering American competition, and combating it should top 
our trade agenda.
    The development of the Internet has led to a revolution in the way 
we conduct international commerce and trade. The success of e-commerce 
depends on users feeling comfortable and secure enough to utilize the 
services our industry provides. That comfort and security can only 
exist in an environment of Internet freedom. When a foreign government 
stifles online freedom or otherwise restricts the Internet, it creates 
a hostile market environment by preventing its consumers from fully 
using new products, applications and services offered by or through 
U.S. tech companies.
    Government restrictions on the Internet affect trade in a variety 
of ways, including as follows:

        <bullet>  Information discrimination represents a classic 
        ``non-tariff trade barrier'' (NTB) that U.S. trade policy 
        should dismantle. By attempting to co-opt U.S. businesses into 
        content filtering, offenders create barriers to market entry 
        that would not otherwise exist.
        <bullet>  Information discrimination constitutes an unfair 
        ``rule of origin'' by filtering out (through a nontransparent 
        process) U.S.-originating content such as certain U.S. domains 
        deemed to be ``subversive.''
        <bullet>  Information discrimination also violates the 
        fundamental free trade principle of ``national treatment'' to 
        U.S. services and service providers. This provides a leg up to 
        foreign competitors of U.S. companies, thus allowing U.S. 
        companies to be perceived as being coerced into lowering their 
        corporate moral standards and leading to negative public 
        reaction and even penalties at home.
        <bullet>  The WTO requires transparency and access to judicial 
        or administrative review for measures affecting trade in 
        services. Foreign governments, however, regularly restrict the 
        Internet without transparency and accountability.
        <bullet>  When a country blocks access to a U.S. search engine 
        or website, the advertising on those sites is also being 
        blocked, and trade in the products and services advertised are 
        interfered with. This could particularly impact small 
        businesses that rely on U.S. websites to reach international 
        markets.

    If foreign governments push U.S. tech companies out of their 
domestic market, small businesses that rely on these sites to advertise 
or directly sell goods would be forced to do business instead with 
those nations' domestic companies that offer similar services that 
compete with U.S. companies. Indeed, the unreasonable demands the 
Chinese government has continuously placed on U.S. companies--from 
censorship coercion to Green Dam to Indigenous Innovation--all seem to 
have the added objective of clearing the competitive deck of foreign 
companies.
    A special note with respect to China: the Chinese government has 
been pursuing various ``indigenous innovation'' policies aimed at 
controlling technology development and promoting local technology 
companies. These technology policies extend to the Internet space as 
well, where Chinese government has been making it difficult for foreign 
companies to compete and favoring local companies. China's Indigenous 
Innovation procurement requirement requires Chinese government agencies 
to purchase only products for which intellectual property was developed 
and owned in China. Both Indigenous Innovation and Internet censorship 
are policies that set the price of access to the Chinese market at an 
unacceptable level of submissiveness.
    The European Union was laudably quick to take the first step to 
recognize and respond to the issue of Internet freedom as a trade 
issue. In 2007, the European Parliament overwhelmingly passed a 
proposal to treat Internet censorship as a trade barrier by a vote of 
571-38. Hopefully, the European Commission will soon take the necessary 
further action to implement this policy.
                first steps to promote internet freedom
    Having neglected to devote appropriate attention to foreign 
governments' restrictions of Internet content and services, we now have 
considerable work before us. This is where we should begin:

        <bullet>  The U.S. Government should investigate cases of 
        Internet censorship and
        <bullet>  The United States Trade Representative (USTR), the 
        State Department and Commerce Department should raise issues of 
        Internet restrictions and combat them using the means of their 
        respective offices. Secretary Clinton's major policy speech is 
        an especially noteworthy and commendable beginning. We 
        appreciate actions like the letter the USTR issued in June 
        after China announced all personal computers sold as of July 1 
        must have the Green Dam Internet filtering software. But our 
        nation has historically missed opportunities to use our 
        existing trade agreements or even reports as leverage in 
        constraining Internet restrictions, censorship, and 
        surveillance.
        <bullet>  USTR should highlight Internet censorship policies in 
        trade reports. In 2006, the USTR issued a report that was 
        billed as a top to bottom review of U.S.-China trade relations. 
        The report discussed simple infringement of intellectual 
        property, yet did not even mention Internet censorship 
        policies. In U.S. Government trade reports, more attention 
        needs to be paid to Internet restrictions taken in the name of 
        censorship. Every year, the USTR conducts the Special 301 
        review, in which we assess our trade relationships with an eye 
        toward intellectual property protection. Do principles of free 
        expression deserve any less protection? If we are willing to 
        make adequate protection for copyrighted movies a litmus test 
        for our trade relations, how can Internet freedom be worthy of 
        any less?
        <bullet>  In its annual reports on trade barriers, the USTR 
        should review foreign 
        government restrictions on the Internet--taken in the name of 
        censorship or otherwise--and take appropriate action. If it is 
        found that censorship and surveillance impairs U.S. business 
        interests, we should reassess and adjust our trade 
        relationships accordingly.
        <bullet>  Ultimately, the U.S. Government should negotiate 
        provisions that promote Internet commerce, openness and freedom 
        in trade and other agreements.
        <bullet>  The U.S. Government should use existing trade 
        agreements wherever appropriate to address Internet 
        restrictions.
        <bullet>  The State Department should actively support GNI. It 
        already lends financial support to censorship technology 
        circumvention projects in Internet Restricting Countries. By 
        encouraging broader American corporate responsibility and 
        participation in GNI, and by seeking the participation of our 
        allies abroad such as the European Union, Congress and the 
        State Department could boost GNI's visibility and effectiveness 
        worldwide.
        <bullet>  The potential effectiveness of treating and 
        contesting Internet censorship as a trade barrier lies in the 
        fact that there is a global rules-based system on trade that 
        nations are obligated to follow. A multilateral rules-based 
        approach may create the necessary leverage to make Internet 
        Restricting Countries respect the economic significance of 
        restricting Internet freedom.
                    internet freedom begins at home
    In addition to using existing trade agreements and human rights 
monitoring to combat Internet censorship and spying, the United States 
must lead by example when in comes to Internet freedom and openness by 
being a model:
    We should look at policies enacted by Congress or various 
government agencies to see if they grow Internet access and increase 
competition among Internet Access Providers. The competition will help 
when dealing with another threat to the open Internet--legal or policy 
changes that allow network level discrimination among end users and 
messages on the Internet.
    We should discourage censorship and surveillance ourselves, 
restrict intrusive practices such as deep packet inspection and think 
twice before attempting to block content perceived to be unsavory. Once 
openness erodes, it's hard to get it back.
    We must lead by example. While it is tempting to assume warrantless 
monitoring of telephone calls, burdensome search engine subpoenas, and 
regulatory power grabs are not to be equated with the systematic 
oppression in authoritarian states, these distinctions are hard to make 
to the rest of the world. To say that our government coerces Internet 
companies for noble causes while others do so to repress is missing the 
point: quibbling about the order of magnitude of civilian monitoring 
will undermine the bold leadership that is necessary to backstop U.S. 
Internet companies when they are facing down the Thought Police around 
the world. If our government leads the fight for Internet freedom--by 
example at home and by negotiations around the world--it will provide 
invaluable political support to U.S. companies trying to honestly and 
ethically compete in challenging markets.
                               conclusion
    If the U.S. Government and others who value liberty, do not push 
Internet freedom to the top of the priority list now, they will be 
failing the future. We are now faced with a ``dangerous opportunity.'' 
China's policy of coerced censorship has now become a matter of global 
public concern. The U.S. Government should take advantage of this 
moment by pushing for substantive policies that would not only support 
U.S. businesses resisting Internet oppression, but would also ensure 
that no company is left to combat a foreign government's Internet 
repression on its own. If the U.S. Government does not take meaningful 
action, foreign governments will conclude that they are free to pick 
off individual companies and intimidate them into submission.
    Nations that support human freedom, dignity, and democracy should 
ensure Internet freedom starts at home and set standards by adopting 
policies that support a free open Internet. If the Internet is to 
fulfill its potential as the printing press of the Digital Age, neither 
a government nor an Internet access provider should act as a 
gatekeeper, quashing access and content at their whim. At the end of 
the day, companies can't fight repressive regimes alone on Internet 
freedom. They need government to lead.
    Oppressive foreign governments may not easily change their ways but 
they need to be made to understand the depth of U.S. and international 
commitment to Internet openness and freedom. We need to elevate this 
issue to the top of our diplomatic and trade agenda. Finally, we must 
be consistent with our own Internet freedom policies and fight for 
Internet freedom as a common principle so that other nations understand 
our commitment to curbing censorship of the Internet and threats to 
Internet freedom in whatever form they manifest.
                                 ______
                                 

                   Prepared Statement of Mark Palmer

                             march 24, 2010
    As the father of modern China, Sun Yat-sen once noted: ``Worldwide 
trends are enormous and powerful; those who follow them prosper, and 
those who resist them perish.'' The Internet is the most powerful force 
for progress in our lifetimes. The fact that more than 400 million 
Chinese already are online testifies to its enormous importance for 
China.
    At a time when Freedom House, the State Department and others have 
documented increasing censorship of the Internet, and an overall 
decline of human rights in China and across the globe, it is easy to 
become pessimistic about the Internet's prospects. But I believe we 
need to look more deeply at recent history, at what the Chinese people 
themselves want, at what we can do to respond to their aspirations and 
at what the State Department for three years has refused to do.
    The single most strategic failure of our best minds in the 
intelligence, journalist and academic communities over the past half 
century has been their failure to anticipate, indeed even allow for, 
peaceful democratic revolution. And yet some 60 such revolutions have 
occurred in countries as divergent as Indonesia, the Philippines, South 
Africa, Chile, and Ukraine.
    We have neither understood what is going on in the minds of elites 
beneath the closed surface of dictatorships nor the power of students, 
women and others once they organize. We now know from his secretly 
tape-recorded, recently published memoir, that Zhao Ziyang, the General 
Secretary of the Communist Party of China, ultimately concluded that 
for China's economic success to continue it must be accompanied by a 
modern political system with a free press, multiple party elections and 
an independent judiciary. His predecessor as General Secretary of the 
Communist Party Hu Yaobang was sacked for heading in the same 
direction.
    Over 11,000 of the most influential thinkers in China have signed 
in their own names Charter 08 which explicitly calls for all human 
rights to be respected and an ``end to the practice of viewing words as 
crimes.''
    I emphasize elite thinking because of my own experience over 40 
years of living in and working on European communist countries. While 
we caught glimpses of their views and debates when they were still in 
power, I participated in President Reagan's first meetings with General 
Secretary Gorbachev and was close to the last communist leaders of 
Hungary, we now understand from numerous documents and interviews how 
deeply troubled senior and mid-level party officials were with their 
situations and how often just one man at the top or a small group of 
elders or security officials held back democratic openings. And I have 
seen with my own eyes the Iron Curtain coming down across Europe--
something conventional wisdom thought was impossible.
    Beyond elites, in China today it is quite extraordinary how many 
public protests take place every day and across the country, some 
90,000 a year according to official statistics. The support for 
Google's splendid determination to resist censorship of the Internet 
speaks volumes about the desire of hundreds of millions to enjoy the 
same access and rights as their colleagues in Taiwan and across the 
developed world.
    While Hu Jintao boasts about his own use of the Internet, he also 
has called for it to be ``purified'' and said ``Whether we can cope 
with the Internet is a matter that affects . . . the stability of the 
state.'' By which he means the stability of the one-party state. He is 
keenly aware that both elite and popular opinion, if allowed free rein 
on the Internet, will bring about the fall of communist dictatorship.
    This fear of the Internet, of his own people and elites, has led Hu 
Jintao to unleash a truly massive program to control and censor the 
Internet. What can we do to ensure that the Chinese people circumvent 
these controls, to bring the Great Firewall down and not only in China 
but Iran and other increasingly repressive countries as well?
    Some of the students who were present on Tiananmen Square during 
the 1989 massacre came to the United States and earned doctoral degrees 
in computer sciences from leading American universities. They realized 
the enormous popularity and potential of the Internet in China and were 
urged by Chinese still in China to find ways to use their computer 
engineering skills to combat growing censorship and growing overall 
violations of human rights.
    Beginning in 2000 they have developed a system of software and 
servers, which over the past decade has grown to be the world's largest 
circumvention system, providing for roughly 90 percent of anti-
censorship traffic in China and worldwide. About a million Chinese and 
hundreds of thousands of Iranians are frequent users of this system. It 
works through the distribution of encrypted, secure, free software and 
by constantly switching IP addresses, up to 10,000 times per hour, on 
dedicated servers located across the world. They have built and staffed 
this system with volunteer labor and virtually no financial support 
from others.
    The major limitation on this Global Internet Freedom Consortium's 
(GIF) ability to serve even much larger numbers of users and to bring 
down the Firewall altogether is money. They have had to make hard 
choices between serving a surge in Iranian users last summer and fall 
and reducing their availability to Chinese users as their servers were 
crashing. GIF needs to buy many more servers and finally to support 
full-time staff. Competing with and staying ahead of over 50,000 
heavily financed engineers and censors in China requires a dedicated 
and properly financed team. We spend $800 million annually on ``old 
media'' like VOA and RFA and an additional $1.7 billion on democracy 
support. Surely we can and should spend $50 to $100 million per year on 
a system or systems to circumvent Internet censorship and bring down 
this firewall.
    Realizing the enormous success of this Global Internet Freedom 
Consortium and its potential, a bipartisan group of Senators and 
Congressmen appropriated $15 
million in 2008 to begin to scale up this system and any others which 
could demonstrate proven ability to circumvent Internet censorship in 
China, Iran and elsewhere. And in 2010 another $30 million was 
appropriated.
    In my 26 years within the State Department and 20 years outside 
working on democracy and human rights, I have never been more convinced 
of the power of any innovation to help those still living in one of the 
world's 43 remaining dictatorships, half of them Chinese, to liberate 
themselves.
    I also have never been more appalled at the State Department's 
refusal to do what is so clearly in the national interest of the United 
States. In flagrant and now repeated violation of Congressional 
legislation, the State Department has refused to use the appropriated 
funds to scale up an existing, successful circumvention system. State 
Department staff-level officials have made a mockery first of Secretary 
Rice's and now Secretary Clinton's frequently voiced and sincere 
commitments to help ensure freedom of the Internet.
    Let us take just one dimension of American national interest. There 
is a profoundly false understanding of the Google-China issue--as if 
Google must lose its China market because it no longer accepts 
Google.cn censorship. If the United States acts in the manner we seek, 
and people in China can access Google.com, sell Baidu stock short. And 
watch Google pick up support from Iran, Syria, and elsewhere. Google's 
in a fight and a martyred defeat will not help the cause. It too should 
be pressing the State Department and working with GIF. If it does so, 
its franchise throughout the world will be enhanced by orders of 
magnitude for being not merely a wounded victim but the provider of 
enhanced closed society access to the Internet.
    Fortunately key members of Congress are determined that the State 
Department finally does the right thing. Senators Brownback, Casey, 
Kaufman, Kyl, and Specter, three Democrats and two Republicans, wrote 
to Secretary Clinton on January 20, 2010. After expressing concern that 
the State Department's use of the FY08 funds ``did not materially 
enhance Internet access,'' they stressed that ``the FY10 Consolidated 
Appropriations Act requires as a matter of law that the Internet 
Freedom funds be awarded applicants who currently and demonstrably are 
able to expand Internet access to large numbers of users living in 
closed societies that have acutely hostile Internet environments. The 
intent of this language is clear: funds should facilitate immediate and 
order-of-magnitude scale-ups of proven, field-tested protocols that 
facilitate access to the Internet by pro-democracy demonstrators in 
Iran, China, and elsewhere.''
    To get the State Department's attention, two weeks ago Senator 
Brownback put a hold on the confirmation of four ambassadorial and 
assistant secretary nominations. At a press conference on March 18, the 
Senator citing renewed State Department interest removed these holds. 
But he stressed ``the objective is clear, and delay is the chief 
ingredient of the problem. The funds must be rapidly dispersed to 
groups that possess the current capability of immediately opening 
access to the Internet for millions of new users. One such group is the 
Global Internet Freedom Consortium, which operates the Freegate 
circumvention system relied upon by millions around the world. If there 
are others that can fulfill these criteria, then the State Department 
should come forward with clear and convincing evidence and we should 
support those groups as well.''
    Senator Brownback continued ``But we must act now. If we do not 
achieve a breakthrough in the next week, I will not hesitate to place 
holds on future State Department nominations for as long as it takes to 
move the Department away from policies that will keep the firewalls in 
business for years.'' Senator Kyl also spoke at the March 18 press 
conference, affirmed that he shared Senator Brownback's assessment and 
will join in future holds.
    We strongly urge the Congressional-Executive Commission on China 
also to press the State Department to move promptly to work out an 
agreed strategy with concerned Members of Congress.
    We all agree that it is profoundly in our interest for the Chinese 
people to have direct and uncensored access to the Internet, that the 
censorship be circumvented and ultimately defeated. We have it in our 
power to achieve this goal. Further delay will be an act of moral 
cowardice and a failure of strategic vision.
                                 ______
                                 

  Prepared Statement of Hon. Byron Dorgan, a U.S. Senator From North 
     Dakota; Chairman, Congressional-Executive Commission on China

                             march 24, 2010
    The Commission convenes this hearing today to examine China's 
censorship of the Internet and the challenges it poses both to 
advocates of free expression and to U.S. companies doing business in 
China. The recent controversy over Google's operations makes clear that 
the Chinese government's regulation of the Internet is both a human 
rights and trade issue.
    In the spring of 2000, Congress debated whether to support PNTR for 
China. Supporters argued that opening China's markets would improve 
human rights and level the playing field for U.S. companies. The 
Internet was expected to lead the way, and it has brought some 
important changes. Today, China has 400 million Internet users, the 
most in the world. Chinese citizens now have opportunities to shop 
online, and communicate with one another and the outside world. And, 
the Chinese government, to its credit, has invested heavily in Internet 
infrastructure and sought to bridge the digital divide between rich and 
poor.
    Yet, the larger hopes for genuine openness and freedom have gone 
unrealized. China's Internet users remain subject to the arbitrary 
dictates of state censorship. More than a dozen agencies are involved 
in implementing a host of laws, regulations, and other tools to try to 
keep information and ideas from the Chinese people.
    As Rebecca MacKinnon, a leading expert on media and information 
technology policy in China, has noted:

        China is pioneering a new kind of Internet-age 
        authoritarianism. It is demonstrating how a non-democratic 
        government can stay in power while simultaneously expanding 
        domestic Internet and mobile phone use. . . . Yet on the other 
        hand, as this Commission's 2009 Annual Report clearly outlined, 
        Communist Party control over the bureaucracy and courts has 
        strengthened over the past decade, while the regime's 
        institutional commitments to protect the universal rights and 
        freedoms of all its citizens have weakened.

    The government also continues to strengthen controls over the 
Internet and to harshly punish citizens such as Liu Xiaobo, who use the 
Internet to advocate for human rights and political reform. I have a 
list here of political prisoners in China punished in recent years for 
Internet activities. It was drawn from the Commission's publicly 
accessible, Political Prisoner Database. I ask that this list be 
included in the hearing record.
    As this list vividly shows, China's censorship practices and 
control of the Internet have had a terrible impact on human rights 
advocates. These include ordinary people who promote political freedoms 
or try to organize on line, or ethnic groups such as Tibetans 
attempting to share information about ongoing government repression. We 
also are learning that Internet censorship and regulation in China has 
serious economic implications for U.S. companies like Go Daddy and many 
others. China's Internet regulations often run against basic 
international trade principles of nondiscrimination and maintaining a 
level playing field.
    Testifying before the Commission today is a representative from 
Google, perhaps the most potent Internet company in the world. In mid-
December, Google announced that it had ``detected a highly 
sophisticated and targeted attack on its corporate infrastructure 
originating from China that resulted in the theft of intellectual 
property from Google.'' And just this week Google announced that it 
will stop censoring its Chinese search engine, by rerouting its China 
searches to its Hong Kong site. The company also said it would also 
monitor and publicize any attempts at censorship of its Hong Kong site 
by the Chinese government.
    Google's decision is a strong step in favor of freedom of 
expression and information. It is also a powerful indictment of the 
Chinese government's insistence on censorship of the Internet.
    We asked the Chinese Embassy if they would like to send a 
representative to appear before us today, and they declined. They did, 
however, send a statement, and I move now to have that statement 
included in the hearing record.
    The Commission is dedicated to understanding the connections 
between trade and human rights in China today. For that reason, we have 
called on five prominent human rights experts and American business 
leaders to discuss the impact of Internet censorship in China today. I 
look forward to hearing from the witnesses about possible ways for the 
U.S. Government, policy makers and businesses to respond to China's 
regulation of the Internet from both a human rights and trade 
perspective.
                                 ______
                                 

  Prepared Statement of Hon. Sander Levin, a U.S. Representative From 
   Michigan; Cochairman, Congressional-Executive Commission on China

                             march 24, 2010
    The purpose of this hearing today is to examine the challenges and 
hazards that the Chinese government's control of the Internet poses 
both to advocates for free expression and to American companies doing 
business in China.
    Nearly one year ago, in April 2009, the Chinese government 
published its first National Human Rights Action Plan. In this Action 
Plan, the Chinese government made specific commitments to the role of 
the Internet in promoting human rights.
    As issued by the Information Office of the State Council, the 
Action Plan states,

        In the period 2009-2010, along with the dissemination of 
        knowledge of the law among the general public, the state will 
        actively rely on . . . the media, including . . . the Internet, 
        to carry out education in human rights in various forms in a 
        planned way, popularizing and spreading knowledge of the law 
        and human rights. . . .

    The Action Plan further states the Chinese government's commitment 
during 2009-2010 to:

        (m)aking good use of the media, including . . . the Internet, 
        to disseminate the knowledge of human rights among the general 
        public and to making good use of new media, including the 
        Internet, to spread knowledge of human rights . . . .

    Finally, and very importantly, according to the Action Plan:

        The state will take effective measures to develop the press and 
        publications industry and ensure that all channels are 
        unblocked to guarantee citizens' right to be heard.

    These words could not have been clearer. Human rights and the 
Internet were linked before the Google controversy, and the Chinese 
government itself linked them. This only underlines the importance of 
this hearing, and means that there is considerable and appropriate 
ground to cover today.
    The Universal Declaration of Human Rights provides that all people 
have the right ``to seek, receive and impart information and ideas 
through any media and regardless of frontiers.'' And yet, under Chinese 
policies, laws and regulations, private Internet companies are required 
to censor or filter content that the Chinese government deems 
politically unacceptable. These requirements impose limits on 
internationally recognized rights to free expression.
    The Internet can be a great tool for free speech and democratic 
participation. However, just in the last few months, as this Commission 
has documented, Chinese authorities have detained, imprisoned or 
affirmed the sentences of numerous individuals for non-violent 
expression over the Internet. In so doing, the Chinese government has 
shown that the Internet may be exploited by authorities as a tool to 
repress speech and to maintain a closed society.
    I would like to call attention to one case in particular, involving 
the writer and professor Liu Xiaobo. On Christmas Day 2009, a Beijing 
court sentenced Mr. Liu to 11 years in prison for six essays he 
published online and for his e-mailing Charter 08, a public document 
calling for political reform and human rights signed by thousands of 
Chinese citizens. The court in announcing its decision emphasized Mr. 
Liu's use of the Internet. Even though Mr. Liu did not advocate 
violence, the court said he had committed the crime of ``inciting 
subversion.'' Mr. Liu appealed his case, and on February 11, 2010, his 
appeal was denied. The facts are unambiguous: Mr. Liu has been 
detained, tried and punished for exercising internationally recognized 
rights to free expression and association. China does not wish to be 
labeled a gross violator of human rights, yet the Chinese government 
makes its determination to eliminate dissent painfully clear to the 
world. The trial of Mr. Liu shows us that China once again is at an 
important crossroads, but seems to be turning in the wrong direction.
    The Internet provides new forums for the exchange of ideas. People 
who use the Internet to access information, to exercise internationally 
recognized rights to free expression, or to engage in non-violent 
political speech, must be protected. In its National Human Rights 
Action Plan, the Chinese government itself threw a spotlight on the 
relationship between human rights and the Internet. Other nations, 
including ours, have both the responsibility and a legitimate interest 
in looking closely at that relationship, as this Commission, with the 
help of our distinguished panel, does today.
                                 ______
                                 

Prepared Statement of Hon. Christopher H. Smith, a U.S. Representative 
From New Jersey; Ranking Member, Congressional-Executive Commission on 
                                 China

                             march 24, 2010
    Thank you, Mr. Chairman and good afternoon to everybody.
    And thank you for calling this hearing on Internet freedom. 
Reporters Without Borders documents that in China alone, at least 72 
people are known to be imprisoned for Internet postings. But the 
victims of the Chinese government's assault on Internet freedom include 
the entire Chinese people, denied their right to free expression, 
denied access to information, and often self-censoring out of fear. 
Even beyond this, the Chinese government's victims include other 
peoples, tyrannized by governments with which the Chinese government 
sells or gives its advice on technologies and techniques of Internet 
repression--reportedly these include Cuba, Vietnam, Burma, Belarus, and 
Sri Lanka.
    Yet we have seen some positive developments. We have seen that some 
U.S. IT companies really want to do the right thing. Yahoo! has 
established much stricter policies governing its interactions with 
repressive governments, working to keep personally identifying 
information out of their hands.
    Google's transformation has been even more impressive. In 2006, I 
chaired an eight-hour hearing on The Internet in China: A Tool for 
Freedom or Suppression? The hearing responded to Yahoo!'s cooperation 
with Chinese Internet police's tracking down of journalist Shi Tao--who 
is still serving a 10-year prison term for disclosing state secrets, 
that is, e-mailing to the United States Chinese government orders not 
to report on the 15th anniversary of the Tiananmen massacre. Google, 
Yahoo! and Microsoft, among others, testified at that hearing, which 
broke the ground on the issue of Internet freedom.
    Since 2006 I have been meeting with Google executives, and they've 
known for some time that the theory that their mere presence in the 
Chinese market would liberalize China, or at least justify their 
willingness to censor searches had proven mistaken, and that China was 
growing more repressive.
    Two days ago Google fulfilled its January commitment to stop 
censoring results on its Chinese search engine. This is a remarkable, 
and welcomed action, and an important boost of encouragement for 
millions of Chinese human rights activists and political and religious 
dissidents. Google's recent actions are a blow against the cynical 
silence of so many when it comes to the Chinese government's human 
rights abuses--a blast of honesty and courage and a good example of 
responsible and principled corporate policy.
    Today Go Daddy, the world's largest domain name registrar, 
announces in its submitted testimony that it has ``decided to 
discontinue offering new .CN domain names at this time'' out concern 
``for the security of the individuals affected by'' the Chinese 
government's new requirements for domain registration.
    Go Daddy is the first company to publicly follow Google's example 
in responding to the Chinese government's censorship of the Internet by 
partially retreating from the Chinese market. Google fired a shot heard 
'round the world, and now a second American company has answered the 
call to defend the rights of the Chinese people. Go Daddy deserves to 
be praised for this decision. It is a powerful sign that American IT 
companies want to do the right thing in repressive countries.
    But Go Daddy and Google deserve more than praise for doing the 
right thing in China--they deserve our government's support. We want to 
see American IT companies doing the right thing--but we don't want to 
see them forced to leave China for doing so. Now we see that, however 
well-intentioned, American IT companies are not powerful enough to 
stand up to repressive governments. Without U.S. Government support, 
which my bill, the Global Online Freedom Act would provide, they are 
inevitably forced to play a role in the repressive government's 
censorship and surveillance.
    The Global Online Freedom Act, the legislation I crafted in 2006 
and re-introduced in this Congress, would give American IT companies 
the U.S.-Government backup they need to negotiate with repressive 
governments.
    Let me describe the bill's key provisions. The bill would establish 
an Office of Global Internet Freedom in the State Department, which 
would annually designate ``Internet restricting countries''--countries 
that substantially restrict Internet freedom relating to the peaceful 
expression of political, religious, or ideological opinion or belief. 
U.S. IT companies would have to report to the State Department any 
requirement by a repressive government for filtering or censoring 
search terms--and the State Department would make the terms and 
parameters of filtering public knowledge, thus ``naming and shaming'' 
the repressive countries.
    U.S. IT companies would also have to store personally identifying 
information outside of Internet-restricting countries, so that the 
repressive governments wouldn't be able to get their hands on it to 
track dissidents. U.S. IT companies would have to notify the Attorney 
General whenever they received a request for personally identifying 
information from a repressive country--and the Attorney General would 
have the authority to order the IT companies not to comply, if there 
was reason to believe the repressive government seeks the information 
for other than legitimate law-enforcement purposes.
    In short: the Global Online Freedom Act would give the IT companies 
the backup of the U.S. Government. If the Chinese or Iranian government 
tells them to filter a search term, they can point to the Global Online 
Freedom Act and say that U.S. law doesn't permit it. If the 
government's Internet police intercept a human rights activist's e-
mail, and demand the company turn over personally identifying 
information on the account, the company will notify the AG, who can 
then bring the weight of the U.S. Government into the matter.
    I would like to thank Google for re-iterating its support for the 
Global Online Freedom Act; which it recently did in a support letter 
which we have here today. And I also want to thank the human rights 
NGOs which have agreed to issue a joint letter of support for the bill: 
Reporters Without Borders, Amnesty International, Human Rights Watch, 
Freedom House, Laogai Research Foundation, Wei Jingsheng Foundation, 
International Campaign for Tibet, China Aid Association, Uyghur-
American Association, Committee to Protect Journalists.
    The ability of Google and such highly regarded human rights groups 
to agree in supporting the Global Online Freedom Act is a strong sign 
that we should all be able to get behind this bill--the bill has even 
been introduced, with only slight changes, in the European Parliament.

                       Submissions for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Prepared Statement of Rebecca MacKinnon, Visiting Fellow, Center for 
          Information Technology Policy, Princeton University

                             march 24, 2010
    Thank you for the opportunity to submit this testimony for the 
record. I am Rebecca MacKinnon, a visiting fellow at Princeton 
University's Center for Technology Policy. From 1992-2001, for more 
than nine years, I worked as a journalist for CNN in China. For the 
last six years while based at several different academic institutions I 
have researched Chinese Internet censorship alongside global censorship 
trends, examining in particular how the private sector assists 
government efforts to silence or manipulate citizen speech. I am a 
founding member of the Global Network Initiative, a non-governmental 
multi-stakeholder initiative that aims to help Internet and 
telecommunications companies uphold the principles of free expression 
and privacy around the world. I am also co-founder of an international 
bloggers' network called Global Voices Online. Several of our 
contributors regularly summarize and translate conversations from the 
Chinese blogosphere, and report on developments related to online free 
expression in China. My testimony today is informed by my experience as 
a journalist who has lived under Chinese censorship and surveillance; 
as a researcher of Chinese Internet censorship; as a practitioner of 
new media and participant in Chinese-language online communities; and 
as an advocate for free expression and human rights on the Internet.
    On January 12 Google stunned the world with its dramatic 
announcement that it was reconsidering its business in China in the 
wake of debilitating cyber-attacks, and furthermore that the company 
was no longer willing to continue operating a censored search engine in 
China, Google.cn, launched in January 2006.\1\ On March 22, Google 
redirected Google.cn to the Hong Kong-based search engine 
Google.com.hk, where it now provides uncensored search results in the 
simplified character set used by people in Mainland China.\2\ In my 
testimony, I will briefly describe the context of the Google decision. 
I will then outline some of the different tactics used by the Chinese 
government to censor and control online speech, including tactics used 
against Google. I will describe what some Chinese citizens are doing in 
order to evade and oppose these tactics. Finally, I will offer some 
specific policy suggestions for how the United States can help to 
improve Internet freedom in China.
---------------------------------------------------------------------------
    \1\ A new approach to China, by David Drummond,The Official Google 
Blog, Jan. 12, 2010, at: http://googleblog.blogspot.com/2010/01/new-
approach-to-china.html.
    \2\ A new approach to China: an update, by David Drummond, The 
Official Google Blog, March 22, 2010 at: http://
googleblog.blogspot.com/2010/03/new-approach-to-china-update.html
---------------------------------------------------------------------------
               the context of google's china announcement
    American Internet company executives have long argued that more 
connectivity will bring more freedom -even in repressive regimes where 
the Internet is under heavy censorship and surveillance. Statements to 
that effect were a common theme in Congressional testimony given by 
Google and Yahoo executives at the February 2006 hearing convened by 
the late Rep. Tom Lantos.\3\ Since then, Chinese Internet usage has 
nearly quadrupled. Stories abound of how Internet users in China have 
helped expose corruption, bring justice to innocent victims of official 
malfeasance, and even change some laws and regulations. But this has 
not changed the regime's repressive attitude toward dissent. According 
to a recent report by the Dui Hua Foundation, in 2008 arrests and 
indictments on charges of ``endangering state security''--the most 
common charge used in cases of political, religious, or ethnic 
dissent--more than doubled for the second time in three years.\4\
---------------------------------------------------------------------------
    \3\ Testimony of Google Inc. before the Subcommittee on Asia and 
the Pacific, and the Subcommittee on Africa, Global Human Rights, and 
International Operations, Committee on International Relations, United 
States House of Representatives, February 15, 2006, by Elliot Schrage, 
Vice President, Global Communications and Public Affairs, Google Inc., 
at: http://googleblog.blogspot.com/2006/02/testimony-internet-in-
china.html; and Testimony of Michael Callahan, Senior Vice President 
and General Counsel, Yahoo! Inc., Before the Subcommittees on Africa, 
Global Human Rights and International Operations, and Asia and the 
Pacific, February 15, 2006, at: http://yhoo.client.shareholder.com/
press/ReleaseDetail.cfm?ReleaseID=187725
    \4\ ``Chinese State Security Arrests, Indictments Doubled in 
2008,'' Dui Hua Human Rights Journal, March 25, 2009, at: http://
www.duihua.org/hrjournal/2009/03/chinese-state-security-arrests.html
---------------------------------------------------------------------------
    China is pioneering a new kind of Internet-age authoritarianism. It 
is demonstrating how a non-democratic government can stay in power 
while simultaneously expanding domestic Internet and mobile phone use. 
In China today there is a lot more give-and-take between government and 
citizens than in the pre-Internet age, and this helps bolster the 
regime's legitimacy with many Chinese Internet users who feel that they 
have a new channel for public discourse. Yet on the other hand, as this 
Commission's 2009 Annual Report clearly outlined, Communist Party 
control over the bureaucracy and courts has strengthened over the past 
decade, while the regime's institutional commitments to protect the 
universal rights and freedoms of all its citizens have weakened.\5\
---------------------------------------------------------------------------
    \5\ 2009 Annual Report, Congressional-Executive Commission on 
China, at: http://www.cecc.gov/pages/annualRpt/annualRpt09/
CECCannRpt2009.pdf
---------------------------------------------------------------------------
    Google's public complaint about Chinese cyber-attacks and 
censorship occurred against this backdrop. It reflects a recognition 
that China's status quo--at least when it comes to censorship, 
regulation, and manipulation of the Internet--is unlikely to improve 
any time soon, and may in fact continue to get worse.
                 overview of chinese internet controls
    Chinese government attempts to control online speech began in the 
late 1990's with a focus on the filtering or ``blocking'' of Internet 
content. Today, the government deploys an expanding repertoire of 
tactics. They include: deletion or removal of content at the source, 
device and local-level controls, domain name controls, localized 
disconnection or restriction, self-censorship due to surveillance, 
cyber-attacks, government ``astro-turfing,'' local government 
``outreach,'' and targeted police intimidation.

        <bullet>  Filtering or ``blocking:'' This is the original and 
        best understood form of Internet censorship. Internet users on 
        a particular network are blocked from accessing specific 
        websites. The technical term for this kind of censorship is 
        ``filtering.'' Some congressional proceedings and legislation 
        have also referred to this kind of censorship as ``Internet 
        jamming.'' Filtering can range in scope from a home network, a 
        school network, university network, corporate network, the 
        entire service of a particular commercial Internet Service 
        Provider (ISP), or all Internet connections within a specific 
        country. It is called ``filtering'' because a network 
        administrator uses special software or hardware to block access 
        to specified web pages by banning access to certain designated 
        domain names, Internet addresses, or any page containing 
        specified keywords or phrases. A wide range of commercial 
        filtering products are developed and marketed here in the 
        United States by U.S. companies for filtering by parents, 
        schools, government departments, businesses, and anybody else 
        who wants to control how their networks are used. All Internet 
        routers--including those manufactured by the U.S. company Cisco 
        Systems--come with the ability to filter because it is 
        necessary for basic cyber-security and blocking universally 
        reviled content like child pornography. However, the same 
        technology can just as easily be used to block political 
        content. According to the Open Net Initiative (ONI), an 
        academic consortium that has been following global Internet 
        filtering since 2002, more than 40 countries now practice 
        Internet filtering to some extent at the national level. 
        However China's Internet filtering system--known to many as 
        ``the Great Firewall of China''--is the most sophisticated and 
        extensive in the world.\6\ In its 2009 report on Chinese 
        Internet censorship, the ONI described increasingly pervasive 
        and sophisticated filtering tactics. ``In fine-tuning this 
        system,'' the report concluded, ``China is also adopting 
        subtler and more fluid controls.'' \7\
---------------------------------------------------------------------------
    \6\ See Access Denied: The Practice and Policy of Global Internet 
Filtering by Diebert, et.al. (MIT Press, 2008). Updates and new country 
reports are posted regularly at the Open Net Initiative website at: 
http://opennet.net
    \7\ ``China'' research profile by Stephanie Wang, Open Net 
Initiative, published on June 15, 2009 at: http://opennet.net/research/
profiles/china
---------------------------------------------------------------------------
        <bullet>  Deletion and removal of content: Filtering is the 
        primary means of censoring content over which the Chinese 
        government has no jurisdiction. When it comes to websites and 
        Internet services over which Chinese authorities do have legal 
        jurisdiction--usually because at least some of the company's 
        operations and computer servers are located in-country--why 
        merely block or filter content when you can delete it from the 
        Internet entirely? In Anglo-European legal parlance, the legal 
        mechanism used to implement such a system is called 
        ``intermediary liability.'' The Chinese government calls it 
        ``self-discipline,'' but it amounts to the same thing, and it 
        is precisely the legal mechanism through which Google's Chinese 
        search engine, Google.cn, was required to censor its search 
        results.\8\ All Internet companies operating within Chinese 
        jurisdiction--domestic or foreign--are held liable for 
        everything appearing on their search engines, blogging 
        platforms, and social networking services. They are also 
        legally responsible for everything their users discuss or 
        organize through chat clients and messaging services. In this 
        way, much of the censorship and surveillance work is delegated 
        and outsourced by the government to the private sector--who, if 
        they fail to censor and monitor their users to the government's 
        satisfaction, will lose their business license and be forced to 
        shut down. It is also the mechanism through which China-based 
        companies must monitor and censor the 
        conversations of more than 50 million Chinese bloggers. 
        Politically sensitive postings are deleted or blocked from ever 
        being published. Bloggers who get too influential in the wrong 
        ways can have their accounts shut down and their entire blogs 
        erased. That work is done primarily not by ``Internet police'' 
        but by employees of Internet companies.\9\
---------------------------------------------------------------------------
    \8\ See Race To the Bottom: Corporate Complicity in Chinese 
Internet Censorship by Human Rights Watch (August 2006), at http://
www.hrw.org/reports/2006/china0806/. Also ``Search Monitor Project: 
Toward a Measure of Transparency,'' by Nart Villeneuve, Citizen Lab 
Occasional Paper, No.1, University of Toronto (June 2008) at http://
www.citizenlab.org/papers/searchmonitor.pdf
    \9\ For more details see ``China's Censorship 2.0: How companies 
censor bloggers,'' by Rebecca MacKinnon, First Monday (February 2006) 
at: http://firstmonday.org/htbin/cgiwrap/bin/ojs/index.php/fm/article/
view/2378/2089; and ``The Chinese Censorship Foreigners Don't See,'' by 
Rebecca MacKinnon, The Wall Street Journal Asia, August 14, 2008, at: 
http://online.wsj.com/article/SB121865176983837575.html
---------------------------------------------------------------------------
        <bullet>  Cyber-attacks: The sophisticated, military-grade 
        cyber-attacks launched against Google were targeted 
        specifically at GMail accounts of human rights activists who 
        are either from China or work on China-related issues. This 
        serves as an important reminder that governments and 
        corporations are not the only victims of cyber-warfare and 
        cyber-espionage. Human rights activists, whistleblowers and 
        dissidents around the world, most of whom lack training or 
        resources to protect themselves, have over the past few years 
        been victim of 
        increasingly aggressive cyber attacks.\10\ The effect in some 
        cases is either to bring down overseas dissident websites at 
        critical political moments, or causing frequent outages, 
        putting great strain on the site's operators just to keep it 
        running. Websites run by Chinese exiles, dissidents, and human 
        rights defenders have seen increasingly aggressive attacks over 
        the past few years.\11\ In other cases the effect is to 
        compromise activists' internal computer networks and e-mail 
        accounts to the point that it becomes too risky to use the 
        Internet at all for certain kinds of organizing and 
        communications, because the dissidents don't feel confident 
        that any of their digital communications are secure. 
        Journalists who report on human rights issues and academics 
        whose research includes human rights problems have also found 
        themselves under aggressive 
        attack in places like China, exposing their sources and making 
        it much more risky to work on politically sensitive topics. 
        Like the activists, these groups are unprepared and unequipped 
        to deal with cyber-attacks.\12\
---------------------------------------------------------------------------
    \10\ See Tracking Ghostnet: Investigating a Cyber Espionage 
Network, by Information War Monitor (March 2009) at http://
www.nartv.org/mirror/ghostnet.pdf
    \11\ ``Chinese human rights sites hit by DDoS attack,'' by Owen 
Fletcher, ComputerWorld, January 26, 2010, at: http://
www.computerworld.in/articles/chinese-human-rights-sites-hit-ddos-
attack
    \12\ ``National Day triggers censorship, cyber attacks in China,'' 
Committee to Protect Journalists, September 22, 2009 at: http://
cpj.org/2009/09/national-day-triggers-censorship-cyber-attacks-in.php
---------------------------------------------------------------------------
        <bullet>  Device-level and local controls: In late spring of 
        2009 the Ministry of Industry and Information Technology (MIIT) 
        mandated that by July 1 of that year all computers sold in 
        China must be pre-installed with a specific software product 
        called ``Green Dam--Youth Escort.'' \13\ While the purpose of 
        ``Green Dam'' was ostensibly for child protection, researchers 
        inside and outside of China quickly uncovered the fact that it 
        not only censored additional political and religious content, 
        it also logged user activity and sent this information back to 
        a central computer server belonging to the software developer's 
        company.\14\ The software had other problems which made it easy 
        for U.S. industry to oppose: It contained serious programming 
        flaws which increased the user's vulnerability to cyber-attack. 
        It also violated the intellectual property rights of a U.S. 
        company's filtering product. Faced with uniform opposition from 
        the U.S. computer industry and strong protests from the U.S. 
        government, the MIIT backed down on the eve of its deadline, 
        making the installation of Green Dam voluntary instead of 
        mandatory.\15\ The defeat of Green Dam, however, did not 
        diminish other efforts to control and track Internet user 
        behavior at more localized levels within the national ``Great 
        Firewall'' system--for instance at the level of a school, 
        university, or apartment block as well as at the level of a 
        city-wide Internet Service Provider (ISP). It was reported in 
        September last year that local governments were mandating the 
        use of censoring and surveillance products with names like 
        ``Blue Shield'' and ``Huadun.'' The function and purpose of 
        these products appeared similar to Green Dam, though they had 
        the benefit of involving neither the end user nor foreign 
        companies.\16\ The implementation of these systems has received 
        little attention outside of China.
---------------------------------------------------------------------------
    \13\ ``China Squeezes PC Makers,'' by Loretta Chao, The Wall Street 
Journal, June 8, 2009, at: http://online.wsj.com/article/
SB124440211524192081.html
    \14\ China's Green Dam: The Implications of Government Control 
Encroaching on the Home PC, Open Net Initiative bulletin (June, 2009) 
at: http://opennet.net/chinas-green-dam-the-implications-government-
control-encroaching-home-pc; Analysis of the Green Dam Censorware 
System, by Scott Wolchok, Randy Yao, and J. Alex Halderman, Computer 
Science and Engineering Division, The University of Michigan, June 11, 
2009, at: http://www.cse.umich.edu/%7Ejhalderm/pub/gd/.
    \15\ ``After the Green Dam Victory,'' by Rebecca MacKinnon, CSIS 
Freeman Report, June/July 2009, at: http://csis.org/files/publication/
fr09n0607.pdf
    \16\ ``China Clamps Down on Internet Ahead of 60th Anniversary,'' 
by Owen Fletcher, IDG News Service, September 25, 2009 at: http://
www.pcworld.com/article/172627/china--clamps--down--on--internet--
ahead--of--60th--annive rsary.html ; and ``China: Blue Dam activated,'' 
by Oiwan Lam, Global Voices Advocacy, September 13, 2009 at: http://
advocacy.globalvoicesonline.org/2009/09/13/china-blue-dam-activated/
---------------------------------------------------------------------------
        <bullet>  Domain name controls: In December, the government-
        affiliated China Internet Network Information Center (CNNIC) 
        announced that it would no longer allow individuals to register 
        Internet domain names ending in .cn. Only companies or 
        organizations would be able to use the .cn domain.\17\ While 
        authorities explained that this measure was aimed at cleaning 
        up pornography, fraud, and spam, a group of Chinese webmasters 
        protested that it also violated individual rights.\18\ 
        Authorities announced that more than 130,000 websites had shut 
        down in the cleanup. In January a Chinese newspaper reported 
        that self-employed individuals and freelancers conducting 
        online business had been badly hurt by the measure.\19\ Later 
        in February, CNNIC backtracked somewhat, announcing that 
        individuals will once again be allowed to register .cn domains, 
        but all applicants must appear in person to confirm their 
        registration, show a government ID, and submit a photo of 
        themselves with their application.\20\ This eliminates the 
        possibility of anonymous domain name registration under .cn and 
        makes it easier for authorities to warn or intimidate website 
        operators when ``objectionable'' content appears.
---------------------------------------------------------------------------
    \17\ ``China tightens control on domain name registration,'' by 
Zhao Chunzhe, China Daily, December 14, 2009, at: http://
www.chinadaily.com.cn/china/2009-12/14/content--9174767.htm
    \18\ ``China: Online protest against CNNIC,'' by Oiwan Lam, Global 
Voices Advocacy, December 22, 2009 at: http://
advocacy.globalvoicesonline.org/2009/12/22/china-online-protest-
against-cnnic/
    \19\ ``China: More than 100 thousand websites shut down,'' by Oiwan 
Lam, Global Voices Advocacy, February 3, 2010, at: http://
advocacy.globalvoicesonline.org/2010/02/03/china-more-than-100-
thousand-websites-shut-down/
    \20\ ``China Further Tightens Rules for Domain Name Owners,'' by 
Owen Fletcher, PCWorld, February 23, 2010, at: http://www.pcworld.com/
article/190013/china--further--tightens--rules--for--domain--name--
owners.html
---------------------------------------------------------------------------
        <bullet>  Localized disconnection and restriction: In times of 
        crisis when the government wants to ensure that people cannot 
        use the Internet or mobile phones to organize protests, 
        connections are shut down entirely or heavily restricted in 
        specific locations. There have been anecdotal reports of 
        Internet connections going down or text-messaging services 
        suddenly not working in counties or towns immediately after 
        local disturbances broke out. The most extreme case however is 
        Xinjiang province, a traditionally Muslim region bordering 
        Pakistan, Kazakhstan, and Afghanistan in China's far Northwest. 
        After ethnic riots took place in July of last year, the 
        Internet was cut off in the entire province for six months, 
        along with most mobile text messaging and international phone 
        service. Nobody in Xinjiang could send e-mail or access any 
        website--domestic or foreign. Businesspeople had to travel to 
        the bordering province of Gansu just to communicate with 
        customers.\21\ Internet access and phone service have now been 
        restored, but with severe limitations on the number of text 
        messages people can send on their mobile phones per day, no 
        access to overseas websites, and even very limited access to 
        domestic Chinese websites. Xinjiang-based Internet users can 
        only access specially watered-down versions of official Chinese 
        news and information sites, with many of the functions such as 
        blogging or comments disabled.\22\
---------------------------------------------------------------------------
    \21\ ``What Internet? China region cut off 6 months now,'' by Cara 
Anna, Associated Press via Yahoo! News, January 19, 2010, at: http://
news.yahoo.com/s/ap/20100119/ap--on--bi--ge/as--china--internet--
blackout
    \22\ ``Blogger describes Xinjiang as an `internet prison,' '' Josh 
Karamay, BBC News, February 3, 2010, at: http://news.bbc.co.uk/2/hi/
asia-pacific/8492224.stm
---------------------------------------------------------------------------
        <bullet>  Self-censorship due to surveillance: Surveillance of 
        Internet and mobile users is conducted in a variety of ways, 
        contributing to an atmosphere of self-censorship. Surveillance 
        enables authorities to warn and harass Internet users either 
        via electronic communications or in person when individuals are 
        deemed to be taking their online activities too far. Occasional 
        detention, arrest, or imprisonment of select individuals serves 
        as an effective warning to others that they are being watched. 
        Surveillance techniques include:

                <all>  ``Classic'' monitoring: While Chinese 
                surveillance measures are explained by the government 
                to the public as anti-terrorism measures, they are also 
                broadly used to identify, then harass or imprison 
                peaceful critics of the regime. Cybercafes--the cheaper 
                and more popular option for students and less affluent 
                people--are required to monitor users in multiple ways 
                including ID registration upon entry to the cafe or 
                upon login, surveillance cameras, and monitoring 
                software installed on computers. Surveillance in 
                Chinese cybercafes is known to be so extensive that 
                people who are likely to engage in political 
                conversations online avoid doing so in such facilities.
                <all>  ``Law enforcement compliance:'' In a country 
                like China where ``crime'' is defined broadly to 
                include political dissent, companies with in-country 
                operations and user data stored locally can easily find 
                themselves complicit in the surveillance and jailing of 
                political dissidents. The most notorious example of law 
                enforcement compliance gone badly wrong was when 
                Yahoo's local Beijing staff gave Chinese police account 
                information of journalist Shi Tao, activist Wang 
                Xiaoning, and at least two others engaged in political 
                dissent.\23\ There are other examples of how law 
                enforcement compliance by foreign companies has 
                compromised activists. In 2006, Skype partnered with a 
                Chinese company to provide a localized version of its 
                service, then found itself being used by Chinese 
                authorities to track and log politically sensitive chat 
                sessions by users inside China.\24\ This happened 
                because Skype delegated law enforcement compliance to 
                its local partner without sufficient attention to how 
                the compliance was being carried out. China's more 
                sophisticated and politically aware Internet users have 
                long assumed that Chinese-branded e-mail and chat 
                services monitor their communications and share them 
                readily with authorities. As news about these incidents 
                involving foreign-branded products spread among Chinese 
                Internet users, however, many no longer feel that they 
                can trust foreign brands either. They feel they have no 
                choice but to minimize the extent to which they use any 
                Internet or mobile service for politically sensitive 
                conversations for fear that anything and everything 
                might be compromised.
---------------------------------------------------------------------------
    \23\ For detailed analysis of the Yahoo! China case see ``Shi Tao, 
Yahoo!, and the lessons for corporate social responsibility,'' working 
paper presented at presented December 2007 at the International 
Conference on Information Technology and Social Responsibility, Chinese 
University, Hong Kong, at: http://rconversation.blogs.com/
YahooShiTaoLessons.pdf
    \24\ Breaching Trust, by Nart Villeneuve, Information Warfare 
Monitor and ONI Asia Joint Report (October 2008), at: http://
www.nartv.org/mirror/breachingtrust.pdf

        <bullet>  Pro-active measures: ``astro-turfing'' and outreach: 
        The government increasingly combines censorship and 
        surveillance measures with pro-active efforts to steer online 
        conversations in the direction it prefers. In 2008 the Hong 
        Kong-based researcher David Bandurski determined that at least 
        280,000 people had been hired at various levels of government 
        to work as ``online commentators.'' Known derisively as the 
        ``50-cent party,'' these people are paid to write postings that 
        show their employers in a favorable light in online chat rooms, 
        social networking services, blogs, and comments sections of 
        news websites.\25\ Many more people do similar work as 
        volunteers--recruited from among the ranks of retired officials 
        as well as college students in the Communist Youth League who 
        aspire to become Party members. This approach is similar to a 
        tactic known as ``astro-turfing'' in American parlance, now 
        commonly used by commercial advertising firms, public relations 
        companies, and election campaigns around the world.\26\ In many 
        provinces it is now also standard practice for government 
        officials--particularly at the city and county level--to work 
        to co-opt and influence independent online writers by throwing 
        special conferences for local bloggers, or inviting them to 
        special press events or news conferences about issues of local 
        concern.\27\
---------------------------------------------------------------------------
    \25\ ``China's Guerilla War for the Web,'' by David Bandurski, Far 
Eastern Economic Review, July 2008, at: http://www.feer.com/essays/
2008/august/chinas-guerrilla-war-for-the-web
    \26\ ``Astroturfing describes the posting of supposedly independent 
messages on Internet boards by interested companies and individuals In 
American politics, the term is used to describe formal public relations 
projects which deliberately give the impression that they are 
spontaneous and populist reactions. The term comes from AstroTurf--the 
fake grass used in many indoor American football stadiums. The contrast 
between truly spontaneous or ``grassroots'' efforts and an orchestrated 
public relations campaign, is much like the distinction between real 
grass and AstroTurf.'' From http://www.answers.com/topic/astroturfing
    \27\ ``How China polices the internet,'' by Kathrin Hille, 
Financial Times, July 17, 2009 at: http://www.ft.com/cms/s/2/e716cfc6-
71a1-11de-a821-00144feabdc0.html

    All of these measures are implemented in the context of the Chinese 
government's broader policies on information and news control. In 
December the Committee to Protect Journalists listed China as the 
world's top jailer of journalists.\28\
---------------------------------------------------------------------------
    \28\ ``2009 Prison Census,'' Committee to Protect Journalists, (as 
of December 1, 2009) at: http://cpj.org/imprisoned/2009.php
---------------------------------------------------------------------------
                            citizen pushback
    Despite the government's formidable array of control tactics, 
China's determined, creative, and opinionated Internet users have 
managed to make the Chinese Internet a lively, fun, and often 
contentious place.\29\ Over the past six years I have been involved 
with a number of Chinese blogger groups, mailing lists, and social 
networks. Chinese ``netizens''--as they call themselves--are doing a 
range of things to oppose Internet controls:
---------------------------------------------------------------------------
    \29\ For an excellent portrayal of Chinese Internet culture and its 
contentious, playful nature see The Power of the Internet in China: 
Citizen Activism Online by Guobin Yang, (Columbia University Press, 
2009).

        <bullet>  Informal anti-censorship support networks: I have 
        attended gatherings of bloggers and journalists in China--with 
        varying degrees of organization or spontaneousness--where 
        participants devoted significant amounts of time to teaching 
        one another how to use circumvention tools to access blocked 
        websites. Informal ``teach-ins'' on how to access Twitter are 
        especially popular among people who want access to an 
        uncensored, international community of conversation. Certain 
        bloggers are known to post information about how to circumvent 
        censorship and welcome their friends to copy and re-post their 
        work as widely as possible. I have seen numerous Powerpoints 
        presentations and PDF documents containing instruction manuals 
        on how to use various tools, circulated by e-mail or through 
        peer-to-peer instant messaging clients.
        <bullet>  Distributed web-hosting assistance networks: I am 
        aware of people who have strong English language and technical 
        skills, as well as overseas credit cards, who are helping 
        friends and acquaintances in China to purchase inexpensive 
        space on overseas web hosting services, then set up independent 
        blogs using free open-source software. The objective is to help 
        people who don't have the technical skills to run a website on 
        their own to avoid (a) being victim of content removal if they 
        use domestic services, or (b) being blocked if they use popular 
        international blogging platforms like Blogspot, Typepad, 
        Livejournal, or Wordpress.com, all of which are blocked in 
        China. Sometimes the people doing this largely volunteer work 
        also help bloggers to switch domain names and IP addresses when 
        the blog gains attention and gets blocked by the ``great 
        firewall.''
        <bullet>  Crowdsourced ``opposition research:'' With the 
        Chinese government's Green Dam censorware edict last year, we 
        have seen the emergence of loosely organized ``opposition 
        research'' networks. Last June a group of Chinese computer 
        programmers and bloggers collectively wrote a report exposing 
        Green Dam's political and religious censorship, along with many 
        of its security flaws. They posted the document at 
        Wikileaks.\30\ Another anonymous group of Chinese netizens have 
        collected a list of companies and organizations--domestic and 
        foreign--who have helped build China's Internet censorship 
        system.\31\
---------------------------------------------------------------------------
    \30\ ``A technical analysis of the Chinese ``Green Dam Youth 
Escort'' censorship software,'' posted June 2009 on Wikileaks.org at: 
http://wikileaks.org/wiki/A--technical--analysis--of--the--Chinese--
%27Green--Dam--Youth-Escort%27--censorship--software (At time of 
writing the page cannot be reached due to bandwith and funding problems 
at Wikileaks.org)
    \32\ ``A Dirty Pun Tweaks China's Online Censors,'' by Michael 
Wines, The New York Times, March 11, 2009, at: http://www.nytimes.com/
2009/03/12/world/asia/12beast.html
---------------------------------------------------------------------------
        <bullet>  Preservation and relay of censored content: I have 
        noticed a number of people around the Chinese blogosphere and 
        in chatrooms who make a regular habit of immediately 
        downloading interesting articles, pictures, and videos which 
        they think have a chance of being blocked or removed. They then 
        re-post these materials in a variety of places, and relay them 
        to friends through social networks and e-mail lists.
        <bullet>  Humorous ``viral'' protests: In 2009, Internet 
        censorship tightened considerably. Many lively blogging 
        platforms and social networks where heated political 
        discussions were known to take place were shut down under the 
        guise of an anti-porn crackdown. In response, an anonymous 
        Shanghai-based jokester created an online music video called 
        ``Ode to the Grass Mud Horse''--whose technically innocent 
        lyrics, sung by a children's chorus over video of alpaca sheep, 
        contained a string of highly obscene homonyms. The video 
        spawned an entire genre of anti-censorship jokes and videos 
        involving mythical animals whose names sound similar to 
        official slogans and obscenities of various kinds.\32\ This 
        viral pranksterism created an outlet for people to vent about 
        censorship, poke fun at the government, and raise awareness 
        among many people who are not comfortable discussing such 
        matters in a direct way.
---------------------------------------------------------------------------
    \31\  ``GFW Engineering Team Name List,'' posted to Google 
Documents in January 2010 at: http://docs.google.com/
View?docid=0Ae8NBXfKeGvqZGR0am1yeGRfMWhyZDljcWY4
---------------------------------------------------------------------------
        <bullet>  Public persuasion efforts: A number of prominent 
        liberal Chinese intellectuals and journalists occasionally 
        write essays on personal blogs in which they criticize the 
        government's censorship and information control policies as 
        counterproductive: censorship, they argue, stifles the Chinese 
        people's innovation and creativity, contributes to corruption 
        and economic inefficiency, and generally prevents the nation 
        from fulfilling its real potential. Such arguments have failed 
        to influence government policies in any kind of meaningful way, 

        although individual officials and business leaders sometimes do 
        echo these sentiments in public fora.\33\ It remains unclear 
        when or whether this line of argument will eventually convince 
        China's leadership to relax information controls. The good 
        news, however, is that in China today it is at least possible 
        to make this argument.
---------------------------------------------------------------------------
    \33\ ``Charles Zhang: Without Reform There is No Way Out'' by Xiao 
Qiang, China Digital Times, February 4, 2010, at: http://
chinadigitaltimes.net/2010/02/charles-zhang-
%E5%BC%A0%E6%9C%9D%E9%98%B3%EF%BC%9Awithout-reform-there-is-no-way-out/
---------------------------------------------------------------------------
                            recommendations
    Because the Chinese government deploys an expanding range of 
tactics to control online speech, efforts to promote Internet freedom 
in China should be similarly multi-pronged and multi-faceted. China's 
Internet users are pushing back against the controls in a range of 
ways, as I have described. It is thus important to support, encourage, 
and enable a range of efforts aimed at tackling different parts of the 
problem. Finally, corporate social responsibility is essential: It will 
be much more difficult for Chinese Internet users to fight for their 
rights if the international business community assists the Chinese 
government in finding more effective means to muzzle them.

        <bullet>  Anti-censorship tools: Congress is to be commended 
        for giving both moral and financial support to programmers who 
        are working hard to develop anti-censorship technologies. In 
        spite of this, I have never ceased to be amazed by the number 
        of university students, academics, journalists, and other 
        white-collar professionals I've encountered on frequent trips 
        to China over the past few years who profess little or no 
        knowledge of circumvention tools and techniques. While no 
        survey data exists to shed light on what percentage of Chinese 
        Internet users know how to circumvent censorship--or are 
        interested in doing so even if they know how--the anecdotal 
        evidence I have gathered leads me to concluded that the 
        percentage must be relatively small, and concentrated among 
        elite groups of tech-savvy people who work in the Internet 
        industry, followers of banned religious groups, and politically 
        active people. The broader Internet-using public in China 
        appears to be largely in the dark about how to access blocked 
        websites. Funding for software development, therefore, needs to 
        be accompanied by equally robust support for education and 
        outreach among broader segments of Chinese society beyond the 
        obvious communities.
        <bullet>  Anonymity and security tools: In my interactions with 
        Chinese journalists, human rights, lawyers, bloggers, and 
        academics, I've found that most of them are shockingly 
        uneducated about how to evade online surveillance, how to 
        secure their e-mail, how to detect and eliminate spyware on 
        their computers, and how to guard against even the most 
        elementary cyber-attacks. Chinese-language, culturally 
        appropriate technologies, accompanied by robust education and 
        training, is badly needed. The recent attacks against Chinese 
        GMail users only highlights the urgency.
        <bullet>  Capture, preservation, and distribution of censored 
        content: As I mentioned earlier, a lot of Chinese Internet 
        users are downloading and preserving content before it gets 
        censored, but in an ad-hoc and unorganized way. A searchable, 
        accessible, and secure repository of such materials would be 
        invaluable if somebody had the time, funds, and technical 
        support to create one.
        <bullet>  Support for ``opposition research'': To date, ad-hoc 
        groups conducting research aimed at exposing details of Chinese 
        censorship policies rely primarily on two platforms to publish 
        their findings: Google Documents and Wikileaks.org. It is 
        unclear whether Google Documents will remain accessible in 
        China if Google shuts down Google.cn and reduces or closes its 
        China operations. Wikileaks.org faces bandwith problems and 
        financial difficulties resulting in frequent inaccessibility. 
        Chinese opposition researchers could use help in finding 
        secure, reliable, and accessible platforms through which their 
        work can be disseminated.
        <bullet>  Corporate responsibility: To ensure that American 
        Internet businesses in China assume the appropriate level of 
        responsibility for the human rights of their users and 
        customers, I support a voluntary component backed up by 
        legislation if necessary.

                <all>  Global Network Initiative: In 2008 Google, 
                Yahoo, and Microsoft took the important step of joining 
                the Global Network Initiative (GNI), a code of conduct 
                for free expression and privacy for companies in the 
                Information & Communications Technologies (ICT) 
                sector.\34\ The GNI can help companies uphold a shared 
                commitment to the values of free expression and privacy 
                while recognizing that no market is without political 
                difficulties or ethical dilemmas. Just as companies 
                have a social responsibility not to pollute the 
                environment or exploit twelve-year-olds, American 
                companies have a responsibility not to collaborate with 
                the suppression of peaceful speech. The GNI's 
                philosophy is grounded in the belief that people in all 
                markets stand to benefit from Internet and mobile 
                technologies. In most cases companies can still do a 
                lot of good by being engaged in countries whose 
                governments practice at least one of the forms of 
                Internet controls I have described above--as long as 
                they are aware of the human rights implications of 
                their business and technical decisions. It is 
                reasonable to expect all Internet and 
                telecommunications companies to include human rights 
                risk assessments in their decisions about market entry 
                and product development, just as they and other 
                companies consider environmental risks and labor 
                concerns. With a multi-stakeholder membership including 
                human rights groups, socially responsible investors and 
                academics like myself, GNI's goal is to help companies 
                do the right thing while bringing expanded Internet 
                communications and mobile access to the people who 
                stand to benefit from this connectivity the most.
---------------------------------------------------------------------------
    \34\ See http://globalnetworkinitiative.org
---------------------------------------------------------------------------
                  The principles' implementation guidelines and 
                accountability framework can be adapted to a range of 
                business models, including hardware companies and 
                Internet service providers if these companies choose to 
                engage with the GNI. As this Commission is aware, 
                Senator Dick Durbin has written to 30 companies urging 
                them to join the GNI and we look forward to working 
                with them so that it will be possible for them to join 
                in the near future. While GNI is presently most 
                relevant to Yahoo, Google and Microsoft because those 
                were the three companies that launched the initiative, 
                it is also apparent that the 30 companies contacted by 
                Senator Durbin share varying degrees of human rights 
                risk, even as their business models, technologies, and 
                geographies vary widely. They have an obligation to at 
                least consider joining the GNI and if they choose not 
                to, to find other appropriate policy and operational 
                responses to address the inescapable human rights 
                implications of their products or services.
                <all>  Legislation: While recognizing that no 
                connectivity at all is even worse than censored 
                connectivity, and also recognizing that many 
                information communications technologies have ``dual 
                use'' capabilities that can be used for security and 
                legitimate law enforcement as well as repression, it 
                should nonetheless be made more difficult for U.S. 
                companies to provide censorship and surveillance 
                capabilities to Chinese government entities and their 
                corporate affiliates, given the regime's clear track 
                record of using those technologies to suppress peaceful 
                political dissent. It is important, however, that 
                legislation be flexible enough to accommodate the 
                rapidly changing nature of information communications 
                technology, as well as the complex and highly diverse 
                nature of ICT businesses--including many small 
                startups, as well as innovations that are difficult to 
                define, categorize, or predict in advance. It is also 
                important that any law concerning the human rights 
                implications of ICTs be truly global in scope, 
                recognizing that ICT companies can face human rights 
                dilemmas in almost every market, whether the government 
                involved is technically categorized as ``democratic'' 
                or ``authoritarian.''
                <all>  Legal support for victims: Companies will have a 
                further disincentive to collaborate with repressive 
                surveillance and censorship if victims or corporate 
                collaboration in human rights abuses can more easily 
                sue them in a United States court of law.
                <all>  Incentives for socially responsible innovation: 
                Companies should be encouraged to develop technologies 
                and service features that enhance users' ability to 
                evade censorship and surveillance, and to help users 
                better understand what personal information is being 
                stored and how it is used.
                               conclusion
    Many of China's nearly 400 million Internet users are engaged in 
passionate debates about their communities' problems, public policy 
concerns, and their nation's future. Unfortunately these public 
discussions are skewed, blinkered, and manipulated--thanks to political 
censorship and surveillance. The Chinese people are proud of their 
nation's achievements and generally reject critiques by outsiders even 
if they agree with some of them. A democratic alternative to China's 
Internet-age authoritarianism will only be viable if it is conceived 
and built by the Chinese people from within. In helping Chinese 
``netizens'' conduct an un-manipulated and un-censored discourse about 
their future, the United States will not imposing its will on the 
Chinese people, but rather helping the Chinese people to take ownership 
over their own future.
                                 ______
                                 

             Questions and Answers Submitted for the Record

 response from christine jones to a question from representative david 
                                   wu
    Question. What are one, two, or three things the Federal Government 
can do to assist you in your capacity?
    Answer. To date, China has not enforced significant penalties 
against spammers and others who utilize the Internet to engage in 
criminal activities; thus, it has become a sort of safe harbor for such 
criminals.
    Go Daddy's efforts to persuade authorities there to investigate or 
prosecute spammers have been ineffective, as have our efforts to work 
with Chinese-based hosting companies to shut down compromised websites.
    We hope that the U.S. Government can use its influence with 
authorities in China to increase Chinese enforcement activities 
relating to Internet abuse, while encouraging the free exchange of 
ideas, information, and trade. Specifically, U.S. diplomacy with China 
should include efforts to effect the retraction of China's recent 
policies relating to the registration of .CN domain names, which will 
act as a barrier to Internet access by Chinese nationals.
response from christine jones to a question from representative michael 
                                 honda
    Question. How does the Chinese government perceive the role or 
purpose of the Internet? Is it a resource for information or economic 
benefit? One of the government's main driving forces is stability 
through economic growth. How do we help Chinese officials to understand 
the economic benefits through Internet freedom--so that they are 
encouraged to change their philosophy on censorship and lift their 
filters? Are there confidence-building steps that our government can 
make with Chinese officials to instill trust.
    Answer. There appears to be a recent increase in China's 
surveillance and monitoring of the Internet activities of its citizens. 
In particular, limitations on Chinese nationals ability to register 
domain names through non-Chinese registrars, and new reporting and 
verification requirements for .CN registrations appear, to us, to be 
based on a desire by the Chinese authorities to exercise increased 
control over the subject matter of domain name registrations by Chinese 
nationals. In addition, China has not taken adequate steps to prevent 
spam, cyber-crimes, and other malicious online activity.
    By limiting the ability of its citizens to fully engage in the 
Internet and the free flow of information and the economic productivity 
it enables, the Chinese government is limiting the economic growth 
potential of its population. In its trade and diplomatic meetings with 
the Chinese government, the United States should encourage the 
enforcement of internationally recognized norms on law enforcement 
related to malicious online activity nd seek to have China lift its 
implicit and explicit limits on domain registrations.
response from sharon hom to a question from representatives christopher 
                        smith and michael honda
    Question. As a member of the United Nations' Human Rights Council, 
should the United States government call for a hearing in the Human 
Rights Council on China's human rights practices and censorship of the 
Internet?
    Answer. The U.S. Government needs to demonstrate stronger 
leadership and more active participation in existing human rights 
bodies and processes, including the Human Rights Council. There have 
already been a number of assessments of China's human rights record by 
various UN human rights bodies that raise concerns regarding Internet 
censorship, access to information, and protection of freedom of 
expression and privacy rights. Unfortunately, during the Human Rights 
Council's Universal Periodic Review of China's overall human rights 
record in February 2009, the U.S. Government--an observer state--
remained completely silent.\1\
---------------------------------------------------------------------------
    \1\ For more information on the Human Rights Council's Universal 
Periodic Review of China in 2009, including a summary of all 
recommendations made by observer states to the Chinese government for 
greater human rights protections, see Human Rights in China's press 
releases, including ``China's UN Human Rights Review: New Process, Old 
Politics, Weak Implementation Prospects,'' February 9, 2009, http://
www.hrichina.org/public/contents/127014 and ``China Rejects UN 
Recommendations for Substantive Reform to Advance Human Rights,'' 
February 11, 2009, http://www.hrichina.org/public/contents/128130. 
Recommendations from the U.S. Government are notably absent from the 
international community's calls for greater human rights reform.
---------------------------------------------------------------------------
    Other UN human rights mechanisms available are limited by their 
specific relevant mandates and are often further weakened by the 
council's politicized process. Nonetheless, the U.S. Government can 
still do much more to strengthen the credibility and effectiveness of 
the work of the Human Rights Council.
    The U.S. Government should also actively promote greater 
protections for online freedom of expression and protection of privacy 
through greater participation in other international forums, and 
strategic cooperation with European and other bilateral partners to 
integrate human rights issues and concerns throughout its trade, human 
rights, and security policy approaches.
  response from sharon hom to a question from representative david wu
    Question. What are one, two, or three things the Federal Government 
can do to assist you in your capacity?
    Answer. U.S. leadership on global norm building: In fulfilling its 
commitment to development of and respect for international law, the 
U.S. Government must actively participate in the process of developing 
a global consensus on defining and promoting Internet rights and 
freedoms within an international human rights framework.
    Support for and consultation with civil society: The U.S. 
Government can also support civil society groups, both in the United 
States and abroad, including those engaged in important Internet 
advocacy in restrictive regimes like China. This should include regular 
consultations with human rights groups, technology developers, 
information and communications technology (ICT) companies, socially 
responsible investors, policy think tanks, and academic communities.
    Encourage pro-active private sector initiatives: The U.S. 
Government should continue to encourage individual companies, and 
business and trade associations, to address and promote more effective 
approaches to advancing human rights, including freedom of expression 
and privacy rights. This encouragement should include support for and 
pressure on ICT companies to participate in multi-stakeholder 
initiatives, such as the Global Network Initiative.\2\
---------------------------------------------------------------------------
    \2\ The Global Network Initiative (GNI) is a multi-stakeholder 
group of companies, civil society organizations (including human rights 
and press freedom groups), investors and academics committed to 
developing a collaborative approach to protect and advance freedom of 
expression and privacy in the ICT sector. For more information, see 
http://www.globalnetworkinitiative.org.
---------------------------------------------------------------------------
  responses from sharon hom to questions from representative michael 
                                 honda
    Question 1. How does the Chinese government perceive the role or 
purpose of the Internet? Is it a resource for information or economic 
benefit? One of the government's main driving forces is stability 
through economic growth. How do we help Chinese officials to understand 
the economic benefits through Internet freedom--so that they are 
encouraged to change their philosophy on censorship and lift their 
filters? Are there confidence-building steps that our government can 
make with Chinese officials to instill trust?
    Answer. The Chinese government's perception of the role and purpose 
of the Internet has changed over the past decade. As part of its 
efforts to modernize and deploy high technology, China built its 
Internet infrastructure via the so-called ``Golden Shield Project'' to 
enhance and increase its information control and surveillance 
capability--largely with the help of foreign ICT companies.\3\
---------------------------------------------------------------------------
    \3\ Multinational corporations deeply involved in creating China's 
Internet infrastructure include Nortel Networks, Sun Microsystems, and 
Cisco. See Greg Walton, China's Golden Shield (Montreal: International 
Centre for Human Rights and Democratic Development, 2001), available at 
http://www.ichrdd.ca/site/--PDF/publications/globalization/CGS--
ENG.PDF.
---------------------------------------------------------------------------
    However, the current evolution and rapid growth of the Internet has 
exceeded the Chinese leadership's initial understanding of its 
capability to control it. They did not foresee that one day the 
Internet might provide direct online platforms for public opinion, 
debate, and broadcast beyond official media for now over 384 million 
netizens, including 233 million mobile Internet users, and over 50 
million bloggers.\4\
---------------------------------------------------------------------------
    \4\ See China Internet Network Information Center, 25th Statistical 
Survey Report on Internet Development in China (Beijing: China Internet 
Network Information Center, 2010), available at http://www.cnnic.cn/
uploadfiles/pdf/2010/3/15/142705.pdf.
---------------------------------------------------------------------------
    The Chinese government also understands very well the economic 
benefits of the Internet, but the number one policy imperative is to 
maintain social and political control through Chinese law, a pervasive 
police and security apparatus, and state-of-the art surveillance and 
monitoring technology, all of which contribute to self-censorship. 
Despite this powerful censorship and surveillance capacity, the Chinese 
government perceives the Internet to pose serious risks to one-party 
rule.
    Therefore, the key challenge is not building confidence, because 
the Chinese authorities can never be reassured about their greatest 
fear: loss of power. To ask the Chinese authorities to ``change its 
philosophy on censorship and lift their filters'' is like asking a 
tiger for its skin. However, there are reform forces within Chinese 
society that desperately need support, encouragement, and confidence-
building measures to enhance their own efforts to advance a more open 
and democratic society in China.
    Question 2. Over the years, we have seen Chinese regulations and 
laws adopted that improve human rights and rule of law standards. 
However, transparency and enforcement of these have been questionable 
and lacking. Much of that is due to the lack of oversight on local 
officials to enforce these rules. In this case, Internet censorship is 
more of a centralized effort and governance. As Ambassador Palmer 
stated, one person or small group at the top of the leadership can hold 
back reforms. I see Internet censorship as a perfect case in point. Do 
you see the new and upcoming party leaders as more receptive to 
Internet policy reforms?
    Answer. Although there is a widely recognized gap between Chinese 
law as written on the books and as actually enforced, the one key 
policy obstacle to greater rights protection is the Chinese 
leadership's emphasis on ``yifazhiguo''--to rule the country by law. 
That is, the key role of Chinese law is to uphold the authoritarian 
regime. This role is not to be confused with an independent rule of 
law, or ``fazhi.''
    After the 18th National People's Congress in 2012, there will be 
new faces within the Chinese leadership. Clearly, some are already 
lining up in the wings. However, no matter who the new leaders are, 
they will always act in furtherance of the Communist Party of China's 
special interests. Although they may be receptive to some Internet 
policy reforms, they will not support any reforms that undermine their 
hold on power.
    Question 3. There are over 400,000 Chinese Internet users. What is 
the general Chinese public's opinion of the Internet? We have seen a 
tremendous increase in the number of protests in China, such as ones 
against poor work conditions and local government corruption. Internet 
censorship, however, is less visible and tangible. Can we expect a 
larger popular protest on Internet censorship in China?
    Answer. The Internet has become an integral part of the daily life 
of a certain demographic of Chinese people--typically educated, 
professional, high-income males under the age of 30.\5\ However, 
together with the rapid expansion of mobile technology, social 
networking tools like Twitter, QQ, and Skype, and the explosive growth 
of multimedia applications, the Internet has also provided the platform 
for immediate broadcast of protest footage, documentation of security 
and police actions, and social mobilization. This empowering role of 
technology has the further effect of encouraging other citizens to use 
these tools--all deployed with great spirit and even satirical humor.
---------------------------------------------------------------------------
    \5\ Ibid.
---------------------------------------------------------------------------

                                 <all>

</pre></body></html>
